<html>
<title> - PUBLIC LANDS AND FORESTS LEGISLATION</title>
<body><pre>[Senate Hearing 111-364]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-364
 
                  PUBLIC LANDS AND FORESTS LEGISLATION 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                S. 1470                  H.R. 762
                S. 1719                  H.R. 934
                S. 1787
                                __________

                           DECEMBER 17, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-952 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee



















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Anderson, Sherman, President and Owner, Sun Mountain Lumber, 
  Inc., Deer Lodge, MT...........................................    45
Baker, Tim, Legislative Campaign Director, Montana Wilderness 
  Association....................................................    56
Baucus, Hon. Max, U.S. Senator From Montana......................     9
Bennett, Hon. Robert, U.S. Senator From Utah.....................    14
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     2
Crapo, Hon. Mike, U.S. Senator From Idaho........................    12
Hurt, Ronald, Idaho Commissioner, Fremont County.................    41
Koehler, Matthew, Executive Director, Wild West Institute........    47
McGinley, Michael J., Commissioner, Beaverhead County Commission, 
  Dillon, MT.....................................................    37
Risch, Hon. James E., U.S. Senator From Idaho....................     3
Roberson, Edwin, Assistant Director, Bureau of Land Management, 
  Department of the Interior.....................................    21
Sherman, Harris, Under Secretary, Natural Resources and 
  Environment, Department of Agriculture.........................    16
Tester, Hon. Jon, U.S. Senator From Montana......................     4
Wood, Christopher A., Chief Operating Officer, Trout Unlimited...    62
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    75

                              Appendix II

Additional material submitted for the record.....................    79


                  PUBLIC LANDS AND FORESTS LEGISLATION

                              ----------                              


                      THURSDAY, DECEMBER 17, 2009

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order, and 
good afternoon to all.
    We have 3 of our colleagues here today, and I will just 
have a very brief opening statement, recognize the chairman of 
the full committee, Senator Bingaman, is here. Senator Risch is 
here.
    Today, we are going to consider 5 bills that are pending 
before the subcommittee: S. 1470, The Forest Jobs and 
Recreation Act of 2009; S. 1719 to convey national forest land 
to the town of Alta, Utah; S. 1787, The Federal Land 
Transaction Facilitation Reauthorization Act of 2009; H.R. 762 
to validate final patent 27-2005-0081, and for other purposes; 
and H.R. 934 to convey certain submerged lands to the 
Commonwealth of the Northern Mariana Islands.
    We are going to hear from Chairman Baucus and Senator 
Tester and Senator Crapo in just a moment.
    I do, as we begin, want to mention that yesterday we were 
able in the State of Oregon to bring together timber industry 
folks and environmentalists to find common ground. We have 
never been able to do that before. It is going to make it 
possible for us to get saw logs to mills in eastern Oregon--we 
have got communities there with more than 20 percent 
unemployment--and, at the same time, also protect some of the 
old growth that Oregonians treasure.
    I know that Senator Tester has been working very, very hard 
to develop a homegrown solution. Chairman Baucus and I have 
gone through a whole host of the timber debates over the years. 
So it is great to have my chairman here as well.
    I know Senator Tester and Senator Baucus have been working 
together. Then, of course, Senator Crapo and I go back through 
the days of county payments and a host of other resources 
issues.
    So before we recognize our colleagues, let me first go to 
Chairman Bingaman and then Senator Risch for any comments they 
would like to make.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Mr. Chairman, thank you having this hearing.
    Let me mention two of the agenda items on your list that I 
have particular interest in. One is S. 1787. This is a bill I 
introduced to reauthorize the Federal Land Transaction 
Facilitation Act. That is an act that we put in law as part of 
the Valles Caldera National Preserve legislation back in 2000. 
Senator Domenici was a strong advocate for this.
    It allows the BLM to retain revenues from the sale of 
surplus lands and use those revenues, along with other Federal 
land management agencies, to acquire in holdings within 
federally designated conservation areas. This has been a good 
thing. BLM has, I think, favored this reauthorization. I hope 
we can move ahead with that quickly.
    Also just to mention Senator Tester's bill, which he has 
come to speak to me about, as has Senator Baucus. The two of 
them have worked hard together on this legislation, and I think 
it is very important legislation.
    I remember chairing a hearing 15 years ago with Senator 
Baucus up in Missoula, which he invited me to come to and on an 
earlier Montana wilderness proposal. I know that these can be 
contentious issues. I do believe there are some policy issues 
that we need to understand better and address as this bill 
moves forward, and I look forward to hearing both from the 
sponsors of the legislation and also, of course, from the 
administration and the other witnesses.
    Let me also just mention I believe this is the first 
hearing that Harris Sherman has been here for. We welcome him, 
the new Under Secretary for Natural Resources and Environment 
in the Department of Agriculture.
    Also I wanted to recognize Ed Roberson. Ed is here. He is 
testifying for the BLM today also for the first time before our 
committee. Ed is currently the Assistant Director at the BLM. 
He previously was managing the district office in Las Cruces, 
New Mexico. Did a great job there. I am sure he will do a great 
job here in Washington as well.
    But thank you for letting me participate.
    [The prepared statement of Senator Bingaman follows:]
 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico
    Mr. Chairman, thank you for scheduling this hearing. I'd like to 
briefly comment on S. 1787, which is a bill I introduced to reauthorize 
the Federal Land Transaction Facilitation Act. While the law's title is 
unwieldy, it has proven to be a very important management tool for the 
Bureau of Land Management and it provides important benefits to not 
just the BLM, but the Forest Service, National Park Service, and U.S. 
Fish and Wildlife Service as well.
    Under the law, which was originally enacted in 2000 as title II of 
the bill establishing the Valles Caldera National Preserve, the BLM is 
able to retain revenues from the sale of surplus lands, and use those 
revenues, along with the other Federal land management agencies to 
acquire inholdings within federally designated conservation areas, with 
a priority on those areas containing exceptional resources. As the 
BLM's testimony notes, over $113 million has been raised through this 
program since its enactment.
    The initial law was authorized for 10 years and will expire next 
summer, unless it is reauthorized. My bill would permanently 
reauthorize the program and would allow the revenues from any lands 
identified for disposal as of the date of enactment of this Act to be 
used for acquisition of inholdings.
    I understand we may need to make a few minor adjustments to the 
bill to make sure we aren't affecting certain state-specific land 
acquisition programs, such as the ones established in Idaho and Utah as 
part of the Omnibus Public Lands bill enacted earlier this year, and we 
will work with the BLM to make sure we accurately account for those 
programs.
    Mr. Chairman, I know that Senator Tester's forests bill is the 
major item on the agenda today, and I wanted to commend him - and 
Senator Baucus who is a cosponsor of the bill - for working so hard to 
try and resolve many longstanding contentious forest management and 
wilderness issues. I chaired a hearing over 15 years ago in Missoula on 
an earlier Montana wilderness proposal, which ultimately was not 
enacted into law, so I appreciate how difficult of an issue this is. I 
believe there are a number of policy issues we will need to address as 
this bill moves forward, and I look forward to working with Senators 
Tester and Baucus, the other members of the committee, and the 
Administration to try and resolve those issues.
    Mr. Chairman, I'd like to welcome Harris Sherman, who is the new 
Under Secretary for Natural Resources and Environment at the Department 
of Agriculture, who I believe is testifying before the committee for 
the first time this afternoon. With his responsibilities for the Forest 
Service, among other agencies, the Under Secretary has a critical role 
in shaping our federal land policies, and I look forward to working 
with him not only on the Montana bill, but also on the many important 
forest issues facing the committee.
    And finally, I'd like to recognize Ed Roberson, who is testifying 
for the BLM today, also for the first time before this committee, I 
believe. Ed is currently the Assistant Director at the BLM, but 
previously was the District Manager at the BLM field office in Las 
Cruces. Ed did a great job in New Mexico, and I know he'll do equally 
well here in Washington. I'm pleased to welcome him here this afternoon 
and look forward to his testimony later in the hearing.
    Thank you.

    Senator Wyden. Thank you, Chairman Bingaman.
    Senator Risch.

        STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR 
                           FROM IDAHO

    Senator Risch. Thank you, Mr. Chairman, for holding this 
hearing.
    I am interested particularly, obviously, in hearing 
regarding the Montana situation. Obviously, I am always 
delighted when States are able to do this internally and the 
impetus for the management plan comes from the State itself, 
rather than coming from the banks of the Potomac.
    In Idaho, we did that with 9.2 million acres of roadless. 
We have the only roadless plan in America that is on the books 
right now. It was done in a collaborative fashion with 
participation from both ends of the spectrum and everything in 
between. I did that when I was Governor.
    Senator Crapo did the same thing with a very sensitive 
piece of ground in the Owyhees that has been very contentious 
over the years and was able to bring all the parties together. 
So I am anxious to hear about the process in Montana.
    Of course, we have a modest interest in it because there is 
a piece of it that is up against Idaho. In fact, I guess in the 
wintertime, the only access is from Idaho. I suggested to 
Senator Tester maybe we ought to look at the States lines. He 
didn't think that was a good idea. So we are going to have to 
look at it from a different perspective, which I am glad to do.
    So, with that, thank you very much, Mr. Chairman.
    Senator Wyden. Thank you, Senator Risch.
    I think it is appropriate to begin with Chairman Baucus. I 
also want to say, as we begin this hearing, that the county 
payments legislation, which has been a lifeline throughout the 
West, simply could not have happened without Chairman Baucus. 
It was a tough fight in 2000, but it was impossible last year. 
Somehow, Chairman Baucus was able to spearhead that effort.
    So, Mr. Chairman, please proceed as you would like.
    Senator Baucus. You are more than generous. You are much 
too generous because, frankly, Senator, you, frankly, carried 
most of the water on that.
    Mr. Chairman, I just think it is appropriate that the 
sponsor of the bill proceed first.
    Senator Wyden. Whatever is your pleasure.
    Senator Baucus. My colleague Senator Tester. I mean, I am 
co-sponsoring the bill. He is the primary guy. He is the one 
that has put it all together. I just think it is only 
appropriate that since it is his bill, that he take the lead 
here. I will follow up.
    Senator Wyden. Typical of Chairman Baucus.
    Senator Tester, I gather after you are done, we will have 
Chairman Baucus, and we will have Senator Crapo. Senator 
Tester, you and Senator Crapo are going to sit in with the 
subcommittee later through the day?
    Senator Crapo. If there is time. I know that Senator Tester 
will.
    Senator Wyden. OK. Let us go with Senator Tester.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    Thank you, Senator Baucus, and I will sit in after I get 
done with my testimony to hear the other folks testify.
    Before I get into my testimony, I want to thank you for 
holding this hearing. Obviously, I also want to thank Chairman 
Bingaman. It is good to be back in the room. Hopefully, I will 
be back here some day. But thank you for your leadership in the 
whole committee, Senator Bingaman.
    I want to thank you, Senator Wyden, for inviting me to 
speak on the Forest Jobs and Recreation Act of 2009. I 
appreciate your consideration of this critical piece of 
legislation for the State of Montana and for the country as a 
whole.
    I know you, as you spoke in your opening remarks, have 
introduced a similar piece of public lands legislation for 
Oregon yesterday, demonstrating the critical need to address 
these issues in the West.
    Mr. Chairman, I also want to thank the senior Senator from 
Montana, Senator Max Baucus, for co-sponsoring this 
legislation. I want to thank the Forest Service and the folks 
on this committee for working with me and my staff on this 
bill, and I look forward to continuing those efforts.
    I want to acknowledge the work of the many Montanans who 
brought this proposal to me, many who have flown across the 
country to join us here today. If you could take a moment, I 
would like to have those individuals who have come here to 
support this bill from Montana stand up, please.
    Senator Wyden. Welcome to all.
    Senator Tester. Yes, and I want to thank you all for being 
here.
    I would especially like to welcome to Washington the 
Montanans who have come to testify on this bill--to Mr. Baker 
of the Montana Wilderness Association, to former Montana 
senator Sherm Anderson, owner of the Sun Mountain Lumber and a 
good friend of mine. I want to thank you for your continued 
efforts on this bill.
    Mr. Koehler, I look forward to finally hearing your 
comments on the bill this afternoon. Commissioner McGinley, 
although I have addressed many of the Beaverhead County 
concerns while drafting this bill, I understand that you may 
still have some concerns. I appreciate you sharing them with us 
today.
    I would like to thank Governor Schweitzer and the many 
counties who have also submitted testimony for the record and 
their support of this initiative. At this time, I would like to 
introduce their testimony, along with the voices of many 
Montanans and national groups who have worked diligently on 
this bill, and they are contained in this full----
    Senator Wyden. Without objection, they will go in the 
record.
    Senator Tester. I want to, once again, thank Senator Baucus 
for his co-sponsorship and his support in this effort. His 
tenure in this body means a lot, and he has helped me a lot 
through this process. I just want to make my appreciation for 
that known to the senior Senator from Montana.
    Twenty years ago, fights on these issues were not just 
rhetorical. Communities were deeply divided. Even death threats 
were issued. But after all the fighting, no one won.
    In 1988, shortly after President Reagan vetoed Montana's 
last wilderness bill that was introduced by Congressman Pat 
Williams, Congressman Williams said, ``If this bill doesn't 
pass, years from now''--and this was in 1988--``If this bill 
doesn't pass, years from now, people are going to look back and 
say 1988 was the year when the timber industry started downhill 
because the congressional delegation couldn't reach an 
agreement on a wilderness bill.''
    Here we are, almost 22 years later, and Congressman 
Williams's words could not have been more prophetic. The 
mounting problems in Montana are evident, starting with our 
timber industry.
    In 1988, Montana had 38 timber mills. Now we have 10, and 
each one of those is struggling. In 1988, the mills received 40 
percent of their timber from Federal forest lands. Today, that 
number is roughly around 10 percent.
    I do not quote these numbers to say that the 1980s were 
better. Most of us in this room could agree that the land 
management on our national forests then was not sustainable. 
Harvest levels in Montana peaked in 1988. That forced the 
pendulum to swing to where we are now, which is also not 
sustainable.
    But as we face greater and greater climatic effects, such 
as drought and pine needle and forest products infrastructure, 
it becomes of greater and greater importance that our forest 
infrastructure stays put. We cannot afford to lose these people 
who know how to manage the forest and who know how to work the 
woods. We need their skills to restore our forests, to protect 
clean water that flows from them, and protect our communities 
from wildfire.
    Last year, in my State, 1.8 million acres were attacked by 
mountain pine beetle. That gives us the dubious distinction of 
holding the record for the highest mortality by any insect 
anywhere in the country.
    I saw it firsthand when I flew over the Beaverhead-
Deerlodge forest recently. It was a sea of red pushing three-
quarters of a million acres. You will have to excuse me, but 
are those pictures up?
    No, they are not. But that is OK. We will get them to you. 
It is absolutely incredible to see it--red, dead trees.
    Bug kill is not the only unprecedented effect on the 
landscape. Wildfires are burning bigger, hotter, and more 
often. Nationwide, from 1960 to 1999, an average of 3.6 million 
acres burned annually. Since the new millennium, that number 
has almost doubled to more than 6 million acres annually.
    It isn't just acres burned that pose a danger. It is the 
financial cost to our communities. The Forest Service has spent 
an average of $3 billion a year on forest fires since 2000, 
almost double what it spent last century.
    The face of our forest is changing, and how we manage our 
forest must change, too. I am proud to say that not only do 
Montanans understand this, they are asking us to do something 
about it. That is why they asked me to carry this legislation.
    I want to be clear. This legislation was made in Montana by 
Montanans about 5 years ago. After years of yelling at each 
other over the forest, people finally started talking to one 
another. They realized when they started having these 
conversations that they had more in common than they ever 
imagined.
    That is how 3 collaborative efforts in 3 different places 
of the State of Montana began. In the southwestern part of 
Montana, we had a collaborative effort on the Beaverhead-
Deerlodge National Forest; in the Blackfoot River country of 
the Seeley District on the Lolo National Forest, another 
collaborative effort; and finally, in the far northwestern 
corner of the State in the Yaak on the Three Rivers District of 
the Kootenai National Forest.
    Each group independently came up with proposals that were 
similar, each one to address the great need to manage and 
restore our forests. Each attempted to resolve motorized and 
nonmotorized conflicts on recreation lands, and all made 
recommendations on designated wilderness.
    They each approached me with their proposals shortly after 
I came to the U.S. Senate and asked me to carry their 
legislation. I looked closely at all 3 proposals because they 
were very similar. I rolled them into one piece of legislation, 
honoring what each group brought me while incorporating the 
views of even more Montanans.
    Mr. Chairman, I believe this new approach, looking at the 
entire forest to determine what use is appropriate and where, 
is the right approach for our national lands in Montana. Like 
Secretary Vilsack, I also firmly believe working together is 
the key to success in forest management.
    The Secretary outlined his goals for the Forest Service 
earlier this year. He said that collaboration, stewardship, and 
restoration are critical tools to preserving our national 
forests.
    He said, and I quote, ``Given the threats that our forests 
face today, Americans must move away from polarization. We must 
work toward a shared vision, a vision that conserves our 
forests and the vital resources important to our survival while 
wisely respecting the need for a forest economy that creates 
jobs and vibrant rural communities.''
    Ladies and gentlemen, I am here to tell you that is exactly 
what S. 1470 aims to do. First, this bill aims to shift forest 
management away from timber volume toward forest health by 
directing the Forest Service to kick off landscape-level 
stewardship projects once a year, each year, in each of the 3 
places.
    There is a reason that this bill avoids mandates on board-
feet and instead directs the number and size of landscape-level 
projects. We are less interested in numbers and more interested 
in a holistic approach to thinking about the landscape. This 
means that the goal is not just the wood taken from the land. 
It is also the stewardship.
    Second, the bill recognizes that the forests should provide 
places to play by designating over 300,000 acres of recreation 
land.
    Last, the bill designates 677,000 acres of wilderness, the 
first such designation in Montana in more than 25 years. It 
resolves outstanding wilderness study areas on Forest Service 
and Bureau of Land Management ground by designating some and 
releasing others.
    It adds to our treasured landscapes like the Bob Marshall 
Wilderness, the Anaconda-Pintler Wilderness, and for the first 
time, it would designate some land in the Yaak Valley as 
wilderness.
    I suppose some of the bill's critics will seize on the 
acreage numbers for mechanical treatment and the sheer size of 
the landscape projects. They will use historic numbers to paint 
a picture of forest devastation. But these historic records 
don't fully inform the discussion. They show numbers of acres 
harvested for commercial saw logs. They are numbers of board-
feet removed.
    I think we need to talk about acres treated, acres 
restored. The forest management in this bill doesn't quite 
wedge into the columns of the old spreadsheets. We cannot 
compare the old ways of yesteryear with the path that we are 
forging today.
    Mr. Chairman, I am aware that this bill will continue to be 
refined, and I welcome that discussion. Through open houses, my 
Web site, and phone calls, I have heard from literally 
thousands of Montanans on this bill, and they have made some 
good suggestions. Let me give you a few examples.
    For the recreation areas, I intend to clarify that 
snowmobilers not only have access to the routes and trails they 
use today, but also to the overland areas that they use today. 
In order to protect critical grizzly habitat and ensure the 
Forest Service is able to put together successful projects on 
the Kootenai National Forest, I will ask the agency to help me 
determine how best to expand the zone of where the forest and 
restoration activities of this bill can occur on the Kootenai.
    I will ask the agency and conservationists in Montana to 
consider a designation other than wilderness for the highlands 
near Butte, where occasional wilderness survival trainings 
occur for our men and women that are headed to Afghanistan.
    I also intend to continue further discussions--further 
discuss the Mount Jefferson area with my friends Senator Crapo 
and Senator Risch. I know there are people on both sides of the 
State line who have vested economic and recreational interests 
in this area.
    But as I have stated in each one of my town hall meetings, 
if we all give a little, we all get a lot. We are so very 
fortunate as Americans that the generations that came before us 
thought it wise to put aside forests for all the Nation to own. 
How we manage and protect them is a profound responsibility. 
This legislation is a bold step forward, but it is not without 
its critics.
    One thing is for certain. It brings some uncommon 
bedfellows together to support a new way to perform forest 
management. I know we will all learn from this approach, and 
there is nothing I would rather do for the Forest Service than 
help them perform the critical work that it must do to ensure 
that we all have clean water, healthy forests, a place to hunt, 
fish, and camp into the future.
    Let me say this. It is easy to chastise from the sidelines. 
It is easy to use the bully pulpit to preach. It is easy to 
draw lines in the sand and to claim the superiority of your 
values or narrow interest. But it is much more difficult to 
step up and join the conversation, reflect deeply on our common 
values, and build a consensus to move forward.
    Change is not easy, and no one expects it to be. But not 
facing up to our challenge is not an option. We need to address 
those challenges head-on. This bill was not created overnight. 
The concerns people have about it here will not be fixed 
overnight either.
    But I did not come to the U.S. Senate to shy away from hard 
issues. This is what is important to the people of Montana. 
They have worked tirelessly toward a solution for our forests, 
and so will I. That is why I look forward to continue to work 
with this committee and the Forest Service to solve these 
issues so that this bill can make a practical, lasting, common-
sense impact on the ground and on the lives of all Montanans.
    Once again, I want to thank you, Mr. Chairman.
    I want to thank the rest of the committee for their time.
    Senator Wyden. Senator Tester, thank you for an excellent 
statement. I know how strongly you feel about this and all the 
homegrown effort and energy that has gone into it.
    I will have some questions for you in a minute. I am just 
struck, as I listen to you, that there is ringing through what 
you have said something that we are hearing all through the 
West. That is that westerners have seen, we have reached that 
moment where we have got to stake out some fresh approaches in 
natural resources.
    What we have always wanted in the West was a win-win. We 
wanted to have strong rural economies, and we wanted to protect 
our treasures. Too often, what we have seen as a result of 
current policy is what westerners often call a lose-lose. You 
don't get what you need in terms of jobs, good-paying jobs in 
rural areas, nor do you protect the treasures. What you usually 
do is just end up in Federal court suing each other.
    So we are going to take your approach very seriously. Thank 
you for all of your efforts. You have talked to me about this 
many, many times. Probably not as many as our guests can 
imagine, but we will work very closely with you.
    Chairman Baucus, for whatever remarks you would like to 
make.

          STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR 
                          FROM MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    I want to first thank my colleague Jon Tester for working 
very hard, an extraordinary amount of time and effort to try to 
get this right, get the right balance on this legislation. I 
don't know if people really appreciate how much time and effort 
he has put into it, but he has. He deserves to be commended for 
it.
    Thank you, Chairman Wyden, Senator Risch, Senator Bennett, 
and also Chairman Bingaman of this committee.
    I want to allude a little bit to what Senator Bingaman 
mentioned and Senator Tester did as well. All of us in Western 
States, particularly with lots of natural resources, wrestle 
with these kinds of questions all the time. Back it was about 
34 years ago the first time I started wrestling and got 
involved in this.
    I will never forget working on wilderness bills. It was a 
State-wide bill. It was 1988. John Melcher was in the Senate 
here, and our delegation, congressional delegation sat down and 
poring over maps, trying to draw boundary lines for wilderness, 
trying to protect certain areas that should be protected, what 
cabins, what private land should be protected, what not. I have 
never spent so much time on anything as I did that.
    The exception now is healthcare reform. That is taking more 
time.
    [Laughter.]
    Senator Risch. You are not done yet.
    [Laughter.]
    Senator Baucus. Not done yet.
    You know, it struck me this is not a good way to be doing 
this. I mean, sure, we should be drawing lines. But really, 
more of this should be not top-down, but bottom-up. We should 
be spending a lot more time listening to and really agreeing to 
agreements that have been reached at home.
    But we didn't do it that way, and President Reagan vetoed 
the bill. Senator Melcher was defeated in large part because of 
this issue back home. The timing could not have been worse for 
him. But I hope we have learned some lessons, and I just, 
therefore, very much appreciate the effort and the approach 
that Senator Tester has made here to make this as bottom-up. It 
is not top-down.
    That is, as I said at the beginning, at the outset, all the 
time he has spent on this. I have, too. But nothing compares to 
the amount of time that he has spent on this. It was an awful 
time.
    The veto of that bill was really important, gasoline on 
fire. Montanans were very, very worked up, each side. Both 
sides. Remember, there were ``women for timber'' and all these 
slogans out there. ``This family is supported by timber 
dollars,'' or just very, very narrow and vitriolic. Groups 
weren't talking to each other.
    I remember I talked to someone in the environmental side, 
and I said, ``Bozeman, I said why don't you go--'' He was very 
upset with YR. That is a company down in Livingston. I said, 
``Why don't you go over and talk to those folks? Maybe you can 
work out some accommodation.''
    Oh, no. We can't do that. We can't talk to them.
    It just struck me. That is the heart of the problem. Nobody 
is talking to anybody. This, as I said, is a much different 
approach.
    Jon has mentioned beetle kill. It is terrible. I don't have 
to tell you all that. It is terrible in the West. It is getting 
worse and worse, and it is getting scary, frankly, the beetle 
kill. There is so much of it.
    I am coincidentally, totally out of coincidence, am reading 
a book right now. It is called--I think it is 1910. It is about 
the largest fire in our Nation's history. In 1910, it was on 
the border with Idaho, coincidentally, Montana, and in August 
1910, there were over 2,000 fires burning.
    Roosevelt was the prior President, had named Gifford 
Pinchot head of the Forest Service. They called them little 
GPs, little Gifford Pinchots who were the rangers of the time, 
just trying to do what they could to put out these fires. They 
couldn't--small fires just at the time. They had a hard time 
doing it, scrambling around.
    At that point, 1910, Taft was President. Taft kept getting 
these urgent messages from the West saying, There are fires out 
here. Finally, Taft committed several thousand soldiers to go 
out and fight fires in Montana and Idaho.
    I don't want to be an alarmist. I am not an alarmist. But 
with all this beetle kill now and the fires we had at home a 
summer ago, they burned so hot. Talking to the incident 
managers on these fires, they are hot because different 
conditions, things are drier and so forth.
    I am not saying there is going to be another 1910 because 
we are a lot better at fighting fires now than we were back 
them. But you can just feel that with all the beetle kill and 
the summers are so dry, it is not good. Something is going to 
happen.
    There are a couple of things we can do. We could try to go 
into some of these areas where there is beetle kill and figure 
out some way to get ahead of the curve if we possibly can.
    I might say, too--well, I like this in a couple of respects 
because Jon is really focused on jobs in this bill, and he is 
focused on protection--both. Certain acreage designated for, as 
he said, for stewardship, management of forest in a way that is 
sensitive to the land, but very constructive. It is not just 
going saw down trees, and he has really worked hard at it to 
help preserve jobs.
    Just this week, our paper mill in Montana--we only have 
one--Smurfit-Stone announced it is going to close up, 400 jobs 
gone. In fact, I talked to the top union guy today, trying to 
figure out ways to kind of keep the plant going if there is a 
way. Tax credits to get biomass to help provide fuel for this--
not fuel, supply for this plant so that the paper mill can 
produce, and it is just tough. We are losing jobs because we 
don't have the economy that we once had. Jon's bill gets at 
that.
    In addition, tourism. Our growth industry in Montana is 
tourism. Guess how many people visited Montana last year? 
Eleven million. Eleven million people visited. Why? It is 
because of the open spaces. It is because of our forests. 
People like to come to Glacier Park, to Yellowstone, national 
forests, fish, bring the family, and so forth.
    Tourists spent $3 billion in Montana last year. That might 
not sound like a lot, but to Montana, that is a lot. That is 
the growth industry. When there are fires, there all this 
beetle kill gets out, fewer tourists come.
    I remember last summer there was a fire in Glacier. I think 
it was last summer or the summer before. I have forgotten 
exactly what year it was, and you could hear the tourism 
industry fell off. People were not coming because they didn't 
want to come where the fires were. It is just we have got to 
get ahead of this, and the more we can get ahead, we are going 
to have more pristine forests and we are going to keep our 
tourism.
    Interesting, too, reading this book, 1910, there is a quote 
in there. You know, you find things. Teddy Roosevelt was up in 
the North Fork of the Flathead, and he was just so impressed 
with all the deer he saw. He saw a big deer herd, and he told 
Gifford Pinchot that. That is what tourists see when they come 
to Montana. They see a real glacier, and they all see the North 
Fork of the Flathead and other parts of Montana.
    There have been big fires there in the last couple of 
years, and there is beetle kill there, too. I am not saying 
this bill is going to solve it all. But clearly, this is on the 
right track. It is homegrown. It is bottom up. It is 
thoughtful. It is ways to get ahead of the game here, and it is 
very, very balanced.
    Since turn of the century, last century, the big contest--
on the one hand, the railroads, you know, the miners. That is a 
real opportunity of jobs to make a lot of money in the West, 
all this vast reserve of western forest. On the other hand, 
Teddy Roosevelt worried about land being plundered, and Gifford 
Pinchot being named the head of the Forest Service to try to 
get some balance there.
    It is the perennial problem we always have in the West, as 
you well know. It has been with us from the beginning. It is 
with us now. Again, this bill tries to get at that in a very 
balanced way.
    I commend Senator Tester very much. He has gone and worked 
very hard. It is very thoughtful, and I just urge the committee 
to think positively about this bill.
    Senator Wyden. Chairman Baucus, thank you, and I think you 
really lay out for us not just the history, but almost a 
roadmap for the future.
    I was struck by your comments about the fires. It is clear 
to me that a lot of these fires, they are not natural fires. 
These are infernos that just come about as a result of neglect 
because we haven't implemented the kind of policies that you 
all are looking at and some of the other suggestions.
    So we are going to work very closely with you, and I know 
you have one or two things you have got to deal with on the 
floor. So if you would like to be excused, Mr. Chairman, you 
can.
    Colleagues, any questions for Chairman Baucus. Senator 
Bingaman or----
    Senator Risch. He could stay here rather than go to the 
floor.
    [Laughter.]
    Senator Baucus. In many respects, it would be a lot more 
fun. Thank you very much.
    Senator Wyden. Chairman Baucus, anything else you would 
like to----
    Senator Baucus. Thank you, no. Thank you.
    Senator Wyden. OK. Thank you.
    Let us go to Senator Crapo. Welcome.

          STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman and 
Chairman Bingaman and Senator Risch and Senator Bennett, other 
members of the committee.
    Before Senator Baucus leaves the room, I just want to also 
thank him for the good working relationship which he and I have 
had over the past. We have worked on the Endangered Species Act 
and county payments and a number of other issues, and I 
appreciate working with him very closely.
    Healthcare.
    [Laughter.]
    Senator Crapo. I want to say about my friend Senator Tester 
that we also developed a very good, close working relationship. 
We serve together on the Banking Committee, where we have that 
small issue of financial regulatory reform and the multitude of 
issues that are coming about there about the threats to our 
economy. We have worked on those as well as resource issues as 
well, and I appreciate that working relationship.
    The purpose of today's hearing, obviously, is to consider a 
number of the bills that are before this committee, and one of 
those that has already been mentioned a lot is S. 1470, the 
Forest Jobs and Recreation Act, which Senator Tester has 
introduced and has spent so much time working on, as well as 
with Senator Baucus.
    The first thing I want to do is recognize the importance 
and emphasize the challenges associated with collaborative 
decisionmaking. There have been references today already to the 
Owyhee initiative that I have been involved in in Idaho that, 
fortunately, to a conclusion at the legislative level with the 
support of the members of this committee in helping to move it 
forward and getting it signed into law.
    But that was an 8-year process, very similar to what 
Senator Tester has just described as he has gone through in 
Montana. Now we are working on the implementation of that. So, 
I do truly understand how critical it is that we do have 
collaborative decisions that are built from the ground up and 
that we here in Washington support those and help to make them 
a reality.
    Because, frankly, our public and our Federal public lands 
and the opportunities that they provide are very vast, but the 
disagreements that we see develop with regard to the management 
of them is also very vast. It is building the consensus to move 
forward on those that is the right way to approach 
decisionmaking these days.
    Senator Tester and Senator Baucus deserve tremendous credit 
for their leadership on public lands management in Montana, and 
I wish them the best, and particularly Senator Tester with this 
legislation, as he moves forward with it. Also, as already has 
been mentioned today, Mr. Chairman, there are some issues that 
Idahoans have with regard to this legislation and the 
boundaries and the impacts of some of the boundaries and some 
of the designations as they relate to Idaho and the 
opportunities that Idahoans have to engage in the use of our 
tremendous public lands.
    Senator Risch and I have already spoken personally with 
Senator Tester about those, and as he has indicated, we are 
working together to find, again, a collaborative solution to 
those kinds of issues that we can move forward on.
    We do have a witness from Idaho here today, and I want to 
conclude my testimony by just giving an introduction to him. I 
suspect Senator Risch may say something about him as well.
    But we have today with us Chairman, County Commissioner 
Ronald ``Skip'' Hurt, who currently serves as the county 
commissioner in Fremont County, Idaho. Commissioner Hurt is 
serving his second 2-year term as county commissioner 
representing Island Park and Ashton and other communities in 
eastern Idaho.
    Prior to returning from the Forest Service in January--to 
retiring from the Forest Service in 2007, Commissioner Hurt 
spent 19 years working for the U.S. Forest Service in various 
locations, and he also served for 18 years as the north zone 
fire management officer on the Targhee National Forest, which 
is the forest which we will be working with you on here, on 
this legislation, and served for 3 years in the Fremont County 
Sheriff Reserve, 2 of those as captain.
    Commissioner Hurt has an endless list of accomplishments, 
both on the commission and off. But I don't want to wear out my 
welcome here before the committee. So I won't go through all of 
those.
    In his testimony, Commissioner Hurt is going to address the 
concerns that have been expressed about the designation of the 
south side of Mount Jefferson area as wilderness, and I 
appreciate his input on this matter and his service to the 
people in Fremont County. I am actually very glad that my 
colleagues here in the Senate are getting an opportunity to 
hear from him and to learn from his wisdom and expertise in 
terms of these land management issues.
    Again, I want to thank Senator Tester for his leadership 
and his friendship, and I look forward to working with him on 
this.
    I thank you, Mr. Chairman, for this opportunity.
    Senator Wyden. Thank you, Senator Crapo.
    There is zero prospect that you will ever wear out your 
welcome around here. So we appreciate your coming.
    Both of you are welcome to sit in. Chairman Bingaman or 
Senator Risch or Senator Bennett, any questions for our 
colleagues?
    Senator Risch. Just a comment, Mr. Chairman.
    Senator Tester, the photograph that you brought to us, both 
Senator Crapo and I have toured the area and viewed it from the 
air like this around Stanley, Idaho. I don't know if you are 
familiar with that. It is in the Sawtooths, some of the 
prettiest country in America, really. It looks a lot like that.
    When I was in my junior and senior year in the College of 
Forestry at the University of Idaho, we were studying 
entomology, and we were studying the life cycle of the 
homoptera and enoptera, part of which we call bark beetles 
then. Today, they are pine beetles. But in any event, we went 
looking for an infestation, and we had to look a long time to 
find a small group of trees that were infested.
    Now we see in Idaho areas just like this that make up tens 
of thousands of acres that are infested. So it is a serious 
problem, and Senator Wyden and I are working on some 
legislation that is going to specifically address that.
    Thank you.
    Senator Wyden. We are, indeed.
    Colleagues, you are welcome to come sit in.
    Let me check with my friend and colleague Senator Bennett, 
who joined us. Senator Bennett, would you like to make an 
opening statement, or what is your pleasure?

         STATEMENT OF HON ROBERT BENNETT, U.S. SENATOR 
                           FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman.
    I appreciate your scheduling this hearing. I have a piece 
of legislation on the docket, and I will be glad to explain it 
now or after we hear the witnesses.
    Senator Wyden. We have two witnesses from the 
administration, but you are welcome to go ahead now if you 
choose.
    Senator Bennett. All right. This is a major piece of 
legislation involving 2 acres of land, and I know that in the 
greater scheme of things, 2 acres of land disappear pretty 
quickly. But to the town of Alta, Utah, 2 acres of land are 
very important because on those 2 acres of Forest Service land 
sit the city hall and other municipal buildings of the town of 
Alta.
    To put it in context, the total population of Alta is 370 
people. Now people think of Alta as the great ski lodge, and 
that is true. But the people who actually live in the town of 
Alta are basically people who work at the ski lodge there in 
low and medium income level.
    The town of Alta, every time they want to do anything with 
respect to one of their buildings, municipal buildings, has to 
go to the Forest Service to get permission and go through 
various hoops because the Forest Service owns the land. The 
lease requirements are you have to come here. So, my 
legislation is very simple. It conveys the land out of the 
Forest Service over to the town.
    You say, well, why can't they afford all this? Eighty-five 
percent of the land within the boundaries of the town is public 
land now, restricting any kind of tax base that is there. As I 
have said, the majority of their residents are classified as 
low to moderate income. For example, they want to add slightly 
to their community center. They can't do that because they 
don't own the land.
    So this would convey the land. The fair warning to the 
witnesses, the administration has said they aren't objecting to 
this, but they don't want to convey the land for free, and they 
think that we should get fair market value.
    Well, if you assume that there was a ski resort going to be 
built on this land, the fair market value for these 2 acres 
would be $500,000, and there is no way the town of Alta can 
come up with $500,000. I am going to question the witnesses 
from the administration about bills that we passed yesterday, 
which conveyed land up to total of 3,321.5 acres for free.
    If we can convey land and set the precedent that in other 
circumstances, that much land, over 3,000 acres, can be 
conveyed to various entities for free, I am going to ask them 
how come we can't get rid of these 2 acres for free and point 
out, as a businessman, over time, the Forest Service will make 
money on this deal. Because right now, as long as the Forest 
Service holds the land, every time there is any kind of 
request, the Forest Service has administrative costs of its own 
that run up. All of those administrative costs will go away if 
the town gets its land.
    So this is the most significant piece of legislation that 
we are going to examine over 2 acres, but I appreciate your 
indulgence in letting me take the time to talk about it and 
look forward to questioning the witness.
    [The prepared statement of Senator Bennett follows:]
  Prepared Statement of Hon. Robert F. Bennett, U.S. Senator From Utah
    Mr. Chairman, I want to thank you for scheduling this hearing and 
including, among the bills on the docket, my legislation, S.1719. 
Currently, all of the municipal buildings for the Town of Alta, Utah 
are built on public land under special use permits from the U.S. Forest 
Service. My legislation will allow the Town of Alta to receive title to 
the land under its buildings and adequate land adjacent to their 
buildings for future additions. S. 1719 allows a maximum of 2 acres to 
be conveyed.
    Undersecretary Sherman's testimony on behalf of the administration 
opposes my bill because the land is conveyed for free. Instead, they 
urge using administrative authority under the Townsite Act to convey 
the land and charge a market price to the town. However, the Town of 
Alta cannot use the administrative process to acquire this land because 
it cannot afford to pay the market value of the land estimated at 
$500,000. The following facts are relevant in understanding the need 
for this legislation:

          1. Almost 85% of the land within its boundaries is public 
        land, greatly restricting the town's tax base. In fact, the 
        majority of Alta's 370 residents are classified as low to 
        moderate income. $500,000 is too high a price tag for such a 
        small and low-income tax base.
          2. Any time the town needs to do maintenance or work on its 
        facilities the town must consult with the Forest Service to 
        verify that what they are about to do is covered under the 
        existing permit. The town would like to add to its small 
        community center but cannot do so unless they own the land.
          3. For those who associate Alta ski resort with the Town of 
        Alta, they should understand that they are separate entities.
          4. For those who ask whether the town could just impose a 
        lift ticket surcharge to cover the cost of the 2 acres, the 
        town already imposes a room tax. Another surcharge would make 
        it impossible to compete with surrounding resorts and such 
        action could lead to damaging an already fragile tax base.
          5. In fact, conveying the land would reduce the Forest 
        Service's administrative costs that are associated with issuing 
        and administering the special use permits required under 
        current law.

    I find the Administration's testimony interesting. Yesterday, the 
full committee favorably reported out three bills sponsored by 
Democrats that give more than 3,321.5 acres away to various entities 
for free. They are: S. 940--Southern Nevada Educational conveyance 
(2,410 acres], S. 1139--Wallowa Oregon Conveyance (1.5 acres), and S. 
1140--La Pine Oregon Conveyance (910 acres]. Why the new demand to 
charge market value for conveying these properties? This is the 
question I would like answered.

    Senator Wyden. We will have that opportunity momentarily, 
and we will be working with you.
    Let us bring forward Harris Sherman, Under Secretary of 
Agriculture for Natural Resources and Environment, and Edwin 
Roberson, Assistant Director for Renewable Resources and 
Planning for the Bureau of Land Management.
    Gentlemen, welcome. I also want to--following up on 
Chairman Bingaman--Mr. Sherman, give you also a formal welcome 
from the subcommittee. I know we will be working closely with 
you. I enjoyed our visit very much yesterday, and you are going 
to be one busy public servant. You are going to have a lot on 
your plate.
    We will make your prepared remarks a part of the record in 
their entirety, as with yours, Mr. Roberson. Please proceed.

STATEMENT OF HARRIS SHERMAN, UNDER SECRETARY, NATURAL RESOURCES 
           AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Sherman. Thank you, Chairman and members of the 
committee.
    My name is Harris Sherman. I am the new Under Secretary for 
Natural Resources and the Environment at USDA. I am very 
pleased to be here and to share the thoughts of the department 
on two bills, S. 1470 and S. 1719.
    I did submit written testimony, and I will just summarize 
the key points of both of my written testimonies.
    First, in response to Senator Bennett, our comments on S. 
1719. This bill requires the Secretary of Agriculture to convey 
Forest Service land to the town of Alta without consideration. 
We acknowledge, Senator, the importance of this land to the 
town of Alta. We would like to convey the land to the town of 
Alta.
    But the Forest Service and the department do have a 
longstanding policy that taxpayers should receive fair market 
value for property, and we lack authority to sell land without 
consideration. So, for those reasons, we cannot support the 
bill.
    We do have the authority under the Townsite Act to make 
these conveyances, and we, of course, would work with the town 
of Alta to do that. I recognize, Senator, that Congress can, 
indeed, go ahead and pass legislation to allow this to happen. 
But at least our policy is that we object to conveying this 
land without consideration.
    If I can, I would like then to turn to S. 1470. At the 
outset, the department strongly supports many of the concepts 
in Senator Tester's bill, and these include, first, landscape-
scale restoration. We think it is critically important to do 
restoration on a much larger basis than we have done in the 
past.
    We second support the collaboration that is referenced in 
this bill with all of the stakeholders working together to 
forge common interests and common solutions and to find 
compromise. For too long, this has been the missing element 
that has frustrated the department, frustrated communities and 
States in terms of making real progress with respect to 
restoration.
    Third, we support increased use of stewardship contracting, 
which allows us to get the timber out of the forest but to also 
address protection of water quality, protection of wildlife 
habitat, to reclaim roads, and to restore and replant our 
forests.
    Fourth, we support very much the focus on jobs and 
sustainable rural communities. The closure of mills, such as we 
have seen with Smurfit-Stone, have a devastating impact on the 
employees, on local communities, and the States. We think it is 
vitally important that we have a strong and viable timber 
industry, and without a viable timber industry, we will not be 
able to accomplish the restoration that is necessary.
    Last, we support the designation of wilderness in Montana. 
This issue has been outstanding, as Senator Tester said, for a 
long time, going back to 1977 when the Montana Wilderness Study 
Act was proposed or enacted. So we applaud that. We think that 
would be a very constructive step in the right direction.
    Now, with that said, I do want to be candid in saying we 
have some concerns with S. 1470, particularly Title I of the 
bill. As a general matter, the department believes that we can 
make progress on the goals that Senator Tester is focused on 
without site-specific legislation. The Forest Service clearly 
has the statutory authority to move forward on all of the goals 
in his bill, with the exception of the designation of new 
wilderness areas.
    The Forest Service can, should, and will build off the 
collaborative efforts that have been undertaken and started in 
Montana. The Forest Service can clearly move more aggressively 
with landscape-scale restoration. We prefer the opportunity of 
demonstrating this before we move to specific legislation.
    I do totally concur, Senator Wyden, with your remarks that 
we have to try new approaches here. I think it is very 
important. But we would like to try these new approaches on an 
administrative level first if we can.
    If the committee decides to go forward with the bill, we 
would urge you, first, to alter or remove the highly specific 
timber supply requirements, which, in our view, are not 
reasonable or achievable.
    Second, we would like to urge you to amend the National 
Environmental Policy Act-related provisions, which, in our 
view, are flawed and are legally vulnerable.
    Third, we would urge you to consider the budgetary 
implications to meet the bill's requirements. If we were to go 
forward with S. 1470, it would require far greater resources to 
do that, and it will require us to draw these moneys from 
forests within Region 1 or from other regions.
    Last, there are a number of other issues that I have 
flagged in my written testimony that we think need to be 
addressed and, hopefully, corrected.
    I want to emphasize that I have had a very constructive 
dialog with Senator Tester and his staff. We will continue that 
dialog going forward, and we are anxious to try to find 
solutions here.
    So let me simply close my opening statement by thanking 
Senator Tester for his bill, thank him for his commitment to 
Montana's natural resources and to the communities in Montana, 
and just say to this committee that we must find answers to 
best land stewardship practices on our national forests, and we 
must work to ensure that we can sustain rural communities.
    Thank you very much, and I would be happy to answer your 
questions.
    [The prepared statements of Mr. Sherman follow:]
    Prepared Statements of Harris Sherman, Under Secretary, Natural 
          Resources and Environment, Department of Agriculture
                                s. 1470
    Mr. Chairman, Members of the Committee, I am Harris Sherman, 
Undersecretary of Agriculture for Natural Resources and Environment. 
Thank you for the opportunity to share theDepartment's views on S. 
1470, the Forest Jobs and Recreation Act of 2009.
    S. 1470 directs the Secretary of Agriculture to select areas of at 
least 50,000 acres to carry out landscape-scale restoration projects. 
In selecting the areas, the Secretary would be required togive priority 
to landscapes on the Beaverhead Deerlodge National Forests and specific 
ranger districts on the Lolo and Kootenai National Forests. The bill 
requires a decision to carry out at least one landscape-scale 
restoration project annually for 10 years or until a certain number of 
acres have been treated mechanically. The bill provides very specific 
management direction and establishes timeframes and targets for the 
identified portions of the three national forests. The bill also 
requires an advisory committee for each landscape-scale restoration 
project implemented by the Secretary, a monitoring report every five 
years, and a biomass study and plan. The bill designates twenty 
wilderness areas totaling 624,000 acres, three recreation areas 
totaling 245,300 acres, and a special management area of 74,000 acres. 
Some of the designations apply to lands managed by the Bureau of Land 
Management and we defer to the Department of the Interior on those 
provisions.
    I want to thank Senator Tester for his engagement and involvement 
with stakeholders in Montana in the development of this bill. The 
legislation recognizes the diverse interests thatlook to the National 
Forests and Grasslands for their livelihood and recreation. I applaud 
his effort to bring diverse interests together to find solutions that 
provide a context for restoration, renewal and sustainability of public 
landscapes.
    The Department supports the concepts embodied in this legislation 
including collaboratively developed landscape scale projects, increased 
use of stewardship contracting, active restoration of the national 
forests, and the designation of wilderness. I understand and share in 
the frustration over how controversial and contentious the debate 
surrounding management of natural resources in Montana has become. I 
sincerely appreciate the efforts of all involved in developing a 
legislative framework to address the issues that drive the debate and 
are represented in the bill being considered by the committee today. 
While we support the concepts of the legislation, the Department has 
concerns regarding components of Title I which I will address later in 
my testimony.
                               background
    Throughout the nation, the Forest Service is working with citizens' 
groups to develop collaborative solutions to help us provide the best 
possible stewardship of the national forests. Two notable efforts in 
Montana include the Montana Forest Restoration Committee and the group 
working on the ``Southwestern Crown of the Continent.'' The Montana 
Forest Restoration Committee is a group consisting of thirty-four 
members representing conservationists, motorized users, outfitters, 
loggers, mill operators, state government and the Forest Service. This 
group recently developed a set of 13 forest restoration principles and 
an associated implementation plan that the Committee members 
unanimously support. Projects that will help rejuvenate and restore 
National Forest System lands at a landscape level are in both the 
planning and implementation phases as a result of this ongoing effort. 
As important as the development of a meaningful set of restoration 
principles is, even more important is the collaborative process that 
has resulted in relationships built on trust that will provide the 
basis for future collaborative work and specific projects that restore 
our national forests over the long term.
    The second Montana collaborative group is working on a proposal for 
the ``Southwestern Crown of the Continent'' through the Collaborative 
Forest Landscape Restoration Program authorized under the Forest 
Landscape Restoration Act. This large and very diverse group consists 
of many Federal, State and private entities who share the common 
interest of restoration and stewardship of the national forests as well 
as surrounding state and private lands. The group is currently looking 
at ecological and economic opportunities on a landscape of up to 1 
million acres and plans to submit its proposal this spring.
    I also want to thank the Senator for addressing the long-standing 
issue of wilderness designation in Montana. Designation of additional 
wilderness areas in the National Forest System can help sustain 
biodiversity, connect landscapes, and increase our understanding of 
ecological systems. As a result, the Forest Service is better equipped 
to respond to a changing climate and to provide ecosystem services. 
Additionally wilderness can play a role in fostering the connection 
between people and nature. However, conflict and controversy over which 
lands should be included in the National Wilderness Preservation System 
has too long divided people who treasure these public lands. This bill 
not only proposes to designate lands as Wilderness, but also includes 
nearly 320,000 acres as National Recreation Areas or other special 
areas. The resolution of those lands included in the Montana Wilderness 
Study Act of 1977 is especially important.
    Each of the national forests included in this legislation has a 
Land 79 and Resource Management Plan that was developed with full 
public involvement. The Beaverhead-Deerlodge National Forests completed 
a revision of the plan in January of 2009. These plans include 
recommendations on which lands would be most suitable for inclusion 
into the National Wilderness Preservation System.
    I would like to now turn to specific comments on the bill.
                          comments on title i
    While the Department supports the concepts of the legislation, we 
have concerns regarding components of Title I, including the highly 
prescriptive provisions related to the National Environmental Policy 
Act and the specificity regarding levels of treatment and outputs. The 
prescriptive language would limit the discretion of land management 
professionals to select landscape projects based on broader criteria, 
such as the condition of forest resources and community needs and 
capacity. Further, the bill would create unrealistic expectations on 
the part of communities and forest products stakeholders that the 
agency would accomplish the quantity of mechanical treatments required. 
If we were unable to meet the requirements of the bill, there could be 
profound impacts upon local, rural economies and on the credibility of 
the agency.
    The bill also contains provisions which are duplicative of existing 
authorities. These provisions could be problematic because they could 
lead to confusion during implementation.
    I recognize and value the importance of the concepts in S. 1470 and 
this administration can and will reach out and work with collaborative 
groups to achieve the goal of restoring our national forests. However, 
I believe site specific legislation is not necessary to facilitate this 
effort. The Department would prefer to have the opportunity to 
demonstrate our commitment and capability to bring diverse interests to 
the table to work toward the goals this bill includes, not just in 
Montana, but in all of the National Forest System.
    Further, S. 1470 directs the Secretary to place priority use of 
existing resources on portions of these three national forests. This 
establishes a potentially harmful precedent because it may lead to 
multiple site specific legislative efforts transferring much needed 
resources from other units of the National Forest System where priority 
work must also be accomplished.
    S. 1470 in particular includes levels of mechanical treatment that 
are likely unachievable and perhaps unsustainable. The levels of 
mechanical treatment called for in the bill far exceed historic 
treatment levels on these forests, and would require an enormous shift 
in resources from other forests in Montana and other states to 
accomplish the treatment levels specified in the bill.
    Lastly, the bill sets direction for how the agency must meet the 
116 requirements of the National Environmental Policy Act (NEPA). This 
provision, subsection 102(b)(6), raises new challenges for effective 
planning, analysis and implementation of restoration projects by 
requiring analysis of large areas, without the opportunity to tier to 
site- or project-specific analyses, thereby requiring analysis for all 
permitting and approval actions at a landscape scale. By prescribing 
how NEPA should be accomplished, the bill complicates of the agency's 
approach to NEPA implementation and could result in greater controversy 
as the agency determines how to harmonize the requirements of the bill, 
the requirements of NEPA, CEQ regulations implementing NEPA, and the 
Forest Service's own regulations. We look forward to working with the 
staff to address concerns and provide for an integrated, inclusive 
approach to planning on a more defined scale.
                          comments on title ii
    We defer to the Department of the Interior on the wilderness 
provisions of Title II pertaining to lands under the jurisdiction of 
the Bureau of Land Management. Most land designations included in Title 
II of this bill are generally consistent with the direction and 
recommendations in the land and resource management plans mentioned 
earlier. Specifically:

  <bullet> Thirteen of the wilderness areas are generally consistent 
        with our land and resource management plan wilderness 
        recommendations.
  <bullet> Seven additional wilderness areas are not recommended in the 
        land and resource management plans but the plan direction is to 
        maintain their semi-primitive non-motorized characteristics.
  <bullet> The six other congressionally designated areas are 
        consistent with Forest Plan direction to manage for recreation 
        and thus we support these designations.

    We would like to work with the Committee to address some technical 
boundary issues and in particular I want to highlight four areas:

  <bullet> Highlands: This area was recommended for wilderness in the 
        Beaverhead-Deerlodge Land and Resource Management Plan. S.1470 
        includes a number of special provisions. Specifically the bill 
        allows for helicopter landings for military exercises. When the 
        Forest Service made its wilderness recommendation it envisioned 
        the military flights being relocated to a different location 
        when the special use authorization expired, and thus viewed 
        them as temporary in nature. S. 1470 would permanently 
        authorize helicopter landings for military training within the 
        Highlands area. We are not aware of a military landings being 
        legislatively authorized in wilderness before and we are 
        concerned that a precedent may be established by this 
        legislation. We would like to work with the committee to either 
        remove this requirement or explore alternative designations for 
        the Highlands area.
  <bullet> West Pioneers: West Pioneers is a Wilderness Study Area and 
        we very much appreciate the Senator's progress toward 
        resolution of the area. The Beaverhead Deerlodge Land and 
        Resource Management Plan did not recommend this area for 
        wilderness because the relatively gentle terrain will make the 
        wilderness boundary 157 very difficult to implement and make 
        any motorized closures difficult to enforce. We support the 
        entire area being designated in this bill as a national 
        recreation area, as this designation is generally aligned with 
        and the land and resource management plan direction for this 
        area which is to manage for a variety of recreation 
        opportunities.
  <bullet> Mt. Jefferson: During the development of the Beaverhead-
        Deerlodge Land and Resource Management Plan, the recommended 
        wilderness boundary was drawn to exclude a very popular 
        snowmobiling area. The boundary in S. 1470 as proposed includes 
        this snowmobiling area in the wilderness and therefore 
        snowmobiling would be prohibited. Snowmobilers access the area 
        primarily from Island Park, Idaho where that small community 
        relies on the income from snowmobilers to sustain it through 
        the winter months. We ask that the committee accept the Land 
        and Resource Management Plan recommended wilderness boundary 
        for this area.
  <bullet> East Pioneers: The Beaverhead Deerlodge Land and Resource 
        Management Plan wilderness recommendation for this area 
        included the trail to Tendoy Lake. The proposed wilderness 
        boundary in S. 1470 excludes the trail to Tendoy Lake 
        specifically to provide access for Off Highway Vehicles. This 
        Off Highway Vehicle trail has significant resource damage that 
        cannot be mitigated because of the terrain. We suggest that the 
        committee follow the Forest Service recommendation to include 
        the entire area in the East Pioneers Wilderness.

    S. 1470 contains instructions for administration of the wilderness 
and special management areas. Though several of the provisions in the 
bill are the result of consideration of specific situations, some may 
not be necessary and could result in confusion and negative effects to 
wilderness character. We look forward to working with the committee to 
address concerns regarding provisions related to fire prevention in 
wilderness, motorized access for grazing purposes in the proposed 
Snowcrest Wilderness, installation or maintenance of hydrological, 
meteorological or climatological instrumentation in wilderness, 
outfitter- and guide permits, language for managing special management 
areas through timber harvest, jurisdiction for regulating types of 
access and activities; and authorization of motorized access to operate 
and maintain water improvements.
    We have begun discussions with Senator Tester's staff on the 
provisions with which we have concern and offer our assistance to the 
Senator and the committee to continue the dialogue on these provisions.
    In closing, I want to thank Senator Tester for his strong 
commitment to Montana's communities and natural resources. We look 
forward to working with the Senator and his staff, the committee, and 
all interested stakeholders in an open, inclusive and transparent 
manner to help ensure sustainable communities and provide the best land 
stewardship for our National Forests.
                                s. 1719
    S. 1719 would direct the Secretary of Agriculture to convey, 
without consideration, certain parcels of land not to exceed two acres 
located in the Wasatch-Cache National Forest to the Town of Alta, Utah 
for public purposes. The bill includes a clause for reversion of the 
property to the United States, at the election of the Secretary based 
on the best interests of the United States, if the land is not being 
used for the purpose stated in the bill.
    While we support Alta's need to consolidate their municipal 
resources, the Department cannot support the bill because it does not 
provide for market value compensation for the conveyance. It is long-
standing policy that the taxpayers of the United States receive market 
value for the sale, exchange, or use of their National Forest System 
land. Based on recent land sales in the Alta area, we estimate the 
average value of the lands to be conveyed under S. 1719 to be $500,000. 
Although, the bill does require the Town of Alta to cover the Federal 
land survey costs associated with the conveyance, it does not clearly 
state who would be responsible for bearing other administrative costs 
associated with the conveyance.
    The Forest Service currently manages the area around Alta through a 
very complex suite of existing special use permits including 
transportation and utility rights-of-way, for the benefit of the Town 
and the public. We also believe that the Forest Service can meet the 
objectives of the bill administratively through the Townsite Act, which 
would allow the Forest Service to convey the land to the Town of Alta 
at federally-approved market value. Conveyances under the Townsite Act 
require identification of a location that serves community objectives 
that would outweigh public objectives and values if the land were to be 
maintained in Federal ownership, and must take valid existing rights 
and uses into consideration.
    Although we cannot support the bill as written, we are eager to 
work with the bill's sponsors, the Town of Alta, and the Committee, in 
hopes of assisting the Town in achieving its desire to consolidate its 
municipal resources.

    Senator Wyden. Thank you, Mr. Sherman, and you can be 
certain you will have many.
    Mr. Roberson, welcome.

STATEMENT OF EDWIN ROBERSON, ASSISTANT DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Roberson. Thank you, Mr. Chairman, members of the 
committee.
    I appreciate the opportunity to be here and thank you for 
inviting the Department of Interior to testify on four bills of 
interest to the department.
    I will be very brief in summarizing my prepared testimony 
and ask that it be submitted for the record, and I believe you 
have already said that it will. So thank you.
    First, we will talk about Senator Tester's bill. The Bureau 
of Land Management supports wilderness designations on BLM-
managed lands included in S. 1470. The legislation would 
designate five BLM wilderness areas totaling 60,000 acres and 
would release over 75,000 acres of wilderness study area 
status--from wilderness study area status. We would like the 
opportunity to work with you and the committee on boundary 
modifications and management language, just for clarification 
purposes.
    The vast majority of the designations and other substantive 
provisions of S. 1470 apply to the National Forest System 
lands, and we defer to the Department of Agriculture on those 
provisions.
    Senator Bingaman, the administration strongly supports S. 
1787 and encourages Congress to move swiftly to reauthorize the 
Federal Land Transaction Facilitation Act. Over the past 
decade, the Department of Interior has made a number of 
important acquisitions using FLTFA provisions, and 
reauthorization will allow us to continue to use this critical 
tool for enhancing our Nation's treasured landscapes.
    By extending the FLTFA, the Congress will allow the BLM to 
continue a rational process of land disposal that is anchored 
in public participation and sound land use planning while 
providing for land acquisition and to augment and strengthen 
our Nation's treasured landscapes on several of our agency 
lands and Forest Service lands.
    The Bureau of Land Management supports H.R. 762, which 
affirms a land patent and an associated land reconfiguration 
completed in Nevada in 2005. These land transactions 
implemented provisions of the 1988 Nevada and Florida Land 
Exchange Act, which directed the exchange of BLM-managed lands 
in Nevada for critical wildlife habitat and private ownership 
in the Florida Everglades.
    At the request of the landowners involved and the U.S. Fish 
and Wildlife Service, the Nevada portion of the land exchange 
was reconfigured to enhance the habitat for desert tortoise and 
other Mojave Desert wildlife species while providing for 
economic development in rural south-central Nevada. H.R. 762 
was passed by the House of Representatives in July.
    I am accompanied by Rick Sayers, the chief of the Division 
of Consultation, Habitat Conservation Plans, Recovery, and 
State Grants from the U.S. Fish and Wildlife Service, who would 
be happy to answer any questions that you might have with 
regard to the wildlife benefits of H.R. 762.
    The Department of Interior strongly supports H.R. 934, 
which would convey 3 geographical miles of submerged lands 
adjacent to Northern Mariana Islands to the government of 
Northern Mariana Islands. The department recommends 3 technical 
and perfecting amendments that are fully described in the 
written testimony that I have provided, and I am accompanied by 
Steve Sander, the Director of Legislative Affairs in the 
Department of Interior's Insular Affairs Office.
    Mr. Sander will be happy to answer any questions you have 
regarding H.R. 934.
    I want to thank you for inviting me to testify. Be happy to 
answer your questions, any questions you might have, and tell 
my former Senator from New Mexico that I am quite proud to be 
here in Washington and be sitting before you and the rest of 
the committee.
    Thank you, Mr. Chairman.
    [The prepared statements of Mr. Roberson follows:]
 Prepared Statements of Edwin Roberson, Assistant Director, Bureau of 
              Land Management, Department of the Interior
                                s. 1470
    Thank you for inviting the Department of the Interior to testify on 
S. 1470, the Forest Jobs and Recreation Act of 2009. The Bureau of Land 
Management (BLM) generally supports the wilderness designations 
included in S. 1470 on BLM-managed lands. We would like the opportunity 
to work with the Sponsor and the Committee on boundary modifications 
and management language clarifications.
    The vast majority of the designations and other substantive 
provisions of S. 1470 apply to activities on National Forest System 
lands. We defer to the Department of Agriculture on those provisions.
                               background
    The southwestern corner of Montana is a critically important 
biological region. Linking the Greater Yellowstone Area and the 
Bitterroot Mountains of Idaho and Montana, these areas include 
important wildlife corridors that allow natural migrations of wildlife 
and help prevent species isolation. The Centennial Mountains are 
particularly noteworthy in this regard. The diversity of wildlife 
throughout this area is a strong indicator of its importance. Elk, mule 
deer, bighorn sheep, and moose, as well as their predators, such as 
bears, mountain lions and wolves, travel through this corner of 
Montana.
    Outstanding dispersed recreational opportunities abound in this 
region as well. A day's hunting, hiking or fishing may be pursued in 
the splendid isolation of the steeply forested Ruby Mountains or in the 
foothill prairies of the Blacktail Mountains, areas largely untouched 
and pristine. For the more adventurous, Humbug Spires offers 65 million 
year-old rocks now eroded into fanciful spires, appreciated both for 
their climbing challenges as well as their scientific value.
                                s. 1470
    Title I of S. 1470, ``Stewardship and Restoration'' applies solely 
to National Forest System Lands. Accordingly the Department of the 
Interior defers to the Department of Agriculture on those provisions. 
The majority of the designations in Title II of the bill, ``Designation 
of Wilderness and National Recreation Areas,'' are also on National 
Forest System Lands, and again we defer to the Department of 
Agriculture. We concur with many of the concerns raised by the 
Department of Agriculture in their testimony about nonstandard language 
and exceptions to the 1964 Wilderness Act.
    Sections 201(d) and (e) of S. 1470 designate five wilderness areas 
on lands administered by the BLM in southwestern Montana: the Blacktail 
Mountains Wilderness (10,670 acres), Centennial Mountains Wilderness 
(23,250 acres), Farlin Creek Wilderness (660 acres), Humbug Spires 
Wilderness (8,900 acres), and Ruby Mountains Wilderness (15,500 acres). 
The BLM supports these designations. All of these areas meet the 
definitions of wilderness in that they are areas where the land and its 
community of life are untrammeled. These areas have retained their 
primeval character and have been influenced primarily by the forces of 
nature, with outstanding opportunities for primitive recreation or 
solitude.
    The BLM would like the opportunity to discuss several possible 
boundary modifications with the Sponsor and the Committee. For example, 
boundary modifications to the proposed Humbug Spires, Ruby Mountains, 
and Centennial Mountains Wilderness areas could improve manageability 
by providing more clearly definable boundaries for both the public and 
Federal land managers. In addition, boundary changes to the proposed 
Centennial Mountains Wilderness could help protect this critically 
important corridor as a single coherent whole, thereby protecting the 
genetic diversity of the fauna inhabiting the Greater Yellowstone Area 
and the Bitterroot Range. In the case of the proposed 660-acre Farlin 
Creek Wilderness, the BLM recommends transferring the administrative 
jurisdiction of this small area to the Forest Service and including it 
in the adjoining 77,000 acre East Pioneers Wilderness Area.
    Section 203 of S. 1470 proposes to fully release five BLM-managed 
wilderness study areas (WSAs) in Beaverhead and Madison counties from 
WSA restrictions thereby allowing a full range of multiple uses. In 
addition, five other WSAs would be partially released from WSA status 
and partially designated wilderness, as noted above. In all, over 
74,000 acres of WSAs are proposed for release, while nearly 59,000 
acres are proposed for wilderness designation; we support these 
provisions. In addition we recommend the addition of the East Fork 
Blacktail WSA as wilderness.
    The 6,100-acre East Fork Blacktail WSA is among the areas proposed 
for release by S. 1470. The BLM believes that designation of most of 
this area merits consideration as wilderness. It is bordered on two of 
its three sides by the proposed Forest Service Snowcrest Wilderness 
Area, and the third side abuts the Robb-Ledford Game Range managed by 
the State of Montana. One option would be to release approximately 40 
acres to accommodate an existing road leading to a camping area, while 
designating the remainder as wilderness. Designation would protect the 
west flank of the Snowcrest Range, better provide for high-quality 
primitive hunting opportunities, and help ensure consistent management.
    Finally, the wilderness management language in section 202 includes 
some anomalies that we believe are unintended and could lead to 
confusion. For example, section 202(j)(2)(B) could be misinterpreted to 
allow motorized access to areas designated as wilderness-which would be 
inconsistent with the 1964 Wilderness Act. We would like the 
opportunity to work with the Sponsor and the Committee to ensure that 
the bill's provisions are consistent with the 1964 Wilderness Act.
                               conclusion
    Thank you for the opportunity to testify. We look forward to 
working cooperatively with the Congress to designate these special and 
biologically significant areas in this dramatic corner of Montana as 
wilderness.
                                s. 1787
    Thank you for the opportunity to testify on S. 1787, the Federal 
Land Transaction Facilitation Act Reauthorization of 2009. The 
Administration strongly supports S. 1787 and encourages the Congress to 
move swiftly to reauthorize the Federal Land Transaction Facilitation 
Act (FLTFA). Over the past decade, the Department of the Interior has 
made a number of important acquisitions using the FLTFA's provisions. 
Reauthorization of the Act will allow us to continue to use this 
critical tool for enhancing our Nation's treasured landscapes.
                               background
    Congress enacted the FLTFA in July of 2000 as Title II of Public 
Law 106-248 (frequently referred to as the ``Baca Bill''). As 
originally enacted, the FLTFA is scheduled to sunset on July 24, 2010, 
just seven months away.
    Under the FLTFA, the Bureau of Land Management (BLM) may sell 
public lands, identified for disposal through the land use planning 
process prior to July 2000, and retain the proceeds from those sales in 
a special account in the Treasury. The BLM may then use those funds to 
acquire, from willing sellers, inholdings within certain Federally-
designated areas and lands that are adjacent to those areas that 
contain exceptional resources. Lands may be acquired within and/or 
adjacent to areas managed by the National Park Service (NPS), the U.S. 
Fish and Wildlife Service (FWS), the U.S. Forest Service (FS), and the 
BLM. To date, approximately 29,400 acres have been sold under this 
authority and approximately 17,000 acres of treasured landscapes have 
been acquired.
    The 1976 Federal Land Policy and Management Act (FLPMA) provides 
clear policy direction to the BLM that public lands should generally be 
retained in public ownership. However, section 203 of FLPMA allows the 
BLM to identify lands as potentially available for disposal if they 
meet one or more of the following criteria:

  <bullet> Lands consisting of scattered, isolated tracts that are 
        difficult or uneconomic to manage; or
  <bullet> Lands that were acquired for a specific purpose and are no 
        longer needed for that purpose; or
  <bullet> Lands that could serve important public objectives, such as 
        community expansion and economic development, which outweigh 
        other public objectives and values that could be served by 
        retaining the land in Federal ownership.

    The BLM identifies lands that may be suitable for disposal through 
its land use planning process, which involves full public 
participation. The process of identifying these lands does not 
typically include review of other considerations such as the presence 
of threatened or endangered species, cultural or historic resources, or 
encumbrances because these considerations are not included in the FLTFA 
criteria. Before the BLM can sell, exchange, or otherwise dispose of 
these lands, however, it must undertake extensive environmental impact 
analyses, clearances, surveys, and appraisals for the individual 
parcels.
    Before the enactment of the FLTFA, the BLM had the authority under 
FLPMA to sell lands identified for disposal. The proceeds from those 
sales were deposited into the General Fund of the Treasury. However, 
because of the costs associated with those sales (including 
environmental and cultural clearances, appraisals, and surveys), few 
sales were undertaken. Rather, the BLM relied largely on land exchanges 
to adjust land tenure. This can often be a less efficient process.
    Once the FLTFA was enacted, the BLM developed guidance, processes, 
and tools to complete the FLTFA land sales. Working cooperatively, the 
BLM, NPS, FWS, and FS then developed guidance, processes, and tools for 
subsequent FLTFA land acquisitions. The BLM markedly increased sales 
under the program over the last few years. Recent market conditions, 
however, have led to less-robust sales than earlier in the life of the 
program.
    Since it was enacted, the BLM utilized FLTFA to sell 309 parcels 
previously identified for disposal totaling 29,437 acres, with a total 
value of approximately $113.4 million. Over the same time period, the 
Federal government acquired 28 parcels totaling 16,738 acres, with a 
total value of approximately $43.8 million using FLTFA authority. An 
additional 11 parcels, totaling 1,282 acres and valued at approximately 
$23 million have been approved for acquisition. Work on these 
acquisitions is proceeding swiftly.
    Some lands identified for disposal and sold through the FLTFA 
process are high-value lands in the urban interface. For example, in 
2007 the BLM in Arizona sold at auction a 282-acre parcel in the 
suburban Phoenix area for $7 million. However, many of the lands the 
BLM has identified for disposal are isolated or scattered parcels in 
remote areas with relatively low value. Frequently, there is limited 
interest in acquiring these lands, and the costs of preparing them for 
sale may exceed their market value.
    Since the inception of the FLTFA, the BLM has deposited $108.9 
million into the Federal Land Disposal Account. That figure represents 
96% of the total revenues from these sales. Approximately $4.5 million 
has been transferred to the states in which the sales originated, as 
provided for in individual Statehood Acts (typically 4% of the sale 
price).
    Using the FLTFA proceeds, the BLM, NPS, FWS, and FS have acquired 
significant inholdings and adjacent lands from willing sellers, 
consistent with the provisions of the Act. For example, just last month 
the BLM used FLTFA funds to complete the acquisition of 4,573 acres 
within the BLM's Canyons of the Ancients National Monument in southwest 
Colorado. These inholdings encompass 25 documented cultural sites, and 
archaeologists expect to record an additional 700 significant finds. 
The acquisition also included two particularly important areas: 
``Jackson's Castle,'' which is archeologically significant; and the 
``Skywatcher Site,'' a one-of-a-kind 1,000 year old solstice marker. 
The following are a few additional examples of important FLTFA 
acquisitions:

  <bullet> Elk Springs Area of Critical Environmental Concern (ACEC), 
        New Mexico/BLM--This 2,280-acre acquisition protects critical 
        elk wintering habitat.
  <bullet> Hells Canyon Wilderness, Arizona/BLM--A 640-acre parcel 
        constituting the last inholding within the Hells Canyon 
        Wilderness, located just 25 miles northwest of Phoenix.
  <bullet> Grand Teton National Park, Wyoming/NPS--This small (1.38 
        acres), but critical inholding within the Park was acquired and 
        protected from development.
  <bullet> Zion National Park, Utah/NPS--A combination of FLTFA and 
        Land and Water Conservation Fund monies were used to acquire 
        two 5-acre inholdings that overlook some of the Park's 
        outstanding geologic formations. These areas were previously 
        target for development.
  <bullet> Nestucca Bay National Wildlife Refuge, Oregon/FWS--This 92-
        acre dairy farm on the outskirts of Pacific City, Oregon was 
        slated for residential development and was acquired to protect 
        a significant portion of the world's population of the Semidi 
        Islands Aleutian Cackling Goose.
  <bullet> Six Rivers National Forest, California/FS--Over 4,400 acres 
        were acquired within the Goose Creek National Wild and Scenic 
        River corridor, preserving 4 miles of the river known for dense 
        stands of Douglas fir, redwoods, and Port Orford cedar.

                                s. 1787
    S. 1787 would both extend and enhance the original FLTFA through 
four major changes.
    First, the bill eliminates a 10-year sunset provision included in 
the original FLTFA. This change would enable the BLM to plan for and 
implement this program on a long-term basis.
    Second, under the original FLTFA, only lands identified for 
disposal prior to July 25, 2000 were eligible to be sold. S. 1787 
modifies that restriction by allowing any lands identified for disposal 
through the BLM's land use planning process by the date of enactment of 
S. 1787 to be sold through the FLTFA process. The Department supports 
this change, which recognizes the usefulness and importance of the 
BLM's land use planning process. However, we would recommend 
eliminating this restriction rather than simply moving the date 
forward.
    The BLM currently oversees the public lands through 172 Resource 
Management Plans (RMPs). Since 2000, the BLM has completed 67 new RMPs, 
18 major amendments to existing RMPs, and numerous smaller land use 
plan amendments. Additionally, the BLM is currently involved in 
planning efforts on 35 new RMPs, all of which the agency expects to 
complete within the next three years. Planning updates are an ongoing 
part of the BLM's mandate under FLPMA. In this process, the BLM often 
makes incremental modifications to the plans, and identifies lands that 
may be suitable for disposal. All of these planning modifications or 
revisions are made in compliance with the National Environmental Policy 
Act, and are undertaken through a process that invites full public 
participation.
    Third, the original FLTFA only allows acquisitions of inholdings 
within, or special lands adjacent to Federal units that existed prior 
to July 25, 2000. S. 1787 eliminates this limitation as well, and we 
support this change. In March of this year, President Obama signed the 
Omnibus Public Land Management Act of 2009 (Public Law 111-11) into 
law, which designates or expands numerous wilderness areas, wild and 
scenic rivers, national park units, and other units of the BLM's 
National Landscape Conservation System. S. 1787 will allow the use of 
FLTFA funds to acquire inholdings within these areas and areas 
designated by other legislation enacted after July 2000.
    Finally, S. 1787 adds exceptions to the FLTFA in recognition of 
specific laws that modify the FLTFA with respect to some particular 
locations. The FLTFA does not apply to lands available for sale under 
the Santini-Burton Act (P.L. 96-586) and the Southern Nevada Public 
Land Management Act (P.L 105-263). S. 1787 additionally exempts lands 
included in the White Pine County Conservation, Recreation, and 
Development Act (P.L. 109-432) and the Lincoln County Conservation, 
Recreation and Development Act (P.L. 108-424).
    However, we note that S. 1787 does not account for some provisions 
of the Omnibus Public Land Management Act of 2009 that modify the 
application of FLTFA at specific sites or for specific purposes. The 
portions of the Omnibus Public Land Management Act of 2009 that contain 
language regarding the applicability of the FLTFA include:

  <bullet> Owyhee Public Land Management (Title I, Subtitle F);
  <bullet> Washington County, Utah (Title I, Subtitle O);
  <bullet> Carson City, Nevada, land conveyances (Title II, Subtitle G, 
        section 2601); and
  <bullet> Douglas County, Washington, land conveyance (Title II, 
        Subtitle G, section 2606). We are happy to work with the 
        Committee, as appropriate, to address these special provisions.

                               conclusion
    Thank you for the opportunity to testify in strong support of S. 
1787, the Federal Land Transaction Facilitation Act Reauthorization of 
2009. By extending the FLTFA, the Congress will allow the BLM to 
continue a rational process of land disposal that is anchored in public 
participation and sound land use planning, while providing for land 
acquisitions to augment and strengthen our Nation's treasured 
landscapes.
                                h.r. 762
    Thank you for the opportunity to testify on H.R. 762, a bill which 
affirms a land patent and an associated land reconfiguration completed 
in 2005. These land transactions protect habitat for desert tortoise 
and other Mojave Desert wildlife species while providing for economic 
development in rural south-central Nevada. The BLM supports this bill, 
which passed the House of Representatives without amendment on July 15, 
2009.
                               background
    The Nevada-Florida Land Exchange Authorization Act of 1988 (NFLEA, 
P.L.100-275) authorized the exchange of approximately 29,055 acres 
(``fee'' lands) of BLM-administered lands in Coyote Springs Valley, 
Clark and Lincoln Counties, Nevada, for approximately 5,000 acres of 
private land in the Florida Everglades owned by Aerojet-General 
Corporation (Aerojet). The purpose of the land exchange was to protect 
habitat in Florida needed for the recovery of wildlife species listed 
under the Endangered Species Act (ESA). The NFLEA also entitled Aerojet 
to lease an additional 13,767 acres (``leased'' lands) of BLM-
administered land in Coyote Spring Valley for 99 years, with an 
automatic 99-year lease renewal term unless terminated by the lessee.
    Aerojet initially intended to use the fee lands for the 
construction of rocket manufacturing facilities. The Federal leased 
lands were to remain substantially undeveloped and serve as a 
conservation area and buffer for the rocket facilities. Aerojet never 
built the manufacturing facilities and the fee lands changed ownership 
in 1996 and 1998. In accordance with the NFLEA, the Secretary of the 
Interior approved the assignment of the leased lands from Aerojet to 
Harrich Investments LLC, and then from Harrich Investments to Coyote 
Springs Investment LLC (CSI), respectively.
    CSI proposed to develop a planned community on the original Aerojet 
fee lands. Because the proposed development would affect critical 
habitat for the desert tortoise, an ESA listed species, the U.S. Fish 
and Wildlife Service (FWS) asked the BLM in 2001 to consider 
reconfiguring the boundary of the leased lands to benefit desert 
tortoise habitat. Reconfiguration of the leased lands was undertaken 
pursuant to the NFLEA.
    Under the original configuration, the leased land was an island 
surrounded by the fee lands acquired by Aerojet. This configuration was 
designed to meet the needs of the planned Aerojet manufacturing 
facilities, but it provided limited habitat conservation benefits. 
Reconfiguring the lands would enhance conservation by consolidating the 
fee lands in a single parcel adjacent to U.S. Highway 93, and by 
placing the leased lands contiguous to protected habitat on BLM-managed 
public lands. This configuration would increase habitat connectivity 
and provide more effective conservation for desert tortoise and other 
Mojave Desert species.
    In 2005 the Bureau of Land Management (BLM) issued a corrective 
patent to CSI for the reconfigured lands in Clark County. The Western 
Lands Project and the Nevada Outdoor Recreation Association 
(plaintiffs), who claimed that the BLM should have prepared an analysis 
of the corrective patent under the National Environmental Policy Act 
(NEPA) and the Federal Land Policy and Management Act (FLPMA), 
subsequently brought suit in the U.S. District Court in Nevada. The 
action has been stayed and has not yet been briefed on the merits.
    Continuing with its project proposal, CSI then prepared a Multiple 
Species Habitat Conservation Plan (MSHCP) to protect tortoise habitat 
and, consistent with the ESA, applied to the U.S. Fish and Wildlife 
(FWS) for an ``incidental take'' permit necessary for project approval. 
The FWS, with the BLM as a cooperating agency, assessed the CSI 
proposal in an Environmental Impact Statement completed in July 2008. 
In October 2008, the FWS issued a Record of Decision authorizing an 
incidental take permit to CSI with numerous conservation stipulations 
to protect desert tortoise habitat. A key conservation stipulation is 
the land reconfiguration authorized by the BLM's corrective patent.
    In November 2008, the plaintiffs stipulated with the BLM to a stay 
of the lawsuit for one year pending action by Congress on legislation 
affirming the corrective patent.
    H.R. 762 affirms and validates the corrective patent issued by the 
BLM in 2005 and its associated land reconfiguration. The bill enables 
implementation of the land reconfiguration stipulated in the Coyote 
Spring MSHCP, which will protect critical habitat while allowing 
economic development in south-central Nevada. The BLM supports the 
bill, which passed by the House of Representatives without amendment on 
July 15, 2009.
    Thank you for the opportunity to testify. I would be happy to 
answer any questions that you may have.
                                h.r. 934
    Mr. Chairman and members of the Committee on Energy and Natural 
Resources I am pleased to appear before you today on behalf of the 
Department of the Interior to support enactment of legislation that 
would convey the three geographical miles of submerged lands adjacent 
to the Northern Mariana Islands to the Government of the Northern 
Mariana Islands. The Administration would strongly support this bill if 
amended to address the issues outlined below
    The bill is intended to give the Commonwealth of the Northern 
Mariana Islands (CNMI) authority over its submerged lands from mean 
high tide seaward to three geographical miles distant from its coast 
lines.
    It has been the position of the Federal Government that United 
States submerged lands around the Northern Mariana Islands did not 
transfer to the CNMI when the Covenant came into force. This position 
was validated in Ninth Circuit Court of Appeals opinion in the case of 
the Commonwealth of the Northern Mariana Islands v. the United States 
of America. One consequence of this decision is that CNMI law 
enforcement personnel lack jurisdiction in the territorial waters 
surrounding the islands of the CNMI without a grant from the Federal 
Government.
    At present, the CNMI is the only United States territory that does 
not have title to the submerged lands in that portion of the United 
States territorial sea that is three miles distant from the coastlines 
of the CNMI's islands. It is appropriate that the CNMI be given the 
same authority as her sister territories.
    I have three comments on the bill, and then a recommendation. 
First, the Territorial Submerged Lands Act, which became public law in 
1974, contains several sections that refer to the territories by name. 
H.R. 934 inserts the CNMI's name only in section 1, but not in section 
2, which reserves military rights and navigational servitudes. In order 
to achieve consistency, the Department recommends that the CNMI be 
included in all provisions of the Territorial Submerged Lands Act where 
other territories are named.
    Second, H.R. 934 includes language interpreting ``date of 
enactment'' in the original act as meaning ``date of enactment'' of 
H.R. 934 when referencing the provisions of H.R. 934. For those who 
will later interpret the statute, it would be helpful if the 
interpretation is included in the main statute itself, rather than 
being relegated to a separately listed amendment or reference note.
    Third, on January 6, 2009, by presidential proclamation, the 
Marianas Trench Marine National Monument was created, including the 
Islands Unit, comprising the submerged lands and waters surrounding 
Uracas, Maug, and Asuncion, the northernmost islands of the CNMI. While 
creation of the monument is a historic achievement, it should be 
remembered that the leaders and people of the CNMI were and are these 
three islands' first preservationists. They included in their 1978, 
plebiscite-approved constitution the following language:
                     article xiv: natural resources

          Section 1: Marine Resources. The marine resources in the 
        waters off the coast of the Commonwealth over which the 
        Commonwealth now or hereafter may have any jurisdiction under 
        United States law shall be managed, controlled, protected and 
        preserved by the legislature for the benefit of the people.
          Section 2: Uninhabited Islands. . . . The islands of Maug, 
        Uracas, Asuncion, Guguan and other islands specified by law 
        shall be maintained as uninhabited places and used only for the 
        preservation and protection of natural resources, including but 
        not limited to bird, wildlife and plant species.

    It is important to note that the legislature has never taken action 
adverse to the preservation of these northern islands and the waters 
surrounding them. The people of the CNMI are well aware of their 
treasures. CNMI leaders consented to creation of the monument because 
they believed that the monument would bring Federal assets for marine 
surveillance, protection, and enforcement to the northern islands that 
the CNMI cannot afford.
    If enacted as passed by the House, H.R. 934 would become a public 
law enacted subsequent to the creation of the monument. H.R. 934's 
amendments to the Territorial Submerged Lands Act would convey to the 
CNMI the submerged lands surrounding Uracas, Maug, and Asuncion without 
addressing the effect of this conveyance on the administrative 
responsibilities of the Department of the Interior and the Department 
of Commerce. Presidential Proclamation 8335 establishes shared 
management responsibilities for the Marianas Marine National Monument 
between the Department of the Interior and the Department of Commerce. 
The proclamation further states that the ``Secretary of Commerce shall 
have the primary management responsibility. . .with respect to fishery-
related activities regulated pursuant to the Magnuson-Stevens Fishery 
Conservation and Management Act (16 U.S.C. Sec. Sec.  1801 et seq.) and 
any other applicable authorities.'' The proclamation provides that 
submerged lands that are granted to the CNMI ``but remain controlled by 
the United States under the Antiquities Act may remain part of the 
monument'' for coordinated management with the CNMI. The Department of 
the Interior seeks to harmonize all interests in the waters surrounding 
the CNMI's three northernmost islands and provide sufficient control 
over the submerged lands and waters of the monument to enable co-
management of the Islands Unit of the monument. Thus, the Department 
recommends that language be included in H.R. 934 referencing the 
proclamation that created the monument, including the Federal and CNMI 
roles. Such harmonizing language is intended to protect the Islands 
Unit of the monument and at the same time acknowledge the prescient and 
historic conservation effort of the leaders and people of the CNMI in 
protecting Uracas, Maug, and Asuncion, and their surrounding waters.
    I have appended to my written statement legislative language that 
would (1) address the submerged lands surrounding the Northern Mariana 
Islands to the Government of the Northern Mariana Islands, and (2) 
clearly address the three issues of concern to the Department that I 
raised here today. The Department of the Interior strongly supports 
H.R. 934 if it is amended to include the legislative language provided. 
The Department of the Interior looks forward to the Commonwealth of the 
Northern Mariana Islands gaining rights in the submerged lands 
surrounding them similar to those accorded her sister territories.
                                appendix
          Be it enacted by the Senate and House of Representatives of 
        the United States of America in Congress assembled, that Public 
        Law 93-435 (48 U.S.C. 1705) is amended:

          (a) by inserting the words `the Commonwealth of the Northern 
        Mariana Islands,' after the word `Guam,' wherever it appears, 
        and
          (b) by adding at the end the following language:

          `Sec. 7. All provisions of this Act that refer to ``date of 
        enactment'', shall, when applicable to the Commonwealth of the 
        Northern Mariana Islands, mean the date of enactment of the 
        amendment that included the Commonwealth of the Northern 
        Mariana Islands in this Act.
          `Sec. 8. Nothing in this Act is intended to amend, repeal, or 
        otherwise alter the Marianas Trench Marine National Monument as 
        described in Presidential Proclamation 8335 dated January 6, 
        2009, including the proclamation's provisions that reference 
        the management responsibilities of the Secretaries of the 
        Interior and Commerce and the rights, responsibilities of 
        officials of the Commonwealth of the Northern Mariana Islands.'

    Senator Wyden. We have questions. Mr. Chairman, would you 
like to start the questions?
    The Chairman. Sure. I am glad to, Mr. Chairman.
    Let me ask Secretary Sherman first, this is with regard to 
S. 1470. I believe you stated and your testimony includes the 
statement that the levels of mechanical treatment that are 
called for in the legislation are likely unachievable and 
perhaps unsustainable. I guess that raises the question in my 
mind as to whether the Forest Service was involved in the 
discussions, the collaborative discussions that led to this 
legislation that Senator Tester and Senator Baucus put forward 
here.
    Did the Forest Service discuss sustainability and 
achievability with the various stakeholders as part of those 
discussions? Are you aware as to what the history of that is?
    Mr. Sherman. Senator, I have recently--in the past week or 
two, my staff has had discussions with Senator Tester's staff. 
But my understanding is that the regional and local offices of 
the Forest Service did not have--were not participants in the 
stakeholder process.
    The Chairman. That was before your watch, I understand?
    Mr. Sherman. That is correct.
    The Chairman. But your understanding is that the Forest 
Service views on some of these issues that you are now bringing 
to the committee's attention were not raised?
    Mr. Sherman. That is my understanding.
    The Chairman. I think you also say in your testimony that 
the levels of mechanical treatment that are called for in the 
bill would require an enormous shift in resources from other 
forests in Montana and also from other States in order to 
accomplish the treatment levels that are specified.
    What kinds of resources are we talking about here that 
would have to be shifted, and would they include--I think you 
mentioned the possibility not only of having resources from 
that region, which is Region 1, as I understand the way you 
designate your regions, but are you also talking about shifting 
of resources from other regions that the Forest Service 
manages?
    Mr. Sherman. Senator, there are a number of different 
categories of cost that would be involved in meeting the goals 
of this bill. Part of the costs relate to the processing of the 
National Environmental Policy Act. Under this bill, we would 
have to address one environmental impact statement per year of 
at least a 50,000-acre size, and we would be doing that each 
and every year for a period of 10 years. So that is one area of 
cost.
    A second area of cost is the advertising, sale, and 
implementation of these stewardship contracts.
    Then, third, there are a number of costs that relate to the 
restoration of these projects, the obliteration of roads, the 
fixing of culverts, the planting of trees, and so forth. So 
these are different cost centers.
    Now, the Forest Service advises me that these costs would 
be considerably more expensive than the costs that are 
currently being incurred in the 3 national forests that are 
being addressed here. If that is the case, then we would have 
to look to other forests within Region 1 to help to support 
these efforts, or we would have to look to other regions to 
help support the efforts.
    I do not have a precise cost figure of how much more it 
would be, but it would certainly run into the millions of 
dollars on an annual basis.
    The Chairman. You talked, I think, also in your testimony 
about your concern about site-specific legislation. Could you 
elaborate a little bit as to what you are talking about there?
    Mr. Sherman. We anticipate, if Congress were to pass this 
bill, there will be other areas of the United States, other 
regions or other forests within regions which will also seek 
similar site-specific legislation. There are collaboratives 
going on in various parts of the country--in Oregon, in 
California, Arizona, New Mexico, Colorado, Wyoming, and parts 
of the East and the Southeast.
    I think that there is the likelihood that if Congress were 
to move forward and pass legislation such as we are talking 
about today that other regions will want to do so similarly. 
Now if that happens, I think my concern is that there will be 
somewhat of a balkanization that occurs between the different 
regions in the country. Those who are first in may get funded, 
and those who come later may find that there are less funds 
available.
    There will be certain haves and have nots that result from 
this process. In some ways, there is no longer a true national 
review, a national effort to sift out what priorities ought to 
exist across the country.
    The Forest Landscape Restoration Act, which you passed not 
too long ago, did anticipate this issue. It set a template for 
looking at landscape-level restoration, having this reviewed at 
a national level, picking projects from different regions, 
which were worthy of going forward here. It seems to us that 
that approach perhaps might be the best approach to prevent the 
balkanization that might come otherwise.
    But I want to stress that we are open to new ideas here. If 
there are ways to make this work that don't pit regions against 
each other and to allow us to truly prioritize with the limited 
resources we have, we are certainly open to a discussion about 
that.
    The Chairman. Thank you very much. Appreciate the 
opportunity to ask questions.
    Senator Wyden. Thank you, Mr. Chairman.
    I have only one area that I want to get into with you, Mr. 
Sherman, and you have been at your post for a grand total of 30 
days, I think. So you certainly are coming right up into the 
thick of it.
    It is on this question of collaboration, and it is in your 
prepared testimony you cited it again. Let me get your 
assessment on this issue with respect to how you are looking at 
it at this point, early in your tenure.
    All over the West, there are lots of collaborations, no 
question about that. What there also is, is enormous 
frustration that the Forest Service is today not doing enough 
to support those collaborative efforts, and it is not doing it 
nearly fast enough.
    I think what you are going to hear during your tenure is 
that this effort must be sped up. It must be much more 
aggressive and focused. If it is not--I know we will have a 
chance to talk about the Oregon legislation--what is going to 
happen in the rural West is a lot of those areas are going to 
end up sacrifice zones. They don't have a lot of time.
    In a lot of those areas, the infrastructure, the mills and 
the engines of the rural economy, it is not going to be there 
if there isn't additional support from the Forest Service and 
concrete, significantly more focused, and bolder work done. So 
we are going to be talking a lot about it.
    Understand that in the rural West, not only are people 
frustrated, they can't understand how it is that their 
Government can come up with billions of dollars--I mean we now 
own car companies, insurance companies, investment houses--how 
it is that we can't find a way to get the Forest Service 
support for these homegrown collaborative efforts.
    So my question to you is, since you have been there for 
just this short period of time, what is your early thinking, 
your thinking at this point about how the Forest Service would 
substantially increase the support for collaborative work, 
especially in the woods of the rural West?
    Mr. Sherman. Senator, I completely agree with you about the 
urgency of moving forward more aggressively on the 
collaboration of all of the stakeholders throughout the country 
who are interested in these issues. We must do a better job of 
this, and I think Secretary Vilsack's speech in August of this 
year on the national forests and the private forests emphasized 
the importance of collaboration.
    We need to do a better job. We need to do this at all 
levels of the Forest Service. We need, at the local levels and 
the district ranger offices and forest supervisor offices, to 
work very, very hard bringing these disparate groups together 
and finding common interests and common strategies for dealing 
with these problems.
    So we are going to be working at this, and hopefully, we 
will be making progress at this. Without progress on 
collaboration, we are going to be frustrated whether we have a 
bill here or whether we proceed under our typical 
administrative processes because, without collaboration, we end 
up with litigation, and the process comes to a standstill.
    So my hope is that we will put collaboration at the top of 
our list because without it, we can't make progress.
    Senator Wyden. I think what you will find in these 
discussions, and my sense is we are going to have lots of them, 
is that this committee, on both sides of the aisle, is going to 
make sure that we get results. In other words, we have heard in 
the past from a variety of administrations about lots of 
processes. But we haven't gotten enough results on the ground, 
and we are going to be interested in working with you to find 
the right mix of administrative steps and legislation, 
legislation that in many instances can give you more tools in 
order to stake out this positive direction we want.
    But we have got to get results. That has got to be the 
bottom line as you go forward in the days ahead, and we will 
have plenty of conversations about this.
    Senator Risch.
    Senator Risch. Yes. I am a little disappointed, Mr. 
Sherman, to hear you talk about the resistance from the 
administration regarding--and you put it delicately, and I 
appreciate that--but regarding the business of people in their 
local States, in their local areas actually being able to 
resolve these problems.
    I know this is going to come as a great shock to a lot of 
people in Washington, D.C., but you know the people in the 
States really do a pretty good job of resolving their own 
problems if you let them do it. You just indicated, well, there 
should be this national thing with the national priorities.
    When I became Governor, the issue on the roadless matter 
was put on my plate, and I had a lot of people saying, look, 
don't mess with that. They have been at this 40 years, and 
nobody has been able to resolve this. Stay away from it. Forget 
it. Go on and do something else.
    But the first thing that struck me, and maybe it was my 
forestry background, I don't know. But the first thing that 
struck me when I looked at it was that for 40 years, the Forest 
Service had been attempting to resolve the roadless area issue 
by one-rule-fits-all. So, the first thing I did was we broke it 
down into, believe it or not, 280 different areas that you 
would refer to as a balkanization.
    But we took the 280 because anyone who deals with land 
knows that every acre is unique, in and of itself, and 
generally, a watershed is unique in and of itself. We broke it 
down into 280. Then what we did was we argued back and forth 
and came up with essentially four different themes, if you 
would, and five if you include the special themes such as areas 
of religious significance to tribes and ski hills and things 
like that.
    But we broke it basically into four, and believe it or not, 
once we did that and once we broke it up and said, look, these 
are the four different kind of areas, let us find out what 
local people think. The next thing we did was we gave it to the 
county commissioners.
    There are 44 counties in Idaho, and I think there was 
roadless in 35 of them. They held hearings, and they had people 
come in, both national and local, and they took each of those 
areas and went through it and looked at it. At the end of the 
day, it was amazing when they sat around the table, both people 
from the environmental community and people from the industrial 
and forest community, how they looked at it, and they said, 
yes, well, here is one. Look at this.
    Well, this is a unique piece of ground that nobody is ever 
going to cut trees in here, nobody is ever going to build roads 
in here. Nobody ever should. Anybody disagree with that? 
Everybody looked at it and said, yes, you know, I think you are 
probably right on that.
    You get another piece. You look at it and say, wait a 
minute, this one has already got roads throughout it. This 
shouldn't be in roadless to begin with. Can we give this one up 
back to the general forest? Yes.
    At the end of the day, we had these millions of acres in 
Idaho and a broad spectrum of types of acres and came to a 
resolution of it to where all people could buy into it. If we 
had just cut loose with that and sent it to Washington, D.C., 
this would never, ever, ever have gotten done.
    My point is I would hope that you would revisit the issue 
of who it is that would be better to analyze these unique 
pieces of ground and come up with a proposed resolution of how 
the land should be managed. Because the collaborative method 
and the method of actually giving it out to the areas where 
those lands sit worked remarkably well in Idaho, and there are 
people in the room who participated in that from both sides of 
the spectrum who I think would corroborate that.
    Mr. Sherman. Senator, if I may respond just briefly?
    Senator Risch. Please.
    Mr. Sherman. I think it is very important to reemphasize 
that we support local collaboration. We think it is essential. 
I think many of the solutions must be generated locally. I 
think there is a way to take those solutions and blend them 
into the programs and the processes of the Forest Service.
    There is going to be, overall, budgetary issues we and you 
have to deal with. I mean, if we had more money, it would be 
very, very helpful so we could move forward with all of these 
programs across the country. But the local solutions and the 
local collaboration are essential to our making progress on 
this, and I just want to emphasize that with you.
    Senator Risch. Thank you.
    Thank you, Mr. Chair.
    Senator Wyden. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Chairman, going back to the 3 bills I referred to, all 
of which passed this committee without any remuneration, to be 
honest and fair with you, only one of them was a Forest Service 
piece of land. The other two were BLM lands. I understand there 
is no such requirement in the BLM?
    Mr. Roberson. That is correct.
    Senator Bennett. So the first question that arises in my 
mind is do you have a requirement to get fair market value if 
you convey the land to the BLM?
    [Laughter.]
    Mr. Sherman. That is an excellent question, Senator. I do 
not know the answer, but I will get the answer.
    Senator Bennett. If you could, I would appreciate it.
    Mr. Sherman. I will. I mean, BLM does have the statutory 
authority to convey land without consideration, whereas the 
Forest Service does not. So I will look into that, and I will 
get back to you.
    Senator Bennett. OK. I would appreciate that. Now I 
understand that one of them, and it has to do with the chairman 
here, because it is a piece of land in Oregon, and it makes our 
land exchange look really big because it was just 1.5 acres. It 
was Forest Service land, and checking into the history of it, 
there was consideration.
    The Forest Service was paid $1 for the 1.5 acre in how do 
you pronounce it, Mr. Chairman, Wallowa?
    Senator Wyden. Wallowa.
    Senator Bennett. Wallowa. The Wallowa, Oregon, conveyance 
was 1.5 acre, and the Forest Service was paid $1. We will be 
happy to match that and, indeed, move it up for the 2 acres, 
make it a $1.50 or even double it and make it $2 for the 2 
acres.
    The administration did not express an opposition to that. I 
want you to be consistent here. I want you to be consistent on 
the side of saying there is a de minimis level at which this 
thing is not required because that applied in the Wallowa 
conveyance, and I would like it to apply in the Utah conveyance 
as well.
    Will you check into that and see what the fact situation 
is?
    Mr. Sherman. Senator, I will. Just as a historical note, my 
understanding is, in that particular case, the Forest Service 
acquired the property from the city of Wallowa in the 1930s for 
$1, which is an interesting historical fact.
    Senator Bennett. So you didn't make any money when you sold 
it?
    [Laughter.]
    Mr. Sherman. Apparently not. I am also advised that the 
Deputy Chief of the Forest Service, when he did testify, he did 
express our serious concern over the proposed bill because it 
deviated from our statutory authority and from our past 
policies. But I will check into this, and I will get back to 
you.
    Senator Bennett. I understand he did express concern, but 
the concern ultimately was withdrawn so that when the committee 
acted, the official record indicated the administration was not 
opposed to it. Could you double check that for me?
    Mr. Sherman. I will, and I will get back to you.
    Senator Bennett. In the meantime, talk to your friends at 
the BLM and see if they want a couple of acres. That may be the 
easiest way to do it.
    Mr. Sherman. I have got a fellow right here I can talk to. 
So----
    Senator Bennett. Yes. Make a deal with them and let them 
pick up these acres, and then we will give them the $2.
    Thank you very much, Mr. Chairman.
    Senator Wyden. We are not going to pummel this question of 
the city of Wallowa, but just so the record is clear, the city 
of Wallowa--so it is clear with respect to Wallowa, the city of 
Wallowa gave it to the Forest Service for $1.
    Mr. Sherman. That is correct.
    Senator Wyden. In effect, what happened is we gave it back 
to them. Having said that, we are going to work very closely 
with Senator Bennett because we always do, my longtime ally.
    Senator Bennett. Thank you.
    All right. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and I appreciate 
the flexibility to allow me to ask a few questions.
    I just want to make one real quick statement, and correct 
me if I am wrong, Harris. But the Forest Service has been 
advocating collaboration for, what, 10 years. Would that be a 
fair statement? On the ground collaboration.
    Mr. Sherman. I am certainly aware, at least in my home 
State, where the Forest Service did--has promoted 
collaboration, that is correct, over a period of time.
    Senator Tester. You know as well as anybody, because you 
have been in the business for a while, that the easiest way 
to--and this really goes off the chairman's question. But the 
easiest way to really kill a good collaborative effort is not 
to support it once it happens. You are not there. In fact, you 
are not there at all.
    But the key is, is so many times, we advocate for things to 
happen at this level at the legislative branch of the U.S. 
Congress, and then folks step up to the plate and they do it, 
and we don't support them. So, I think it is critically 
important if we are going to keep energy on the ground, if we 
are going to tell folks to collaborate and they actually do set 
aside their differences--and might I add, this is my bill. But 
this really isn't my bill.
    This bill was put together by folks that we are going to 
hear from in a minute that, quite honestly, sat down and set an 
example that we should learn from in the U.S. Congress and said 
how can we work together? Not how can we divide ourselves from 
one another?
    So that energy needs to be supported, and I think you are 
there, Harris, and I appreciate that.
    I just had a couple of real quick questions. Fire. If fire 
hits a region, where do you get the money?
    Mr. Sherman. Where do we get the money? We have a fire 
budget.
    Senator Tester. OK. Is there a fire budget for each region?
    Mr. Sherman. My understanding is there is a fire budget for 
each region.
    Senator Tester. OK. If that fire budget runs out, where do 
you get the money?
    Mr. Sherman. We have to seek it from our national programs?
    Senator Tester. Yes. You have to seek it from somewhere 
else. The point is, is that with this bill, you have the 
ability to go out and do some things in the forest that I think 
can help that fire budget. I am not saying forest isn't going 
to burn. It is going to burn. There is no ifs, ands, or buts 
about it.
    But if you look at that red forest, there are some 
opportunities out there to help save some dough, too, and that 
is important to know.
    It is also important, and going off Chairman Bingaman's 
question, the forest plan for the Beaverhead-Deerlodge in 
particular was started in 2002, and this collaborative group 
absolutely used it as a way to move forward. So even though 
they might not have been there, per se, they were there, per 
se, through their plan.
    The last thing I would say is that the Beaverhead-Deerlodge 
has a goal in their forest plan of some 35 million board-feet. 
If you do the math backward on it, that amounts to about 7,000 
acres of logging, which is exactly what this bill requires, and 
it comes out of the Forest Service plan. Do you have a comment 
on that?
    Mr. Sherman. I really don't. In my discussions with the 
Forest Service, they have advised me that with the Beaverhead-
Deerlodge forest, over the past 5 years, we have averaged about 
1,000 acres a year, a little bit less than 1,000 acres a year.
    Senator Tester. Yes.
    Mr. Sherman. So the ramp-up to 7,000 acres could be 
challenging. Now, again, it depends on the definition of 
mechanized treatment. If mechanized treatment is kind of 
historical commercial timber development, that would be 
difficult. If the definition of mechanized is broadened to 
include other things, we could do better. But it still is a 
significant increase in the level of activity.
    Senator Tester. We understand that. We will work with you 
on that. But with the beetle kill and the 1.9 million acres, I 
think we can figure this out. I really do, and I appreciate it.
    One last thing. You are from the State of Colorado. That is 
a State that has one mill left to process timber that comes off 
our forests. As I understand it, as infrastructure disappears, 
it becomes harder, if not impossible, to perform work on the 
landscape. Could you just speak to the potential increased 
costs as we potentially see, as we have seen for the last 22 
years, our timber industry dissolve and that infrastructure go 
away? What kind of impact does that have on the Forest Service 
budget and your ability to do restorative work?
    Mr. Sherman. It has a tremendous impact, Senator. We must 
have a viable timber industry if we are going to address the 
challenges ahead of us. In my home State, we are down to one 
mill, and that has been very, very problematic in terms of 
getting restoration work done.
    Senator Tester. I want to thank both of you for being here. 
I appreciate your testimony, and I appreciate your honesty. 
Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you both.
    Let me leave you with one last thought, if I might, Mr. 
Sherman, having kind of listened to this and had a chance just 
to talk to you briefly. It is almost like, as you get into this 
topic, you have to work this backward. Because the one word 
that folks in the rural West want to hear is ``results.''
    You know, they listen to all the Washington discussion, 
which strikes people as a lot of talky-talk about process and 
people going to meetings and all the rest, but what I think we 
are going to be measured on--you, myself, Senator Tester--is 
people are going to say how many acres did you get treated that 
you really took a step to make the forest healthy again?
    In our part of the world, they are going to say how many 
acres did you get treated? They are going to say how many saw 
logs did you actually get to the mills because there is great 
concern that biomass, which I am a great supporter of, I think 
it is going to make a big difference in energy, that biomass 
alone is not, for some time to come, going to keep the mills 
running. So people are going to say how many saw logs did you 
get to the mills?
    Then they are going to say what did you do to protect old 
growth? We love our treasures.
    So that is what we have got to figure out through this 
combination of administrative initiatives and legislation is to 
be able to show folks that on our watch we actually got results 
for them, and we are going to work very closely with you. I 
hope you have seen that this is a very bipartisan subcommittee. 
Throughout my time, I have been both the chair and the ranking 
minority member on this subcommittee, and we pretty much 
conducted our business the same way whether I was the chair or 
the ranking minority member.
    So we are going to work very closely with you. It is going 
to be bipartisan. But we have got to get some results because 
that is what our constituents are demanding of us. That is what 
they send us here for, to get results.
    We will give you the last word, if you like?
    Mr. Sherman. I just want to thank the committee, and I 
promise you that the department is going to work closely with 
this committee and with the Congress, and hopefully, we are 
going to get some significant results. So thank you.
    Senator Wyden. Very good.
    Mr. Roberson, thank you. We will excuse you both at this 
time.
    Let us see, our next panel, the Honorable Mike McGinley; 
the Honorable Ronald Hurt; Sherman Anderson, president/owner of 
Sun Mountain Lumber, Deerlodge; Matthew Koehler of the Wild 
West Institute of Missoula; Tim Baker with the Montana 
Wilderness Association; and Chris Wood, chief operating officer 
of Trout Unlimited and a frequent guest here at this 
subcommittee.
    All right. We are going to make your prepared remarks a 
part of the record in their entirety. I know that there is 
almost a biological urge to just read what you have written. 
But we will make your prepared remarks a part of the record, 
and if you could just summarize? This is a big panel. I know 
Senator Tester is going to have a lot of questions.
    We will just begin with you, Mr. McGinley.

  STATEMENT OF MIKE MCGINLEY, COMMISSIONER, BEAVERHEAD COUNTY 
                     COMMISSION, DILLON, MT

    Mr. McGinley. Thank you. Thank you, Chairman Wyden and 
members of the Public Lands and Forests Subcommittee and 
Senator Tester, thanks for this opportunity to share our views 
and concerns about S. 1470.
    We are not here to resurrect or reargue the complex and 
contentious wilderness issues from yet another rural western 
viewpoint. We instead are here to address other provisions in 
this bill that we believe will have extremely unfavorable, 
unintended consequences that may set precedence for ill-
conceived legislated management of forest and BLM lands.
    Unfortunately, the primary sponsor of this bill chose to 
use as a blueprint for this legislation a document analyzed and 
deemed unworkable for national forest management by management 
professionals in the Department of Ag. This bill represents 
language that will mandate management potentially detrimental 
to the public lands' health. We have encountered no evidence 
that would indicate that by simply transforming this inadequate 
and unworkable management approach into Federal law that it 
somehow would magically evolve into successful means of 
management of public lands.
    Specifically, restoration of, improvements on, and projects 
within the national forests must be accomplished with 
landscape-scale restoration projects by the use of stewardship 
practices. Stewardship practices are nothing new. They have 
been part of the Forest Service management arsenal for many 
years and have been explored and used where practical.
    In research and feasibility of success, we asked Forest 
Service stewardship professionals about the potential for 
success of projects through stewardship contracts. Our 
information indicates that stewardship contracts are only 
successful when there is a considerable value in timber.
    Given the current U.S. economic climate, there is little 
value in this timber. Thus, this bill's mandated landscape 
restoration projects have a small chance for success while 
restricting traditional management prescription and removing 
management flexibility for the Forest Service.
    It is our belief that this bill will actually allow further 
deterioration of public resources by limiting the tools that 
can be used by the Federal land managers. Funding is currently 
in place for SRS through 2011. The formula for funding SRS is 
dependent on forest receipts.
    This bill, by mandating the stewardship contracts are the 
only means to accomplish landscape-scale restoration projects, 
discontinues traditional timber sales and, therefore, the 
funding for SRS.
    Consequently, either local county residents will need to 
make up this loss, or educational and transportational services 
will have to be curtailed. Therefore, this bill does not 
encourage economic or social stability, nor does it promote 
collaboration between forest restoration activities and 
communities per its findings and purposes.
    Forest jobs would be an outcome of this bill. However, 
after the date of enactment, this bill only appropriates the 
Secretary has 1 year to issue a record of decision to implement 
one or more landscape-scale restoration projects. To do this, 
the agencies must conduct a NEPA analysis, form resource 
advisory boards, entertain local collaborative forest 
management groups, report on the effectiveness of using 
resource advisory boards to reduce appeals and litigations, 
plus conduct a study on biomass combined heat and power 
assistance projects, and then negotiate the stewardship 
contracts and conduct the projects on the ground.
    No specific funding is provided to accomplish this huge 
assignment. Given the timelines mandated by this bill and the 
lack of funding to do the work, it appears to us is a sure 
means to perpetuate the endless injunctions and litigations.
    The authority for the jobs portion of this bill 
extinguishes itself in 15 years or after 70,000 acres. The 
Beaverhead-Deerlodge forest is directed by law to mechanically 
treat 7,000 acres per year for 10 years. Consequently, by the 
forest jobs portion of the bill are gone in 10 years or legal 
and lawsuits may cancel the jobs portion of the bill.
    Concurrently, the opportunity for ample lawsuits is made 
possible when 7,000 acres per year are not treated. So this 
bill provides the legal basis for suing the Forest Service for 
not obeying the law and yet does nothing to alleviate the 
injunctions and lawsuits that may halt landscape restoration 
projects.
    Responding to these injunctions and legal actions by Forest 
Service personnel is one of the greatest barriers of the flow 
of wood products from public forests. Senate 1470 does nothing 
to remove the major obstacle in generating more predictable 
flow of wood products for local communities and actually does 
nothing to create forest jobs.
    Also included in my written testimony are over 1,000 names 
on written petitions and letters from many of the different 
groups in Beaverhead County that oppose this legislation.
    Thank you for your time, and I would be welcome to stand 
for questions. Thank you.
    [The prepared statement of Mr. McGinley follows:]
  Prepared Statement of Michael J. McGinley, Commissioner, Beaverhead 
                     County Commission, Dillon, MT
    Chairman Wyden and honorable members of the Public Lands and 
Forests Sub-Committee, thank you for this opportunity to share our 
views and concerns about S. 1470. We are not here to resurrect or 
reargue the complex and contentious wilderness issue from yet another 
rural western viewpoint. We, instead, are here to address other 
provisions in S. 1470 that we believe will have extremely unfavorable 
unintended consequences and will also set precedence for ill-conceived 
legislated management of National Forest and Bureau of Land Management 
lands contrary to the investigation, analysis and recommendations of 
the experts employed by established US land management agencies in the 
Department of Agriculture and Department of the Interior.
    Some background information is in order. Beaverhead County, in 
concert with Madison County, Montana, participated as a cooperating 
agency in the revision process for the Beaverhead-Deerlodge National 
Forest's Revised Land and Resource Management Plan. The process began 
in 2001 with the Record of Decision on the Revised Plan being signed in 
2009, thus there was an 8-year effort to bring forth a revised 
management plan for a 3.3 million acre National Forest. In 2006, a 
three environmental groups and 4 timber products businesses joined 
together to pool their financial, media outlet, and membership 
resources to form what is known as the ``Partnership''. Essentially, 
they were conceived as and have remained as an exclusive, narrowly 
focused, special interest lobby dealing with virtually only 2 public 
land management issues. They brought forth a document entitled the 
``Partner Strategy'' which they used to attempt to hijack the Revision 
process by having it considered as a viable Alternative for management 
the Beaverhead-Deerlodge National Forest. Their ``Strategy'' document 
failed to accomplish this goal as the Forest Service deemed it 
inadequate as a viable management Alternative because it did not 
include input from a wide array of stakeholders and did not addresses 
the myriad issues and management needs of a National Forest as mandated 
by law (Forest and Rangeland Renewable Resources Planning Act of 
1974)). Upon failing to get their ``Strategy'' accepted as an 
Alternative in the Revised Forest Plan, the ``Partnership'' used their 
document as the management language in a drafted bill entitled the 
Beaverhead Stewardship Act of 2007. They then sought both local and 
national support for their creation and Federal sponsorship throughout 
both houses of Congress. That failed, too. Unfortunately, the primary 
sponsor of S. 1470 bill chose to ignore valid criticism of this 
``Strategy'' document, chose to exclude the majority of impacted 
stakeholders, chose to use this flawed and judged inadequate document 
as the blueprint upon which S. 1470 is based. Consequently, we believe 
that S. 1470 represents language that will mandate management for a 
National Forest, and those management directives have already been 
analyzed, evaluated, and judged inappropriate, unworkable, and 
detrimental to our public lands' health by land management 
professionals in the Department of Agriculture. We have encountered no 
evidence that would indicate that by simply transforming this 
unworkable management approach into Federal Law, somehow it would 
magically evolve a successful means of managing resources on public 
lands.
    A central philosophical and operational paradigm contained in the 
``Partnership Strategy'' and now fully incorporated in S. 1470 is 
restoration of National Forests by tackling landscape scale restoration 
projects by use of stewardship forestry practices. Stewardship 
practices are nothing new. They have been part of the Forest Service 
management arsenal for many years and have been explored and used where 
practical. Stewardship practices entail goods and services being 
exchanged for public resources. For example, timber would be exchanged 
for restoration services on the National Forest. In researching 
feasibility of success of S. 1470 we asked a stewardship professional 
on the Beaverhead-Deerlodge about the potential for success of such 
mandated large, minimum 50,000 acres, projects through stewardship 
contracts. Our information indicates that stewardship contracts are 
only successful when there is considerable value in timber. . .that is 
timber, not salvaged ``beetle'' infected, ``beetle-killed'' or 
otherwise standing dead trees. . .and given the current US economic 
climate there is little value in timber. Thus, such S. 1470 mandated 
grandiose landscape-scale restoration projects have small chance for 
success, while restricting traditional management prescriptions and 
removing management flexibility for the Forest Service. It is our 
belief that this bill will actually allow further deterioration of 
public resources by limiting tools that can be used by federal land 
managers.
    Both the House and Senate recognized the importance of providing 
educational opportunities for children in rural areas throughout the US 
by appropriating funds to SRS (Secured Rural Schools) from 2008 through 
2011. S. 1470 by mandating that stewardship contracts are the means to 
accomplish landscape-scale restoration projects essentially removes the 
basis for funding SRS in areas of the State of Montana. Please recall 
that Stewardship contracts are an exchange of goods for services. 
Traditional timber sales and their associated funding allocations will 
cease. Thus, when there is no timber harvest on National Forests, there 
will be no SRS monies for local governments' rural schools and road 
systems. For example, in 2009, the Beaverhead County Schools received 
$505,585.91 and the Beaverhead County Road fund received $1,012,690.09 
from SRS funding. Consequently, either the 9000 residents of Beaverhead 
County will need to make up this loss, $1.5 million in 2009, or 
educational and transportational services will have to be curtailed, or 
other services will have to be eliminated to make up for the S. 1470 
initiated shortfall. In reviewing the lofty Findings and Purposes of 
S.1470 sacrificing rural children's educational opportunities plus 
rural transportation for forest restoration and wilderness is not 
mentioned. And, having rural education and transportation bear the 
burden of this bill definitely does NOT encourage economic and social 
stability NOR does it promote collaboration between forest restoration 
activities, wilderness, and communities.
    Forest jobs are to be an outcome of this bill. However, essentially 
no ``forest'' jobs or entities or funding or specific employment 
opportunities are created by this bill. The work load created by this 
S. 1470 falls upon the Secretary of Agriculture or Secretary of the 
Interior and thus, the agencies of those two Secretaries. After the 
date of enactment of this bill the appropriate Secretary has one year 
(and each year after) to issue a record of decision to implement one or 
more landscape-scale restoration projects. The agencies must conduct 
NEPA analysis, form resource advisory boards, entertain local 
collaborative forest management groups, and report on the effectiveness 
of using resource advisory boards to reduce appeals and litigation, 
plus conduct a study on biomass combined heat and power system 
projects, and then negotiate the stewardship contract and to conduct 
the project on the ground. No specific funding is provided to 
accomplish this Herculean assignment in one year other than funds not 
otherwise appropriated from the US Treasury and unallocated budget at 
the local Forest Supervisor level. Given the timelines mandated by this 
bill and lack of funding to do the work, it appears to us as a sure 
means to perpetuate endless injunction and litigation by those 
interests that do not approve of this kind of resource use.
    The authority for the ``jobs'' portion of the bill extinguishes 
itself in 15 years or when 70,000 acres is treated. The Beaverhead-
Deerlodge National forest is directed by law to mechanically treat 
7,000 acres per year for ten years; consequently the ``forest jobs'' 
portion of the bill is gone in 10 years. No provisions are included to 
extend any portion of the authority based on future injunction or 
pending litigation. Thus, legal action and lawsuits that hold up 
stewardship projects for 10- 15 years cancel the ``jobs'' portion of 
the bill. And, the opportunity for ample lawsuits is inherent when 
7,000 acres per year each year are not treated! So, this bill provides 
the basis for suing the Forest Service for not obeying the law and yet 
does nothing to alleviate injunctions and lawsuit that potentially will 
halt landscape-scale restoration projects thus negating creation of 
``forest jobs''. We contacted personnel in the Forest Service to 
inquire about barriers to harvesting wood products from National 
Forests, specifically the Beaverhead-Deerlodge National Forest. 
Responding to injunction and legal actions by the Forest Service 
require huge investments in time, energy and money. Thus, S. 1470 does 
nothing to remove a major obstacle in generating a more predictable 
flow of wood products for local communities of the State, and in 
actuality does nothing to substantially create ``forest jobs''.
    We believe the collective wisdom of this committee and its members 
fully recognize that the "devil is in the details" and that S. 1470 
leaves much to be desired in well thought out details that will not 
create negative unintended consequences. In its present form this bill 
creates many more contentious problems, may cause further deterioration 
of our public resources, presses hardships on local governments, denies 
education opportunities to rural children, and does not support the 
Findings of Congress or achieve it Purposes.
    Thank you for this opportunity to testify before your Committee.

    Senator Wyden. Thank you, Mr. McGinley.
    Mr. Hurt.

STATEMENT OF RONALD ``SKIP'' HURT, IDAHO COMMISSIONER, FREMONT 
                             COUNTY

    Mr. Hurt. You got to me quicker than I thought you would.
    Greetings from Fremont County and the State of Idaho.
    I would like to correct Senator Crapo, if I could? Is that 
legal to do that?
    Senator Wyden. Sure.
    Mr. Hurt. I spent 41 years with the Forest Service and 
retired 3 1/2 years ago. The last 25 years of those were years 
spent on the Ashton/Island Park ranger district as a fire 
management officer. My folks were initial attack on the North 
Fork fire of 1988.
    Senator Tester, you have an issue there you need to deal 
with, that red timber. We averted that and logged the area in 
our country.
    Also, I served on a national fire management overhead team 
for 17 years. So I am well aware of what that red timber is 
going to do to your State when it catches on fire.
    Currently, I am serving my second term as a Fremont County 
commissioner. I come here today not as a paid environmentalist 
or a lobbyist, but as an elected official of Fremont County, 
and I am very concerned about the portion of S. 1470 and the 
direct result or impact that it is going to have on our economy 
in the Island Park area.
    We, as a county, have no issue with the northern portion of 
the proposed Mount Jefferson wilderness area, but we do take 
issue with the southern portion. The northern portion, as you 
probably know, is nonmotorized at this time. The southern 
portion is motorized, and there is a lot of snow machine, 
snowmobiling done in there.
    The Beaverhead-Deerlodge management plan, the preferred 
alternative, is just exactly that. The northern portion of the 
wilderness would be nonmotorized, would accommodate the 
snowshoers, the cross-country skiers. The southern portion 
would accommodate the snowmobilers, which access that country 
from the Idaho side.
    Right now, we feel what we have in place is a win-win 
situation for all factions--snow machiners, cross-country 
skiers. That is in place and has worked well for the last 5 
years. The Idaho Snowmobile Association and the local residents 
collaborated with the Forest Service concerning this matter and 
felt like that we had their stamp of approval for this 
decision.
    I would like to talk a little bit about some of the 
economic impacts that this wilderness will have on the Island 
Park area. If this is removed from the accessible land that can 
be ridden by snowmobiles, it will literally put some of our 
snow machine rental dealers in Island Park out of business. 
This, in turn, is going to have a domino effect on restaurants, 
the motels, cabin rentals, and eventually, the tax base of 
Fremont County.
    Excuse me. Fremont--or Island Park area generates 51 
percent of the property tax base in Fremont County. So you can 
see why we are concerned about losing this portion of the 
country to ride in.
    Our neighboring county to the southeast of us currently has 
$127 million worth of foreclosures in their county. Now this is 
not due to any proposed wilderness bill or Senate bill. This is 
due to just the economy. It stands to show you that our part of 
the country is headlong into this recession. We need jobs.
    I had lunch last week with one of the rental dealers from 
Island Park. Kevin Phillips is his name. There are 3 rental 
dealers up there. He told me at that time, 90 percent of his 
rental business is Mount Jefferson bound. Those large groups 
are coming in from the Midwest specifically to ride on Mount 
Jefferson.
    His last comment to me was, ``This is a very real 
situation, and if Mount Jefferson is lost to the riding public, 
myself and other businesses will be out of business within a 
year from the closing of the area.''
    The residents of Island Park retooled after the collapse of 
the logging industry some 20 years ago. By removing the 
availability to ride Mount Jefferson, I think this is going to 
place us into another one of those retool situations, but where 
do we go from here? That is a very large portion of their 
business to be losing, and I don't know that they can come back 
from this economically.
    National statistics indicate that only 3 percent of the 
population actually use designated wilderness areas. They also 
indicate that less than 3 percent use these areas in the 
winter. I assume a lot of these wilderness areas are a lot more 
accessible than Mount Jefferson is.
    We just don't think it makes good economical sense for the 
Island Park area to close down a riding area that only 3 
percent, less than 3 percent of the users will use.
    Senator Wyden. Mr. Hurt, I am sorry to interrupt you. If 
you could perhaps summarize the remaining thoughts you have? 
You are a little over at this point.
    Mr. Hurt. OK. Sure. In the 1970s, the Targhee forest, 
Ashton/Island Park ranger districts had the largest timber sale 
in the history of the Forest Service, the longest and the 
largest timber sale. It was logging beetle killed timber. We 
got there and logged it before it turned red like it is in 
Montana at this time.
    When we logged that, hundreds of acres of clear-cuts were 
generated in this operation. Those clear-cuts were used to ride 
snow machines in. Those clear-cuts have now regenerated, and 
those areas are lost. So that is forcing the snow machines to a 
different area.
    Also, most of you are aware that the restrictions on 
Yellowstone National Park, with the type and quantity of snow 
machines that are allowed into the park. We share a common 
boundary with Yellowstone National Park. This is limiting the 
number of folks that come to Island Park to ride because part 
of that trip was into Yellowstone, and now they can't go in 
there without a guide.
    If we lose Mount Jefferson, we will lose another 2,500 
acres to ride in, and we just don't feel that it is worth 
ruining our economy of that community for those 2,500 acres.
    I guess in closing I would just say this, Mr. Chairman, the 
recession is alive and well in Fremont County. We are aware 
that our country is in some financial straits. I think we need 
to understand that those marks and tracks left in this 
wilderness area by these riders will melt in the spring. They 
will go away in the spring.
    But if Mount Jefferson, southern portion of Mount Jefferson 
is taken, put into wilderness, the economic impact it will have 
on Island Park, Idaho, will probably devastate that community.
    Thank you.
    [The prepared statement of Mr. Hurt follows:]
    Prepared Statement of Ronald ``Skip'' Hurt, Idaho Commissioner, 
                             Fremont County
                              introduction
    Greetings from Fremont County in the Great State of Idaho
    Thank you Mr. Chairman and committee members for this opportunity 
to testify on behalf of the citizens of Fremont County
    I retired from the U.S. Forest Service 3 years ago after working 41 
years, 25 of those years were spent in Fire Management on the Ashton - 
Island Park Ranger District of the Caribou - Targhee National Forest.
    Currently I am serving my 2nd term as a Fremont County 
Commissioner.
    I come here today not as a paid environmentalist or lobbyist but as 
an elected official to discuss S. 1470, Forest Jobs and Recreation Act 
of 2009. I am very concerned about the welfare of the residents of 
Fremont County and the economic impact that S 1470 will have on the 
businesses of Island Park and eventually Fremont County.
    We as a County have no issue with the Northern portion of the 
proposed Mt. Jefferson Wilderness area. We do take issue with the 
Southern portion of the area being included in the proposed wilderness 
area. In the Beaverhead - Deerlodge Management Plan the preferred 
alternative is to leave the Southern portion open to snowmobiling and 
close the Northern portion to snowmobiling. This alternative is a win 
win for the users of the area (including cross country skiers, snow 
shoeing and snowmobiles) and has been working well for the last 5 
years. This is an issue that the State Snowmobile Association and local 
residents have collaborated with and have the stamp of approval from 
the Forest Service.
                            economic impacts
          1. Removing Mt. Jefferson from the public lands which are 
        available to ride will put the local snowmobile rental dealers 
        out of business. This in turn will have a domino effect on the 
        local restaurants, motels, rental cabins and eventually the tax 
        base of Fremont County. The Island Park area generates 51% of 
        the property taxes in Fremont County. Many snowmobile users own 
        cabins in the area and do spend a lot of money while recreating 
        here. Our neighboring county has $127 million worth of 
        foreclosures and has laid off workers, reduced hours on other 
        workers and reduced services. This is not due to any wilderness 
        bill but does shows that this part of our country is head long 
        into the recession.
          2. Kevin Phillips one of three snowmobile dealers in Island 
        Park told me over lunch this past week that 90% of his 
        snowmobile rentals are bound for Mt Jefferson. These users are 
        coming in large groups from the Midwest specifically to ride in 
        the Mt. Jefferson area. His final comment to me was, ``this is 
        a very real situation and if Mt. Jefferson is lost to riding, 
        myself and other businesses will be gone in less than a year 
        after the closing of the area''.
          3. The residents of Island Park re-tooled their economy 
        following the collapse of the logging industry in the area some 
        twenty years ago. By removing the availability to ride in the 
        Mt. Jefferson area they will be forced into an economic corner 
        which they will not be able to escape.
          4. National statistics indicate that only 3% of the 
        population actually uses the designated wilderness areas across 
        the country. They also indicate that it is less than 3% during 
        the winter months. I assume these numbers apply to those 
        wilderness areas which are more accessible than Mt. Jefferson.
          5. Does it make good economical sense to destroy a 
        community's economy and life style for a user rate of less than 
        3% and a land mass figure of less than + of 1% of the total 
        acreage to be designated as Wilderness under S 1470?
          6. To designate the Southern area of Mt. Jefferson as 
        wilderness will cost the State of Idaho, Fremont County and 
        Island Park jobs, business and recreation opportunities
                          limited riding area
          1. In the 70's and 80's the Island Park and Ashton Rangers 
        Districts of the Targhee National Forest had the largest and 
        longest lasting timber sale in the history of the Forest 
        Service. This timber sale clear cut thousands of acres of 
        beetle killed Lodge Pole Pine and lasted well over 20 years. A 
        saw mill was built in the County to accommodate the large 
        volume of timber being generated. As a result of this massive 
        timber sale hundreds of large open areas were created to ride 
        snow machines in. It has been over 2 decades since the last 
        timber was cut in that sale and those clear cuts have now re-
        generated with new 20' trees. With these new trees the riding 
        opportunities have all but disappeared in those large openings. 
        It was a very good plan for the Forest health but has forced 
        the snowmobiles to other areas.
          2. In the past few years the snowmobile use in Yellowstone 
        National Park has been severely reduced with the limitations 
        being placed on the number and kinds of snowmobiles allowed in 
        the Park. The Island Park area has a common boundary with 
        Yellowstone National Park. The limitations in the Park have 
        also restricted the riding opportunities from Island Park into 
        the Yellowstone area.
          3. If the Southern portion of the proposed Mt. Jefferson 
        Wilderness Area is placed in to wilderness status another 2500 
        acres of riding area will be eliminated.
          4. In the Island Park area approximately 250 miles of 
        snowmobile trails are groomed at least once each week. Fremont 
        County is the largest trail grooming program in the State of 
        Idaho. These trails connect too many other trails in Montana 
        and Wyoming. These trails are used by the less experienced 
        riders that come to the area. Mt. Jefferson is used by the 
        intermediate and advanced riders
                        issues to be considered
  <bullet> Mt. Jefferson is a destination to snowmobile riders as 
        Yellowstone National Park is too many vacationers.
  <bullet> The Southern half of the proposed wilderness area is less 
        than + of 1 % of the total land mass that Senator Tester has 
        requested in S. 1470
  <bullet> The Southern portion is completely surrounded and protected 
        on the Idaho side from motorized vehicles during the summer 
        months by a Roadless Area which shares a common boundary with 
        the proposed wilderness.
  <bullet> Is the economic stability of this small Idaho community 
        worth the 3% of the local population that might use this area 
        in the summer and even less in the winter?
  <bullet> The compromise of shared users has been in place for 5 years 
        and has worked satisfactorily up to now.
  <bullet> The Southern portion of the proposed wilderness is only 
        accessible from Idaho and meets the needs of recreation 
        dependent economies in the local communities.
  <bullet> Fremont County has the largest and most active Search and 
        Rescue unit in the state of Idaho. They have completed several 
        rescues of cross country skiers and snowmobile riders in this 
        area. If this area is placed into a wilderness classification 
        where only cross country skiing and snow shoeing have access 
        the Search and Rescue will have no motorized means of access to 
        needed rescues.
  <bullet> It is the only area in Island Park where the rugged 
        challenging high mountain experience can be found.
  <bullet> Mt. Jefferson can also be easily accessed by intermediate 
        riders who are seeking outstanding scenery.
  <bullet> A few back county skiers use the area; their needs can be 
        satisfied by the Northern half that is closed to snowmobiling.
                               conclusion
    Mr. Chairman and committee members the recession is alive and well 
in Fremont County. I ask you at this time to exclude the Southern 
portion of Mt. Jefferson from the proposed Wilderness designation.
    In closing I would ask that you remember that the snow machines 
tracks left by users of this area will disappear when the snow melts, 
but if this wilderness area is permitted the economic impact on the 
businesses and the community of Island Park will last forever.
    I would like to thank the committee for the opportunity to testify 
today

    [Graphics have been retained in subcommittee files.]

    Senator Wyden. Very good. Thank you very much, Mr. Hurt.
    Let me just say to our witnesses I am going to have to keep 
you all, at this point, to 5 minutes. We will make your 
prepared remarks a part of the record.
    I know people really don't believe that, but it will take 
place. If you could just summarize your concerns, I know you 
have got Senators from your home States, and they would like to 
ask some questions. I am sure you would like to answer them.
    So, Mr. Anderson, welcome.

    STATEMENT OF SHERMAN ANDERSON, PRESIDENT AND OWNER, SUN 
             MOUNTAIN LUMBER, INC., DEER LODGE, MT

    Mr. Anderson. OK, thank you.
    Senators and Chairman Wyden, members of the committee, my 
name is Sherm Anderson. I come from a small town in Montana, 
3,500 residents, Deerlodge.
    My wife and I are small business owners. We own Sun 
Mountain Lumber and Sun Mountain Logging. This bill is very 
important to our industry in Montana. In Montana, 61 percent of 
the total forested land is on national forests.
    There are 2 means of treating our forests, one by 
mechanical means and one by fire. The mechanical, of course, 
involves us, what we do for a living. We are in the wood 
products industry.
    The other is fire. There is room for both. Fire is an 
integral part of our ecosystem, and the 2 must work together.
    We in the West are watching our forests deteriorate and die 
from insect and disease, causing serious threat of catastrophic 
fires that will soon come, destroying not only the resources 
that we use and enjoy, but also, yes, putting homes and lives 
in harm's way and at great risk.
    Our timber under contract currently is located 90 percent 
on private forest land, 7 percent on State lands, and only 3 
percent on national forests. Remember, we are surrounded in our 
particular facility, within 25 miles completely surrounded by 
national forests who own 61 percent of the forests, and we only 
have 3 percent of our total timber base under contract with the 
forests.
    This problem comes from over 25 years of fighting over the 
use of our public lands. This out-of-balance use of public 
lands puts our industry at serious risk of survival. As all of 
us are well aware of, in Colorado, New Mexico, Arizona, Utah, 
and Wyoming, where they have totally lost their forest products 
infrastructure, and now they scramble to try to find means to 
manage their forests in and around these communities, and they 
have none.
    Why is this? Our forest plan is driven by 2factors--
controversy and budgets. We cannot manage our forests driven by 
these 2 factors. Budget constraints occur when 50 percent of 
the total budget is used for fire suppression.
    This bill solves some of the controversy through extensive 
collaboration by many diverse partnerships throughout the State 
of Montana. Is everyone happy with the results? No. Does 
everyone get everything that they want? No.
    But this bill is a great start. We must try something 
different because, obviously, what we have done in the past and 
what we are now doing is not working. I and the majority of 
Montanans are convinced that this will work. It simply gives 
the Forest Service a workable tool to manage our forests and 
accomplish their management objectives while protecting and 
creating jobs that are necessary to help manage our pristine 
national forests which we all use.
    Senators, Senator Tester, I can't say enough about your 
guts at bringing this forward, and I would appreciate and thank 
you and I would appreciate due consideration from this 
committee to look at this seriously for the betterment of our 
national forests in Montana that we all use.
    I thank you for the opportunity and close.
    [The prepared statement of Mr. Anderson follows:]
   Prepared Statement of Sherman Anderson, President and Owner, Sun 
                 Mountain Lumber, Inc., Deer Lodge, MT
    Senators, Chairman Wyden, Members of the Sub-committee on Public 
Land and Forests of the Senate Committee on Energy and Natural 
Resources:
    I would like to submit written testimony in support of the Forest 
Jobs & Recreation Act, Senate Bill 1470, sponsored by Senator Jon 
Tester and co-sponsored by Senator Max Baucus, both from my state of 
Montana.
    I live in the small town of Deer Lodge, MT, population of 3,500 
people, located in southwestern Montana. My wife and I own and operate 
several small businesses in Deer Lodge. The sawmill, when in full 
operation, employees 225 people and our logging company employs 50 
people. We also hire for contracted services another 50 to 75 people.
    This bill is very important to us and many other wood products 
industry people in Montana that rely on timber as a renewable resource 
for not only our livelihood but also for the many others in our small 
rural communities who are so dependent on the wood products industry 
located in and around these small towns.
    In a state where approximately 61% of our forested land is owned 
and managed by the U.S. Forest Service, the wood products industry is 
one crucial tool that is absolutely necessary for helping to manage 
these lands. The only other available tool is fire.
    We are watching our forests each year deteriorate and die from 
insect infestation and disease, creating a serious threat of 
catastrophic wildfires to come, destroying not only the timber resource 
but also the habitat connected to it: wildlife, fisheries, recreation, 
livestock grazing, domestic water supplies, energy supply (power, gas 
and oil transmission lines), homes, communities and yes, putting many 
people's lives at risk. Not only those of us who live in and around the 
forests but those individuals whose job it becomes to try to protect 
these communities, people and resources by trying to control these 
fires.
    Now let me give you just one specific example of why this bill is 
so important:
    Our sawmill utilizes fifty million board feet (12,500 truckloads) 
of logs per year. On the Beaverhead-Deerlodge National Forest that 
surrounds us, the old forest plan had an allowable sale quantity of 
forty million board feet of timber per year. The new forest plan calls 
for reducing this to fourteen million board feet per year, these 
harvest levels for a forest of over three million acres, a forest that 
could easily sustain forty million board feet per year! The reasons 
given by the Forest Service for not only the reductions in the forest 
plan but also the Forest Service's inability to produce what was in the 
old forest plan are many. The two major reasons given are controversy 
and budget constraints - nothing mentioned about sustainability. They 
cannot adequately manage our forests driven by controversy and budgets 
that continue to be used up in trying to control wildfires. Fifty 
percent of their budget is now being used for wildfire suppression.
    Our current timber sale volume under contract consists of 90% 
private, 7% State, and 3% National Forest timber. Now, keep in mind we 
are surrounded by 61% of our forested land being National Forests. This 
is a similar example of many other mills and forests and communities 
throughout Montana. We need to have access to these National Forests 
for the wood products industry to survive in Montana. This problem 
comes from over 25 years of fighting over the use of these public 
lands. This gridlock has created huge problems for all users of our 
public lands. We have lost a large percentage of our wood products 
infra-structure over that same period of time and it continues. We all 
are witnessing what happens when the infrastructure is gone as has 
happened in Colorado, New Mexico, Arizona and Utah, where they are now 
struggling, having no other means but fire to manage their forests. 
When you lose the woods products industry, as they have in these 
states, you also lose the trained work force that is necessary to do 
restoration work.
    In Montana, we have seen our industry shrink from 38 sawmills 
employing approximately 15,000 people in both the mills and woods, to 
just 10 mills today and about 5000 workers. We also have two particle 
board plants and a pulp mill that is depended on sawmills for their raw 
material supply. All of these facilities are at risk due to the ongoing 
conflicts over management of our National Forests.
    This bill attempts to resolve the gridlock by bringing together 
diverse groups with many different interests to resolve problems and 
create jobs, by managing our forest resources, performing needed 
restoration work, preserving our high mountain backcountry, 
guaranteeing recreational opportunities, protecting our water, hunting 
and fishing, grazing for livestock and all other uses of our precious 
National Forested lands.
    I thank Senator Tester for presenting this bill. I ask for your 
support to move this bill forward. I ask for your support for not only 
the people who live in Montana but all of the people in this great 
nation that come to Montana to enjoy all it has to offer.

    Senator Wyden. Thank you very much, Mr. Anderson.
    Mr. Koehler.

  STATEMENT OF MATTHEW KOEHLER, EXECUTIVE DIRECTOR, WILD WEST 
                           INSTITUTE

    Mr. Koehler. Mr. Chairman and respected members of the 
committee, Senator Tester, thank you very much for the 
opportunity to testify at this important hearing.
    My name is Matthew Koehler, and I am the executive director 
of Montana's Wild West Institute. I am here today representing 
the Last Best Place Wildlands Campaign, a coalition of 
conservation organizations and citizens dedicated to wildlands 
protection, forest restoration, and the sound long-term 
management of our public lands.
    Our coalition includes fourth-generation Montanans, small 
business owners, veterans, retired Forest Service supervisors 
and district rangers, hikers and backpackers, hunters and 
anglers, outfitters and guides, scientists and community 
leaders. We have provided the committee with a line-by-line 
analysis of this bill, including specific recommendations.
    We also produced a document expressing our concerns, which 
has been signed by over 50 conservation groups in Montana and 
around America. Our coalition supports forest and watershed 
restoration, protecting our roadless wildlands, and sustainable 
jobs in the woods. Therefore, the issue before this committee 
today is not what the drafters of this bill intended to do, 
rather the issue before you is what this bill as written 
actually would do.
    Our coalition believes that despite Senator Tester's best 
intentions, this bill represents a serious threat to America's 
public lands legacy. The mandated logging provisions are 
unprecedented and represent an unscientific override of current 
forest planning.
    The notion that Congress should legislate logging levels on 
public lands is antithetical to the National Forest Management 
Act and irresponsible, given that lumber consumption in America 
has dropped 55 percent. The bill undermines the National 
Environmental Policy Act by imposing an unrealistic and 
arbitrary 12-month NEPA timeline, which would preclude the 
Forest Service from accurately assessing environmental impacts, 
essentially setting the agency up for failure.
    The bill would localize the management of our national 
forests, opening the floodgates for mandated logging, mining, 
grazing, drilling, or road building for national public lands 
elsewhere. This could fragment and balkanize the entire 
National Forest System and ignores the basic principle that 
these national public lands belong equally to all Americans.
    As the bill is currently written, it contains several 
provisions that abrogate the Wilderness Act by allowing 
nonconforming uses. It also releases wilderness study areas 
currently protected by law by the late Montana Senator Lee 
Metcalf.
    The numerous unfunded mandates included in this bill could 
cost U.S. taxpayers well over $100 million and raises the very 
real potential expressed to the committee by Secretary Sherman 
for other national forests to have their funds raided and 
transferred to the forests that are part of this bill.
    Over the past 5 years, long before this bill was introduced 
in Congress, open, inclusive, and transparent collaborative 
processes have sprung up around Montana. Citizens and Forest 
Service professionals have been rolling up their sleeves, 
getting out on the ground, discussing differences, and, most 
importantly, focusing on areas of common ground.
    For example, a set of Montana restoration principles has 
been developed, and we have established restoration committees 
for the Lolo and Bitterroot National Forests, both of which 
border the Beaverhead-Deerlodge. These efforts have been so 
fruitful that the Lolo committee, for example, was recently 
given the Forest Service's Breaking Gridlock Award.
    This is part of the story that you are not hearing from 
supporters of this bill. While they complain of gridlock, the 
fact is that, on the Lolo, we haven't seen a timber sale 
lawsuit in 2 years. On the Bitterroot, there has been only one 
timber sale lawsuit in the last 7 years. The major impediment 
for many logging and fuel reduction projects right now and for 
the foreseeable future is the fact that we are in a severe 
economic crisis and demand for wood has plummeted, leaving many 
sales without any bidders.
    Finally, I would be remiss if I failed to mention that this 
bill and the exclusive self-selective process used to develop 
it, particularly on the Beaverhead-Deerlodge, has engendered 
more distrust and hard feelings than anything I have witnessed 
before in Montana. Members of our coalition and a large segment 
of the public have felt excluded, disenfranchised, and ignored 
throughout this entire process.
    Again, our coalition supports forest restoration, 
wilderness, and sustainable jobs in the woods. If the goal is 
to get diverse interests working together on scientifically 
based restoration projects or bona fide fuel reduction projects 
near communities, let us build upon what is already happening. 
Congress does not need to mandate logging and throw science-
based planning and management out the window.
    Thank you again for the opportunity to testify, and I look 
forward to answering any questions.
    [The prepared statement of Mr. Koehler follows:]
    Prepared Statement of Matthew Koehler, Executive Director, Wild 
                             West Institute
    Mr. Chairman and members of the Committee, Happy Holidays and thank 
you for the opportunity to testify at this important hearing regarding 
S.1470.
    My name is Matthew Koehler and I'm the executive director of the 
WildWest Institute, a Montana-based conservation group. Our mission is 
to protect and restore forests, wildlands, watersheds and wildlife in 
the northern Rockies. We help craft positive solutions that promote 
sustainability in our communities through jobs restoring naturally 
functioning ecosystems and protecting communities from wildfire. We 
also ensure that the Forest Service follows the law and best science 
when managing our public forests by fully participating in the public 
decision process and through on-the-ground monitoring.
    I'm here today representing the Last Best Place Wildlands Campaign, 
a coalition of conservation organizations and citizens dedicated to 
wildlands protection, Wilderness preservation, and the sound long-term 
management of our federal public lands legacy. Our Montana-spawned 
coalition includes small-business owners, scientists, educators and 
teachers, 4th and 5th generation Montanans, hikers and backpackers, 
hunters and anglers, wildlife viewers, outfitters and guides, veterans, 
retired Forest Service and Bureau of Land Management officials, 
ranchers and farmers, former loggers and mill workers, health care 
practitioners, craftspersons, and community leaders--all stakeholders 
committed to America's public wildlands legacy.
    Our coalition has produced a number of documents*, which I have 
provided at the end of this testimony. I would like to respectfully ask 
that these documents be included in their entirety in the official 
record for this hearing. The first document is our coalition's 
detailed, line-by-line Analysis of S.1470 (also available at: http://
testerloggingbilltruths.files.wordpress.com/2009/12/analysis-of-s-
1470.pdf). The second item is Keeping It Wild! In Defense of America's 
Wildlands, which has been signed by fifty conservation groups from 
Montana and around the country (also available at: http://
testerloggingbilltruths.wordpress.com/keeping-it-wild-in-defense-of-
americas-public-wildlands).
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
                           summary of s.1470
    S.1470 affects over 3 million acres of National Forest System and 
Bureau of Land Management lands in Montana and contains a nearly 
bewildering list of new definitions, designations, management 
practices, required studies, reports and publications. Approximately 
680,000 acres are designated as new Wilderness Areas, another 336,000 
acres as National Recreation Areas, Protection Areas, Recreation Areas, 
and Special Management Areas, each with their own management language. 
Nearly 3 million acres are designated as Stewardship Areas where 
logging is expressly allowed and encouraged. It mandates that at least 
100,000 acres of the Beaverhead-Deerlodge National Forest and the Three 
Rivers District of the Kootenai National Forest be logged within 10 
years as well as an undetermined amount on the Seeley Lake District of 
the Lolo National Forest.
    The findings, purposes and subsequent sections of S.1470 clearly 
define it as a bill whose primary purpose is promotion of commercial 
logging through localized management of National Forest System lands. 
Touted as a bill that is good for the environment, S.1470 would 
accomplish several conservation goals, including the designation of new 
wilderness areas and headwaters protection for several streams 
important to native fish. S.1470 does contain admirable language for 
restoration of fish, wildlife and watersheds, and there is a potential 
to lower road density in some watersheds. However, these restoration 
goals are optional, unlike the mandated logging, and S.1470 effectively 
jeopardizes these goals through its action provisions and the methods 
dictated.
    The various sections of the bill have been carefully constructed to 
affect a desired outcome that would be difficult to challenge through 
citizen appeals or litigation. For example, Sec. 2(a)(2)(A) 
``encourages the economic, social, and ecological sustainability of the 
region and nearby communities.'' Sec. 2(a)(2)(B) ``promotes 
collaboration,'' 2(b)(2) declares a major purpose ``to reduce gridlock 
and promote local cooperation and collaboration in the management of 
forest land.'' It does this through use of ``advisory committees'' or 
``local collaborative groups.'' Again, this seeks the localization, 
through private interests, of National Forest System lands. 2(b)(3) 
states a purpose is enhancement of forest diversity and production of 
wood fiber to accomplish habitat restoration and generation of a more 
predictable flow of wood products for local communities. This purpose 
is later matched with the definitions of the bill to establish 
commercial logging as the primary means of fish and wildlife habitat 
restoration. For example, one of the definitions S.1470 uses for 
restoration is ``maintaining the infrastructure of wood products 
manufacturing facilities.''
    S.1470 is not a budget-neutral bill. It authorizes practically 
unlimited expenditures from the U.S. Treasury and other sources, and 
empowers ``Resource Advisory Committees'' or ``Local Collaboration 
Groups'' to spend federal funds, including on private, non-National 
Forest System lands. This provision and others in S.1470 give the 
``Resource Advisory Committees'' or ``Local Collaboration Groups'' 
sweeping powers that could effectively, if not officially, usurp 
management and budgetary authority from the Forest Service and grant it 
to private interests. Professional staff from the Forest Service will 
be replaced with citizen committees whose members are mandated to 
include industry groups. S.1470 also authorizes the Secretary of 
Agriculture to expend taxpayer funds for Fiscal Year 2010 to pay a 
federal share in construction of ``combined heat and power biomass 
systems that can use materials made available from the landscape-scale 
restoration projects.''
    The different funding provisions of the bill raise a real potential 
for other National Forests and Forest regions to have their funds 
transferred to projects under S.1470. Pitting one forest against 
another for funding is unhealthy and does not promote a wholistic, 
ecosystem approach to public lands management in the Northern Rockies.
    It is important to note that in legislation there is specific legal 
meaning to terms such as ``shall'' versus ``may'' or ``can.'' The word 
``shall'' has the force of law, once a bill is enacted and signed into 
law by the President. Thus, when S.1470 states the Secretary ``shall 
generate revenue,'' ``shall maintain the infrastructure of woods 
products manufacturing facilities that provide economic stability to 
communities in close proximity to the aggregate parcel (timber harvest 
unit) and to produce commercial wood products,'' it means just that. It 
will be the law that the Secretary must keep specific, private timber 
mills open and fed with timber from public lands, at least through the 
term of authority, if not indefinitely. This is not only an open-ended 
subsidy, it interferes with free enterprise.
    Ultimately, where there is a question of ambiguity, Courts will 
review a bill's purposes and its legislative history to divine 
Congress' intent. When purposes conflict, the overall goals of the bill 
will prevail. When wilderness and ecological restoration are 
consistently listed last, as they are in S.1470, a Court can be 
expected to conclude the logging provisions take precedence.
    In summary, the S.1470 is a significant departure from traditional 
wilderness bills. It contains several major precedent-setting 
provisions potentially detrimental to national public lands management 
that may be repeated in future bills. These include:

          1) Localizing of National Forest management by private, local 
        entities for private profit. Other members of Congress may seek 
        to exploit similar special management for national public lands 
        in their states. This could represent the fragmentation of 
        National Forest system management and regulations to a serious 
        degree and ignores the basic principle that national public 
        lands belong to all Americans, not just those in nearby local 
        communities.
          2) Mandated logging of National Forest land is an 
        unscientific override of current forest planning by 
        professional Forest Service staff. The logging mandates greatly 
        exceed the average levels since the 1950s on the Beaverhead-
        Deerlodge and are an unbelievable 14 times the sustainable 
        level recently calculated by the Forest Service. The mandated 
        logging area includes the Three Rivers District of the Kootenai 
        National Forest, where the endangered grizzly bear population 
        is nearly extinct due to very heavy logging and roadbuilding.
          3) Numerous unfunded mandates and blank check spending 
        authority for the Secretary of Agriculture and Secretary of the 
        Interior. Gives ``Resource Advisory Committees'' or ``Local 
        Collaboration Groups'' spending authority and allows funds to 
        be drawn from other forests and Forest Service regions to 
        implement S.1470, pitting forests against another for funding. 
        This creates hard feelings and mistrust rather than 
        cooperation. Authorizes the Secretary to build heat and power 
        generating facilities, a new expansion of authority. Mandates 
        numerous studies, reports, plans and publications, and numerous 
        10-year contracts, competing with other forests in the region 
        for staff time, printing and distribution. Dedicating staff to 
        the numerous reports and planning removes them from other 
        management duties.
          4) Contains several provisions that abrogate the Wilderness 
        Act by allowing non-conforming uses including military aircraft 
        landings, motorized access, and other intrusions.
          5) Releases numerous Wilderness Study Areas protected by law 
        under S. 393, sponsored by the late Senator Lee Metcalf (D-MT), 
        and releases BLM-administered Wilderness Study Areas that have 
        been protected for more than 30 years.
          6) Requires expedited environmental analysis under NEPA and 
        adds new provisions to appeal regulations that place additional 
        requirements on appellants that will limit some citizens' 
        ability to participate in the planning process.

      the state of collaboration in montana: an on-the-ground look
    Over the past five years, long before S.1470 was introduced in 
Congress, open, inclusive and transparent collaborative processes have 
sprung up on national forests around Montana. From the Kootenai 
National Forest to the Lolo National Forest, up on the Bitterroot 
National Forest and over to the Lewis and Clark National Forest, 
citizens and Forest Service professionals have been rolling up their 
sleeves, getting out on the ground, sitting around maps, discussing 
differences, and most importantly, focusing on areas of common ground 
and agreement.
    For example, in January, 2007, thirty-four representatives of 
conservationists, motorized users, outfitters, loggers, mill operators, 
state government and the Forest Service held a meeting at Lubrecht 
Experimental Forest, facilitated by the National Forest Foundation, to 
form the Montana Forest Restoration Committee (http://
montanarestoration.org). All agreed that restoring Montana's forests 
was a goal worth pursuing.
    The result of this open, inclusive, transparent collaborative 
process was the development of a set of Montana Restoration Principles 
and Implementation Plan (http://montanarestoration.org) that reflect 
the integrity, commitment, agreement and honorable work of all these 
diverse people.
    With a goal of working together to achieve good restoration work on 
the ground, individual Restoration Committees have been formed for the 
Bitterroot National Forest and the Lolo National Forest (both of which 
share a border with the Beaverhead Deerlodge National Forest), which 
include the full spectrum of interests and again, are open, inclusive 
and transparent in nature.
    By all accounts the Lolo and Bitterroot Restoration Committees have 
been a great success. Not only have tensions been reduced and potential 
conflicts addressed openly and honestly, but following full 
environmental analysis by professional land managers with the Forest 
Service and an open, inclusive public process as required by NEPA, 
solid restoration and fuel reduction projects are moving forward as a 
result.
    In fact, the US Forest Service has been so impressed with the 
successful work of the Lolo Restoration Committee, that we received the 
agency's ``Breaking Gridlock Award'' in 2008. Also, in June 2008, 
Montana Governor Brian Schweitzer wrote the Lolo Restoration Committee 
``to express my appreciation for your efforts with the Montana Forest 
Restoration Committee. Your service on the Lolo Forest Restoration 
Committee is crucial to finding consensus on restoring the national 
forests in Montana. I have reviewed and support the Forest Restoration 
Principles document, and appreciate the unprecedented level of 
cooperation and partnership that went into this effort.''
    Make no mistake. If the goal is to get diverse interests working 
together with the Forest Service to move forward with bona fide fuel 
reduction work around communities and scientifically-based restoration 
projects the US Congress doesn't need to undermine NEPA and throw 
science-based forest planning out the window by mandating logging, as 
S.1470 proposed. Rather, one just needs to look at the excellent, 
successful work of the Lolo and Bitterroot Restoration Committees. The 
proof, as they say, is in the pudding.
    For example, just last week an article in the Missoulian titled 
``Bull trout, loggers, goshawks benefit in Lolo National Forest timber 
sale settlement'' included this fact, ``The settlement marks a trend of 
greater cooperation between the Lolo National Forest and its 
environmental watchdogs...In the past two years, only two [timber] 
sales have been appealed, and neither has gone to court.''
    On the Bitterroot National Forest there has been only one lawsuit 
involving a timber sale since 2002. Let me repeated that fact: one 
timber sale lawsuit on the Bitterroot National Forest in the past seven 
years. Furthermore, the fact is that right now on the Bitterroot 
National Forest there are at least 15,000 acres of fuel reduction, 
thinning and logging projects already through the NEPA process or just 
about finished.
    Ironically, the major impediment for some of these logging projects 
moving forward is the economic reality that we're in the middle of huge 
economic crisis and the steepest decline in lumber consumption in US 
history, with lumber demand down over 50% and new home construction 
down 70%.
    One such project already through the NEPA process is the Trapper 
Bunkhouse Land Stewardship Project on the Darby Ranger District of the 
BNF. The project, which wasn't appealed or litigated, authorizes 
logging, thinning and fuel reduction work on nearly 5,000 acres of the 
BNF. The FEIS for this project was issued in April 2008.
    Almost a year later I wrote the Darby District Ranger to inquire 
about the status of this project. On March 19, 2009 I got this 
response: ``As it stands we may not get any bidders since a majority of 
the timber is not tractor ground and market conditions are bleak.'' 
Hearing nothing for a few more months, I again wrote in July 2009 and 
got this response from the District Ranger, ``Markets have not 
improved, in fact have gotten worse so sales in the Bitterroot are not 
very appealing at this time. We had a pre-bid trip for prospective 
bidders and did not generate much optimism. There was much interest but 
current market conditions were prohibitive for them being able to make 
successful bids.''
    Unfortunately, for whatever reason, these facts about successful 
open, inclusive, transparent collaborative processes in Montana seem 
lost on supporters of S.1470. In their sustainable PR push to sell 
S.1470 to the public they appear willing to just ignore all of this 
excellent, heartfelt working together to find common ground that's 
happening in Montana right under their noses.
    Instead, Senator Tester and supporters of S.1470 have taken to the 
airwaves and traveled around the state complaining about all the 
supposed ``gridlock'' that's apparently preventing the Forest Service 
from doing any management of our public lands. Senator Tester even went 
so far as to tell a Bozeman crowd ``lawsuits have stopped forest 
management cold,'' (http://bozemandailychronicle.com/articles/2009/09/
29/news/10tester.txt). Really? Of course, while such statements might 
make for good politics, they also look pretty silly when one considers 
them in the context of the facts outlined above.
    Finally, let's be honest and frank here. It's been well documented 
that the ``collaborative process'' used by the Beaverhead Partnership 
was an exclusive, self-selective affair. Unlike the open, inclusive and 
transparent processes described above in conjunction with the Lolo and 
Bitterroot Restoration Committees, which have the full support of the 
Forest Service, the Beaverhead Partnership intentionally excluded the 
voices and interests that didn't already agree with what three 
conservation groups and five timber mills had come up with behind 
closed doors. Not only were many public lands interests excluded at the 
outset in 2006, but concerns, questions and proposals for improving 
their plan have been systematically ignored and dismissed. Again, this 
hardly represents a model ``collaborative process'' for dealing with 
public lands management.
    This Committee needs to be fully aware that the Beaverhead 
Partnership proposal that makes up the bulk of S.1470, was not an open, 
inclusive or honest attempt at finding consensus. Furthermore, these 
self-serving, disingenuous actions by supporters of S.1470 are having a 
tremendous negative impact on the future of existing and potential 
successful efforts to work together and find common ground solutions.
  congress mandating logging levels is unprecedented, antithetical to 
                                  nfma
    S1470 mandates a minimum of 100,000 acres of logging on the 
Beaverhead Deerlodge (BHDL) National Forest and the Three Rivers 
District of the Kootenai National Forest. The logging mandates greatly 
exceed the average acres logged annually on the Beaverhead-Deerlodge 
National Forest going all the way back to the 1950s (Source: http://
www.fs.fed.us/r1/forest_range/timber_reports/silviculture_reports/
2008_nharv_rpt.pdf). The mandated cut on the BHDL is also an 
unbelievable 14 times the sustainable level recently calculated by the 
Forest Service. The mandated logging area on the Three Rivers District 
of the Kootenai National Forest, includes core habitat for the 
endangered grizzly bear, whose populations on the Kootenai is nearly 
extinct due to very heavy logging and roadbuilding.
    Mandated logging of National Forest land is an unscientific 
override of current forest planning by professional Forest Service 
staff. The notion that the US Congress should legislate logging levels 
on a national forest is antithetical to the National Forest Management 
Act (NFMA) and current national forest planning. There should be little 
debate in this Committee about the need to use planning and, with it, 
environmental analysis to establish sustainable allowable sale 
quantities for national forests reflecting ecological, social and 
economic concerns. NFMA does not prescribe specific timber sale levels.
    No law to my knowledge has ever established or mandated a specific 
timber harvest level for any national forest. The Ketchikan Pulp 
Company (KPC) and foreign-owned Alaska Pulp Corporation (APC) timber 
sale contracts that were a dominant factor in management of the Tongass 
National Forest decades ago, set some contractual obligations for the 
Forest Service to provide timber in return for a commitment on the part 
of the companies to continue to operate pulp mills in the region. But, 
even under these conditions, the agency had the flexibility to adjust 
levels of timber offered for sale to reflect changing conditions in the 
region. The existence of the contracts did obligate the government to 
offer timber for sale and this did strongly influence how the Tongass 
was managed. But, even this was not a specific, mandated level of 
logging as is proposed in S.1470.
 will s.1470 conflict with preexisting agency mandates, environmental 
                    laws, and planning requirements?
    This question was asked by Dr. Martin Nie in a recent commentary 
about S.1470 (http://www.headwatersnews.org/
p.ForestJobsAct092809.html). Dr. Nie is professor of natural resource 
policy at the University of Montana's College of Forestry and 
Conservation. He is also a leading expert on Forest Service policy. 
Here was Dr. Nie's response:
    ''Forest-specific laws already on the books, like the Tongass 
Timber Reform Act and the Herger-Feinstein (Quincy Library) Act, have 
engendered more conflict than consensus partly because of how these 
laws sometimes fail to fit into the preexisting legal/planning 
framework. In these and other cases the USFS is forced to walk a 
statutory minefield with legal grenades thrown from all directions. One 
way or another, the agency gets sued for either complying with existing 
environmental laws or for ostensibly subordinating the new place-based 
one. A quick study of these cases informs us that the answer to forest 
management might not be another law placed on top of myriad others but 
rather an untangling or clarification of the existing legal 
framework.''
  s.1470 undermines nepa, jeopardizes safeguards provided public lands
    S.1470 undermines the National Environmental Policy Act (NEPA) by 
imposing an unrealistic and arbitrary 12-month NEPA timeline that would 
preclude the Forest Service from accurately assessing environmental 
impacts of road building, logging, habitat loss, water degradation, 
weed infestation, and other costs of developing public wildlands. 
S.1470 also adds new provisions to appeal regulations that place 
additional requirements on appellants that will limit most citizens' 
ability to participate in the planning process.
    S.1470 mandates unsustainable logging quotas regardless of 
environmental costs, thereby jeopardizing safeguards provided public 
lands by the Clean Water Act, Endangered Species Act, National Forest 
Management Act, Wilderness Act, and Federal Land Policy and Management 
Act. Furthermore, S.1470 disenfranchises public lands stakeholders, by 
overriding legitimate science-based forest planning that involves full 
public information and participation. It deprives the public of our 
rights to be included in irreversible decisions concerning our own 
land. For example, if S.1470 passes, a Billings, Montana resident who 
wanted to appeal a timber sale over concerns with mandated logging in 
prime grizzly bear habitat on the Kootenai National Forest would be 
required to drive 500 miles (one way) to voice his/her concerns. Public 
lands are not merely local fiefdoms to be managed solely for 
extraction-oriented industries. The public at large must be included in 
decision-making concerning its own land.
    The language contained within S.1470 also raises serious questions 
regarding judicial review. For example, could citizens challenge the 
adequacy of an EIS under the mandated 12-month NEPA timeline contained 
in S.1470? And even if a court finds the NEPA analysis to be inadequate 
could the court affect the project in any substantive way?
    Even Dr. Nie questions whether S.1470 complies with NEPA. In his 
article sited above, Dr. Nie wrote, ``Complying with the National 
Environmental Protection Act is one big unanswered question in the 
FJRA. The bill requires the USFS to satisfy its NEPA duties within one 
year. But without additional support it's hard to fathom the agency 
meeting this deadline, given that it takes the USFS about three years 
to complete an EIS. When it comes to meeting NEPA obligations, the USFS 
needs more funding, leadership, and institutional support, not more 
law.''
    Finally, over the course of preparing for this testimony, I've had 
the unique opportunity to speak directly with Forest Service managers 
who would be directly affected by S.1470. While these Forest Service 
managers might not speak out publically, I can assure you that based on 
my conversations, there is widespread concern within the Forest Service 
that S.1470 undermines NEPA and the Forest Service's ability to 
professionally manage our public lands.
    by the numbers: mandated logging in s.1470 vs. historic logging
    What follows is some information compiled from U.S. Forest Service 
records regarding historical logging on the Beaverhead Deerlodge 
National Forest (Source: http://www.fs.fed.us/r1/forest_range/
timber_reports/silviculture_reports/2008_nharv_rpt.pdf). The info will 
clearly demonstrate how S.1470, which would Congressionally mandate a 
minimum of 7,000 acres of logging per year for ten years on the 
Beaverhead Deerlodge National Forest, would compare with historical 
logging on this same forest. (Note: prior to their merger in 1996, the 
Beaverhead and the Deerlodge were separate forests).
    From 1959-1996 the Beaverhead NF averaged 1621 acres of logging per 
year. The greatest acreage logged on the Beaverhead NF in that time 
period was 4168 acres in 1987.
    From 1954-1996 the Deerlodge NF averaged 1592 acres of logging per 
year. The greatest acreage logged on the Deerlodge NF in that time 
period was 4332 acres in 1971.
    The average acres logged per year for the Beaverhead and Deerlodge 
forests combined from 1954-1996 was 3213 acres/year.
    The most acreage ever logged in a single year since 1954 on both 
forests combined was in 1971, when 7013 acres were logged. The next 
highest total was in 1966 at 5813 acres. These years were also prior to 
our nation having environmental laws such as the National Environmental 
Policy Act and the National Forest Management Act. Remember, S.1470 
would Congressionally mandate a minimum of 7,000 acres of logging per 
year for ten years on the BHDL NF. That amount of logging per year is 
not only more than double the historical average on these forests, but 
it's the most amount of logging ever, except for one single year.
    Dr. Thomas Michael Power, former chair of the Economics Department 
at the University of Montana, where he currently serves as a Research 
Professor, looked into this very issue for recent commentary on Montana 
Public Radio (http://www.mtpr.net/commentaries/753) and had this to 
say:
    ''Between 1967 and 1989, when the Forest Service was still largely 
unhindered by environmental concerns and harvested record numbers of 
trees, the average acreage harvested on the Beaverhead-Deerlodge 
National Forest was about 4,000 acres. The Tester bill would seek to 
force a harvest level two-thirds higher than that previous unfettered 
average harvest level.''
    unfunded mandates, stewardship contracting and how will s.1470 
                              be paid for?
    According to recent estimates, it costs U.S. taxpayers at least 
$1,400 per acre to log in the Beaverhead-Deerlodge National Forest. 
S.1470 fails to address at least $100 million in costs to U.S. 
taxpayers that would be incurred by the Forest Service for subsidizing 
``below-cost'' timber sales and power plants for the few specially-
privileged timber corporations involved.
    One major concern with S.1470 is the notion from supporters that 
money generated from ``stewardship contracting'' timber sales will pay 
for the significant amount of needed restoration work. The Committee 
should understanding that over the past decade, this strategy has 
largely failed to pay for much restoration work in the northern 
Rockies, even when lumber demand and lumber prices were high.
    For example, on January 2, 2009 the Missoulian ran an article in 
which the Forest Service acknowledged that much of the $100 million 
worth of ``shovel ready'' projects in Montana and Idaho involve 
``cleaning up streambeds, obliterating roads, reclaiming abandoned 
mines, noxious weed control and other cleanup work left unfinished from 
previous [stewardship contracting] timber operations.''
    That's right, the logging part of these ``stewardship contracting'' 
timber sales got finished, but tens of millions in restoration work 
remained unfunded. And again, keep in mind that all this ``work left 
unfinished from previous timber operations'' was building up when 
lumber demand and lumber prices were at their peak. Now that lumber 
demand is down 55% and lumber prices are near historic lows, just how 
will ``stewardship contracting'' pay for all restoration work promised 
by supporters of S.1470?
    Again, Dr. Nie delves into this issue quite deeply in his article 
referenced above:

          The FJRA would be primarily implemented and paid for by using 
        stewardship contracting. This tool's popularity stems partially 
        from the highly uncertain congressional appropriations process, 
        a process that chronically underfunds the USFS and its non-fire 
        related responsibilities and needed restoration work. But on 
        the Beaverhead-Deerlodge, there are serious questions as to 
        whether there is enough economic value in this lodgepole pine-
        dominant forest to pay for the restoration work. As a safety 
        valve, the FJRA authorizes spending additional money to meet 
        its purposes, but there is no guarantee that such funds will be 
        appropriated, or if so, they wouldn't come from another part of 
        the agency's budget.
          The question, then, is what happens if such envisioned funds 
        don't materialize? Will money be siphoned from other national 
        forests in order to satisfy the mandates of the FJRA? Consider, 
        for example, the White Mountain stewardship project in Arizona. 
        The Government Accountability Office (GAO) found that this 
        project incurred greater costs than expected and such costs 
        have ``taken a substantial toll on the forest's other 
        programs.'' Furthermore, some other fuel-reduction projects 
        were not completed because their funding sources were being 
        ``monopolized'' by the White Mountain project. Other national 
        forests in the region also paid a price to service the terms of 
        this contract, and ``[a]s the region has redirected funds 
        toward the White Mountain project, these other forests have 
        become resentful of the disproportionate amount of funding the 
        project has received.
          The place-based law approach could move the national forests 
        closer to a Park Service model, where state congressional 
        delegations sometimes treat parks like their own fiefdoms, 
        exercising inordinate control over a unit via committee and 
        purse strings. And at the risk of getting ahead of myself, the 
        approach brings to the fore other budget-related questions. 
        Will senior congressional delegations be more successful in 
        securing funding for place-based laws in their states? Will it 
        create a system of ``haves'' and ``have nots'' in the national 
        forest system? And perhaps most important, would these 
        budgetary situations benefit the national forest system as-a-
        whole?
                  we're in a wood products depression
    I don't have to remind anyone on this Committee of the serious 
nature of the economic crisis currently gripping this country. Decades 
and decades of over-consumption and over-development have finally taken 
their toll, leaving our economy bruised and battered. If the sobering 
economic headlines of the past few years teach us one thing it should 
be that much of our current economic system is significantly flawed and 
that a new economic model--based on the principles of sustainability--
is desperately needed.
    The timber industry has been hit particularly hard by this economic 
crisis. After all, America is experiencing the worst housing slump 
since the Great Depression and the steepest decline in lumber 
consumption ever. Here are some sobering numbers from the Western Wood 
Products Association (WWPA) for the Committee to consider:
    Lumber consumption in America has dropped over 55% since 2005. 
Housing starts in America are currently down 70% from the peak in 2005. 
The last time housing starts in America were so low was 1942 to 1945, 
during the middle of WWII, when most of America's resources and labor-
power were directed at the war effort.
    According to a presentation WWPA gave at the 2009 annual meeting of 
Oregon's industrial forest landowners, currently, there is an inventory 
of unsold homes nationally equivalent to a 7.6 months supply. 
Furthermore, total foreclosures for 2009 are expected to top 1 million, 
pushing the pre-occupied home supply out even further.
    While some forecasters are calling for some sort of a housing 
``rebound,'' starting in 2012, it's important to understanding that 
their predictions for 1 million house starts per month by 2012 will 
still be just 50% of the 2 million house starts per month we saw at the 
peak in 2005. This is another indication that a recovering economy is 
not necessarily a strong economy and that U.S. lumber consumption will 
remain depressed for years to come.
    Given all these profound economic realities one really must 
question the wisdom of Congress stepping in to mandate logging when 
lumber demand and housing starts look to remain near historically low 
levels for years to come.
       wilderness, wilderness study areas and roadless wildlands
    S.1470 specifically eliminates from mandated protection large 
portions of the late Montana Senator Lee Metcalf's wildlands legacy, 
Congressionally designated as Wilderness Study Areas in 1977 by his 
farsighted bill, S. 393. By eliminating this protection, the S.1470 
opens these priceless public wildlands for road building, logging, and 
other development.
    S.1470 promotes numerous abuses that are clearly in violation of 
the 1964 Wilderness Act, including motorized access into and through 
``wilderness,'' military aircraft landings in ``wilderness,'' possible 
``wilderness'' logging, and other intrusions that violate the 
principles of Wilderness.
    This bill undermines the overwhelmingly popular Clinton Roadless 
Rule and Obama Roadless Initiative. Of the 17,429 Montanans who 
commented on the 2001 Roadless Rule, 78% were in favor of backcountry 
protection. Unfortunately, over one million acres of federally-
inventoried roadless wildlands protected under the Roadless Rule and 
the Roadless Initiative would be classified in S.1470 as ``Timber 
Suitable or Open to Harvest.''
                               conclusion
    Thank you again for the opportunity to provide testimony on S.1470. 
Our coalition believes that, despite the best intentions of Senator 
Tester, this bill represents a serious threat to America's public lands 
legacy. The mandated logging provisions within the bill are 
unprecedented and the very notion that the U.S. Congress should 
legislate logging levels on a national forest is antithetical to the 
National Forest Management Act and current national forest planning. 
S.1470 undermines the National Environmental Policy Act by imposing an 
unrealistic and arbitrary 12-month NEPA timeline, which would preclude 
the Forest Service from accurately assessing environmental impacts of 
the mandated logging. For these, and the other numerous reasons 
presented in this testimony and our analysis in great detail, we ask 
that you oppose S.1470. I look forward to answering any questions that 
you may have and thank you for the opportunity to testify at this 
important hearing.

    Senator Wyden. Thank you very much.
    Mr. Baker.

STATEMENT OF TIM BAKER, LEGISLATIVE CAMPAIGN DIRECTOR, MONTANA 
                     WILDERNESS ASSOCIATION

    Mr. Baker. Mr. Chairman, members of the subcommittee, my 
name is Tim Baker. I am the legislative campaign director for 
the Montana Wilderness Association, and I am here to testify in 
support of S. 1470, the Forest Jobs and Recreation Act.
    First, I want to thank Senators Tester and Baucus for their 
leadership and their vision, and I want to thank the 
subcommittee for this hearing.
    The Montana Wilderness Association was founded 51 years ago 
by Montana hunters, conservationists, and small business owners 
to conserve Montana's wildlands and wilderness heritage. Today, 
we have 5,000 members, most of whom live in Montana, who remain 
dedicated to this task.
    S. 1470 is a story. It is a story of Montanans who have 
come together to roll up their sleeves and to challenge each 
other to listen to one another. It is a story about building 
trust, and it is a story about having faith, relentless faith 
in the best part of ourselves.
    For over 25 years, we have fought each other over forest 
management with no winners. The last time we designated new 
wilderness in Montana, we used IBM typewriters. Blackberries 
were for pies, and nobody had ever heard of climate change. A 
lot has changed since then, and changing times demand that all 
of us look differently to the future.
    Montana is changing dramatically. Our world-class fisheries 
are sliding downward. Our forests are turning red on a scale 
never seen. Our small timber mills and rural economies are 
struggling, and more and more people place more and more 
pressure on our public lands. Clearly, we all need to look at 
our issues through a new lens.
    We can't turn back the clock, but the changes that we see 
and the current and future impacts of those changes on the 
place that we love has reshuffled the deck to the point to 
where we now can come together with a common vision.
    S. 1470 captures that vision. It is a vision of robust 
working forests, improved fish and wildlife habitat, 
recreational opportunity, healthy local and rural economies, 
and permanent protection for our most beloved wild places.
    If we want collaboration to happen, then everyone has to 
take some risk, leaving a little of their ideology behind. That 
means everyone, not just conservationists, not just the timber 
industry, not just local elected leaders, but also the agency, 
the administration, this subcommittee, and the Congress.
    There is a lot of talk in Washington about working together 
to solve big problems. Many of those folks that are in this 
hearing room today, we are doing it, and now we need you to 
join us. We checked our ideologies and we have tempered our 
fear, and we need you to do the same.
    Our timber partners are survivors. While other mills have 
disappeared, they have stayed in the game, and they are leaders 
in their industry. They know that the very type of restoration 
work that we are focused on in this bill is part of their 
future. There is an important role for their work on public 
lands.
    We conservationists love to talk about a restoration 
economy. This is how we step onto that path. S. 1470 offers a 
new and badly needed context for forest management. It forces 
us to a big view, to look at the forest as a whole, with enough 
room to meet many needs--wilderness for the wild back country, 
recreation areas, stewardship areas for management, logs for 
the mills.
    As if that is not enough, there is something bigger going 
on here. As just one example, I can't count the miles or the 
evenings that I have spent with Sherm Anderson going to public 
meetings to defend the work that we are doing together. We have 
often had to defend each other and to defend each other's 
perspective, and we are better off for it.
    Others are here today in this room for Montana who could 
tell similar stories. You know, when my dad moved to Montana in 
the late 1970s, I asked him why. He didn't hesitate. He said, 
``Montana is a place where an agreement can still rest on a 
handshake.'' That said a lot to me then, and it means a lot to 
me now.
    Our partnership and the partnerships that are represented 
by S. 1470 rest upon a handshake. The timber partners are more 
than my partners. They are our friends. We care about them. We 
care about the future of their mills and about the communities 
that they support. It is that simple.
    We all see change in front of us, and change can either 
lead us in a bad direction or in a good direction. I would like 
to think that in our part of the country, we can still sit 
down, neighbor to neighbor, put the past behind us, and find 
solutions. S. 1470 tells me that that is so.
    Thank you.
    [The prepared statement of Mr. Baker follows:]
Prepared Statement of Tim Baker, Legislative Campaign Director, Montana 
                         Wilderness Association
    1Thank you for the opportunity to submit this written testimony in 
support of S. 1470, the Forest Jobs and Recreation Act of 2009. At the 
outset, I want to thank Chairman Wyden and this Subcommittee for 
considering this important piece of legislation. I also want to express 
my deep gratitude to Senators Tester and Baucus for their sponsorship 
and active support of S. 1470.
                about the montana wilderness association
    The mission of the Montana Wilderness Association (MWA) is to 
protect Montana's wilderness heritage, quiet beauty, and outdoor 
traditions, now and for future generations.
    The Montana Wilderness Association was founded 51 years ago by 
Montana hunters, conservationists and small business owners to prevent 
further loss of Montana's wilderness heritage. Our founders were 
instrumental in the passage of the Wilderness Act of 1964, and MWA 
subsequently led the fight to win designation for virtually every 
wilderness area in the state, including the Scapegoat, Absaroka-
Beartooth, Rattlesnake, Lee Metcalf, Great Bear, and Welcome Creek, as 
well as Wild and Scenic designations for the Flathead and Missouri 
rivers.
    Today, MWA has over 5,000 members. Our members view Montana's 
remaining wild country as a public trust that should be managed so 
Montanans will always have access to great hunting, fishing, camping 
under the stars, and quiet mountain trails.
    For the reasons described below, we strongly support this visionary 
legislation:
                   wilderness designation and montana
    Everything we love about Montana is tied together by its natural 
heritage. Whether it's the musky scent of elk and thunder of hooves 
under the trees, or the plaintive song of a hermit thrush on a summer 
evening, Montanans are closely tied to the land. The opening words of 
our Montana Constitution, adopted in 1972, reflect this deep 
relationship:

          We the people of Montana, grateful to God for the quiet 
        beauty of our state, the grandeur of our mountains, the 
        vastness of the rolling plains  . . .

    Wilderness embodies core American values of freedom, self-reliance, 
and community. Wilderness designation keeps our wildest places intact 
for our families and communities. It's a commitment that doesn't 
dissolve with market trends or administrations--one that we can pass on 
to our kids and grandkids. Over the years, we've learned that without 
this commitment, these wild places will vanish.
    Thanks to the strong leadership of Montana Senator Lee Metcalf, 
many wild places received permanent protection, up to the time of 
Metcalf's death in 1978. In 1983, the Montana Congressional Delegation 
came together in bipartisan fashion to honor Metcalf's legacy, 
protecting over 250,000 acres as the Lee Metcalf Wilderness complex.
    Yet it has now been 26 years since Congress designated new 
wilderness in Montana. Montana today remains one of only two western 
states that did not pass a statewide wilderness bill in the 1980s and 
1990s (Idaho is the other). Worse, Montana is the only state to have a 
wilderness bill vetoed, in 1988, when President Reagan pocket vetoed a 
statewide bill after Congress had adjourned. Consequently, there are 
many wild places on public land that should have been designated as 
wilderness many years ago, but remain unprotected today.
    Subsequent to 1988, several laudable efforts were made by the 
Montana Delegation to fashion a statewide wilderness bill, but the 
issue had become too contentious to resolve. The fallout from the 
presidential veto was incredibly bitter and divisive. At the same time, 
the bigger issue of national forest management in Montana became the 
new battleground. As deserving wild country remained unprotected, with 
some areas lost forever to roads, motors and indifference, the state's 
timber industry faced a steep decline driven by a host of factors, one 
of which included supply.
                          toward a new future
    A few years ago I stopped by the Montana Stockgrowers meeting. They 
had a big poster that said ``Keeping Montana Montana.'' I thought to 
myself, I'm all for that, too. We might have different ideas about what 
that means, but I'll bet we have more in common than not.
    Montanans have always relied on each other. So we still stop on the 
road to help a stranded motorist. We shovel the snow off our neighbor's 
sidewalk. We stop and talk with strangers at the coffee shop. We pay 
attention to a handshake.
    That's the Montana that brought my father here, and then brought me 
here over 28 years ago. That's the Montana that keeps me here today.
    It's because of the land and the landscape. We're all affected by 
it, even if in different ways. The country is so big and awe-inspiring, 
it makes you humble. It can be so unforgiving that we know we had 
better stick together.
    But like much of the intermountain West, Montana is changing, and 
those changes affect all of us. As our valleys fill up with strip malls 
and traffic, and open space becomes scarcer, our wildest public lands 
only become more valuable to us--for wildlife, water quality, 
recreation, and refuge. In the future there is only one certainty: more 
people and more pressure on our public lands. At the same time, our 
public forests are facing unprecedented challenges from a changing 
climate that is threatening our world-class fisheries and wildlife, and 
dramatically increasing the risks associated with wildfire.
    Our economy is changing, too, with difficult circumstances for many 
folks, including those in the timber industry and rural Montana. The 
small mills in Montana are struggling and so are the rural communities 
that depend on them--places like Deer Lodge, Seeley Lake, and Townsend. 
We'll need these mills in the future to do restoration work, especially 
to protect our fisheries and wildlife habitat. But beyond that, we care 
about these people and these rural communities--these are our neighbors 
and our friends.
    These are trying times. So once again, Montanans need to rely on 
each other.
    If there were just one forest collaborative effort in Montana, one 
could easily dismiss it as an isolated occurrence, driven by a single 
personality or set of unique conditions. However, S. 1470 encompasses 
three such collaborations, in different parts of the state, with many 
diverse interests and players. Recent polling shows public support in 
Montana for S. 1470 well over 65 percent. Montanans know we all need to 
work together to tackle these big problems.
    All three of these collaborations have one overriding objective: 
they seek to create a positive, productive, and predictable environment 
in which the Forest Service can accomplish those important things that 
we all want for our national forests: robust working forests, improved 
fish and wildlife habitat, enhanced recreational opportunities, reduced 
fire risk to communities, healthy local economies, and permanent 
protection of Montana's most beloved wild places.
    The Forest Service shares these objectives, as found in Region 
One's own Integrated Restoration Management Strategy. Our hope is that 
S. 1470 can provide the agency with the tools it needs to meet these 
critical objectives. We all want the agency to succeed.
    S. 1470 is a step toward that new future, where diverse interests 
come together around a common vision for our national forests. To that 
end, S. 1470 faithfully embraces the following three collaborations 
that have sprouted in Montana:
              the beaverhead-deerlodge forest partnership
    The founding members of the Beaverhead-Deerlodge Forest Partnership 
include five wood products companies and three conservation groups (Sun 
Mountain Lumber, Pyramid Mountain Lumber, R-Y Timber, Roseburg Forest 
Products, Smurfit-Stone Container, National Wildlife Federation, 
Montana Trout Unlimited, Montana Wilderness Association).
    The group came together in 2006 during the forest planning process 
on the Beaverhead-Deerlodge National Forest. After four months of 
intense discussions over the draft forest plan, the group drafted a 
proposed strategy for the agency to consider during the planning 
process, which was centered on three primary objectives:
    First, wilderness designation for the most pristine public lands on 
the forest, for future generations to enjoy.
    Second, a timber base on the forest that ensured a predictable and 
adequate supply of logs for Montana's independent mills, providing 
valuable jobs for Montanans and Montana communities.
    Third, a focus on getting restoration work done on the forest, 
using stewardship contracts to improve fish and wildlife habitat and 
recreational opportunities.
    After releasing the draft Partnership strategy to the public in 
April 2006, the Beaverhead Partners immediately set out to meet with 
the public and interested groups to explain the strategy and listen to 
input. Since then, the Partners have worked together to meet with 
thousands of Montanans, attending hundreds of meetings and other forums 
that range from public meetings with the Forest Service, Rotary and 
Chamber luncheons, County Commission meetings, and county fairs to 
smaller gatherings with grazers, sportsmen, motorized users, and 
environmental groups. We worked actively with cycling clubs, 
backcountry horsemen, other conservation groups, motorized users, and 
many others, to make changes to the proposal.
    In soliciting input and being open to changes to the draft 
strategy, the Partnership was also building public support, and asking 
those providing input to ``come join us.'' Productive meetings with 
folks who shared our spirit of cooperation resulted in many changes to 
the proposal, or the conclusion that no changes were necessary.
    Naturally, not all of the outreach efforts were successful. Some 
groups had little or no interest in discussing a real resolution of 
differences. Others, like the Beaverhead County Commissioners, engaged 
in discussion but then refused to respond when specific and significant 
offers were made to address their concerns.
    But the work of the Partners garnered the praise of statewide 
elected officials from both parties--not to mention the praise of seven 
other county commissions, and groups as diverse as the Montana Wildlife 
Federation, Rocky Mountain Elk Foundation, and the Montana Logging 
Association.
    The final Forest Plan for the Beaverhead-Deerlodge National Forest 
moved significantly in the direction of the Partnership strategy, but 
fell short of providing the type of predictability that was the 
linchpin for the Partnership strategy. Since the Forest Plan, in 
general terms, is primarily a planning document and not an action 
decision, this is understandable. S. 1470 picks up where the final 
Forest Plan leaves off, and creates a framework for implementation that 
is largely consistent with the Forest Plan and provides the Forest 
Service with the tools necessary to achieve the Plan's objectives.
                       the three rivers challenge
    The Three Rivers Challenge draws together wilderness advocates, 
snowmobile and ATVriders, outfitters, economic boosters, and local 
loggers and mills. Members include the Yaak Valley Forest Council, 
Kootenai Ridge Riders ATV Club, Troy Snowmobile Club, Libby Snow-Kats, 
Linehan Outfitting, and Chapel Cedar Works. These diverse folks put 
differences aside and tried to find paths to move both the Forest 
Service and the community ahead.
    Historically, debates over the Kootenai National Forest have been 
high-octane brawls, leaving resentment, anger, frustration and loss in 
the wreckage. But this new plan--supported by an unlikely mix of timber 
workers, ATV and snowmobile enthusiasts, and conservationists--aims to 
break the gridlock and end the trench warfare that has served no one. 
It would:

  <bullet> Create jobs in the woods, by light-on-the-land logging that 
        leaves the forest healthier and protects communities from 
        wildfire.
  <bullet> Preserve recreational access via routes for folks who enjoy 
        snowmobiles and ATVs.
  <bullet> Protect special areas, for example, protecting Roderick 
        Mountain as a wilderness area.

    Northwestern Montana is the most productive forest land in the 
Rockies, yet mill after mill has shut down over the last decade. Those 
mills supported families and small businesses. Likewise, local 
conservationists, who would like to protect special places, are 
frustrated, as no new wilderness areas have been created on the 
Kootenai since 1964. Meanwhile, Lincoln County has been ``discovered,'' 
and property values have rocketed. Some of the richest wildlife habitat 
is lost to subdivisions, and favorite hunting spots and fishing streams 
are blocked behind ``no trespassing'' signs. Yet amid all this turmoil, 
there is progress and hope.
    The Three Rivers Challenge, in various forms, has worked tirelessly 
for over eight years to bring a common vision together. The group has 
engaged the local community at every turn, neighbor to neighbor, to 
bring this proposal forward.
    The efforts of the Three Rivers Challenge are strongly supported by 
a wide array of folks, including statewide elected officials, regional 
and national conservationists, motorized recreation groups, local 
businesses, and mill owners and workers.
              the blackfoot-clearwater stewardship project
    After years of extensive dialogue, a diverse group of 
conservationists, loggers, snowmobilers, outfitters, and local 
landowners crafted a pioneering vision for the upper Blackfoot Valley. 
Key working partners include The Wilderness Society, members of the 
Blackfoot Challenge, Pyramid Mountain Lumber, Clearwater Resource 
Council, local outfitters and ranchers, retired Forest Service 
officials, and the Montana Wilderness Association.
    The Blackfoot-Clearwater Stewardship Project uses a landscape-level 
focus to simultaneously restore and protect the integrity of the 
landscape, and stimulate and diversify the rural economies of 
communities located within it.
    Residents within the Blackfoot and Seeley Swan valleys have a long 
history of working together. This ``culture of cooperation'' has 
created a climate where timber workers and ranchers can sit down with 
conservation organizations as well as state and federal agencies, to 
collectively figure out solutions that are appropriate for both the 
local residents and the integrity of the landscape they live in. The 
Project includes three balanced components:

  <bullet> A reliance on stewardship contracting to implement landscape 
        stewardship planning, restoration and monitoring.
  <bullet> Biomass utilization at Pyramid Mountain Lumber to provide an 
        outlet for excess forest fuels.
  <bullet> Wilderness designation within the Blackfoot and Clearwater 
        watersheds while expanding important snowmobile trail linkages.

    An economic analysis in 2008 shows the Project would provide a 
variety of direct benefits annually to local communities and 
businesses, including 35 to 52 new jobs, increased small business 
income, and at least $1.19 million in new wages--while continuing long-
term benefits to the region from healthier lands, cleaner water, better 
habitat, and continuing or improved recreation.
    After extensive outreach across the region, this local effort has 
received a wide cross section of support from local governments, 
individuals, and organizations, including three county commissions, 
Seeley Lake Community Council, Backcountry Horsemen, Seeley Lake Rural 
Fire District, Ovando Snowmobile Club, and the Seeley Lake Driftrider 
Snowmobile Club.
                    the wilderness areas in the bill
    The Montana Wilderness Association strongly supports S.1470.
    Montana's most pristine places are where we go to hike, ski, hunt, 
fish, and picnic. These lands hold our families together and are the 
roots for our most lasting friendships. Protecting these unique places 
for future generations is part of our shared values, both as a state 
and as a nation. Our bounty of wild public lands anchors our past, 
present, and future. Montana historian, K. Ross Toole, noted that in 
Montana ``wilderness is never far from the window pane.'' Wilderness 
designation represents our commitment to these values.
    S.1470 designates some of Montana's finest wild places as 
wilderness, from the lush and moist Yaak Valley in northwestern 
Montana, to the arid, wide-open sagebrush country in southwestern 
Montana. Attached is a review of those wilderness areas and many of the 
other special designations that are contained in the bill, which are 
the products of the collaborative efforts described above. MWA does 
have concerns with a few of the changes and additions that have been 
made by Senator Tester in crafting S. 1470 (noted in the attached 
narrative), but recognizes that the extensive in-state outreach by 
Senator Tester is itself part of the collaborative process.
    MWA supports this important legislation, and thanks Senator Tester 
and his staff for their hard work.
          what can we do to encourage people to work together?
    Collaboration can be very rewarding, especially as old adversaries 
begin to build trust and trade social and political differences for a 
common vision around thorny issues that have paralyzed progress by our 
federal government for many years.
    However, collaboration is also an incredibly delicate adventure. 
The pressures to abandon the course and return to the fold are intense. 
It can split whole communities, friends, even families. When MWA first 
announced the Beaverhead-Deerlodge Partnership to the public, our 
funding suffered. The day after the announcement, my Inbox was filled 
with angry emails. Although we're now well past both of those events, 
they serve as a reminder that this path we've taken is fraught with 
difficulty and risk.
    The one upside to this negativity is that it doesn't discriminate, 
everyone involved feels it. A few weeks after the announcement, I had 
lunch with Sherm Anderson, of Sun Mountain Lumber. He asked me what the 
response was within the conservation community. I replied, ``They all 
tell me that you'll get logs and we'll never get any wilderness.'' 
Sherm smiled and said, ``My guys tell me that you'll get wilderness and 
we'll never see a log.'' I think at that moment we both realized just 
how hard this would be.
    Our behavior is shaped by many factors, not the least of which is 
reward, which can take many forms. The reward can be something 
tangible, like a restored watershed or a new wilderness area. Or, it 
can be intangible, like new friendships or a stronger sense of common 
purpose or vision. Some will respond only to the tangible and not see 
value in the intangible. Some will respond to both and others won't 
care about either.
    If we truly want collaboration, then all of us who see value in it 
need to work for it. That includes the Forest Service, the 
Administration, and Congress. Too often over the last several years it 
has felt like the homage to collaboration by government is more 
grounded in talk than in action. It has felt like the path to 
collaboration is blocked by acquiescence to those too entrenched in 
ideology to see value in collaborating.
    You have before you a group of individuals who have worked 
tirelessly in pursuit of a new vision, a vision that has been 
repeatedly endorsed by the new Administration, the Forest Service, and 
Congress. Many of those people are in the hearing room. For many of 
them, failure is simply not an option. There is no other place to go.
    There is a lot of talk in Washington these days about transcending 
partisanship to find a common purpose. In our little corner of the 
world we have done exactly what the folks in Washington say they want. 
We've brought people together to find workable solutions to big 
problems. We've done a lot of hard work and, with your help, we're 
willing to do more.
    If you want collaboration like this, your path can start here.
                               conclusion
    Just as important as the details of these collaborations, or 
S.1470, are the positive working relationships and friendships that 
have developed between many Montanans who previously were at odds with 
one another. This is a real Montana success story.
    It's the story of the backcountry horseman who wants to ride the 
traditional pack and saddle trails of Monture Creek in solitude.
    It's the story of the mill worker in Deer Lodge who wants to earn a 
decent wage and live in a prosperous community with a good quality of 
life.
    It's the story of the angler on the Big Hole River who wants to 
catch trout from a healthy native population.
    It's the story of the snowmobiler in Troy who wants to ride in 
places that will still be there for her kids.
    This is a story of Montanans rolling up their sleeves and 
challenging each other to understand the other's perspective. It's 
about building trust, and putting faith in the best part of ourselves. 
No single interest will ever get everything it wants, but by working 
together we can collectively get more done for the benefit of all.
    The last time Congress designated new wilderness in Montana we used 
IBM typewriters and rotary phones, the big store was Kmart, and nobody 
had ever heard of anything called climate change. Montana has changed 
and is changing, and unless we come together to act we may all lose the 
Montana we know and love.
    Polling shows very strong public support in Montana for S. 1470. 
This isn't surprising. After all, most of us live here for the same 
reasons.
    We all get shivers when we hear an elk bugle. We all smile in 
wonder when we watch a Charlie Russell sunset paint the sky. And we all 
have a favorite small Montana town, even if we don't live there.
    As Montanans, we all love the land, even if we want to use it in 
different ways. And we all know that the way forward is together, not 
apart.
    S. 1470 is all about bringing us together.
    Thank you for the opportunity to submit this written testimony to 
support S. 1470.

    [Supplemental information has been retained in subcommittee files.]

    Senator Wyden. Thank you very much.
    Let us go to Mr. Wood.

  STATEMENT OF CHRISTOPHER A. WOOD, CHIEF OPERATING OFFICER, 
                        TROUT UNLIMITED

    Mr. Wood. Thank you, Chairman Wyden and Senator Risch.
    I appreciate the opportunity to appear before you today to 
provide my views on S. 1470, the Forest Jobs and Recreation 
Act. I am here today on behalf of Trout Unlimited and the 
National Wildlife Federation.
    TU and NWF strongly support the bill, and we commend 
Senator Tester and his staff for their extraordinary leadership 
in developing it. S. 1470 would protect as wilderness over 
670,000 acres, as well as designate 300,000 acres of special 
management units.
    By so doing, it will protect clean, cold water as well as 
essential habitats for wild and native trout, as well as some 
of the Nation's most storied rivers. The bill will also help to 
secure habitats for Canada lynx, a listed species, as well as 
wolverine, elk, and mountain goat, all species that need 
undisturbed habitats.
    In his speech in Seattle that was referenced earlier by 
Under Secretary Sherman, Secretary Tom Vilsack spoke of the 
need for a ``shared vision built on collaboration that will 
move us beyond the timber wars of the past.''
    For 2 decades, these Montana forests have been mired in a 
stalemate that fails to protect fish or restore wildlife. 
Wilderness has not been designated in the State for over 25 
years. Hundreds of impassable culverts on the forest fragment 
fish habitat. Dense networks of obsolete roads restrict elk 
security and movement and contribute heavy loads of sediment to 
streams.
    The notion of collaborative stewardship articulated by 
Secretary Vilsack is what brought together the timber 
companies, ranchers, sportsmen, motorized users, and 
environmentalists that support S. 1470. Some worry about the 
bill's requirement for mechanized treatment of 10,000 acres per 
year. None of the supporters of this bill expect or would 
support 10,000 acres of clear-cuts.
    Furthermore, the bill has no timber supply requirements or 
legislated logging levels, as has been suggested earlier today. 
Mechanical treatment implies a number of things, from 
commercial to noncommercial harvest, to thinning in areas where 
communities and forests meet. The Forest Service will define 
treatment units according to existing laws and regulations and 
the consensus of a balanced advisory committee.
    The project alternatives could range from cutting a few 
trees to cutting more. Importantly, the bill also makes clear 
that the priority will be already-roaded areas, not pristine 
roadless areas. Replacing blocked culverts and removing old 
unused roads will improve water quality and habitat for native 
trout while enhancing elk security and maintaining Montana's 
long hunting seasons.
    It is important to realize that there are at least 150,000 
acres of so-called wildland-urban interface covered by the 
bill. More than half of those are forested and could be thinned 
to protect human communities from the effects of fire. In other 
words, we could accomplish a significant percentage of the 
acreage targets in the bill simply by protecting human 
communities from the effects of fire.
    None of the supporters of S. 1470 believe that it is an 
appropriate prescription for all national forests. But given 
the paralysis, as one former chief put it, that the Forest 
Service finds itself in, we should be open to all good ideas 
that bring people together to help sustain the lands and waters 
that we all depend on.
    The Nation needs a strong Forest Service. We need its 
extraordinary knowledge and leadership to help human 
communities and fish and wildlife to adapt to the effects of a 
changing climate. We do not think S. 1470 a panacea. We do, 
however, believe it vital to help foster within the Forest 
Service the type of collaboration and negotiation that brought 
us here today.
    Rather than serve as a laxative for legislating 
collaborative, S. 1470 could have a transformative effect 
within the Forest Service. By sanctioning this effort to bring 
together diverse interests to meet the needs of the lands and 
nearby communities, Congress can send a clear message to the 
Forest Service that encourages the agency to lead, promote, or 
otherwise enable collaborative stewardship within the forest 
planning process.
    President Theodore Roosevelt once defined conservation as 
the application of common sense to common problems for the 
common good. That definition is the motivating factor behind S. 
1470. This bill is a demonstration of what can happen when 
people focus on the values that bind rather than the 
distinctions that divide.
    We urge the committee to support and pass the bill and 
appreciate the opportunity to be here today.
    [The prepared statement of Mr. Wood follows:]
  Prepared Statement of Christopher A. Wood, Chief Operating Officer, 
                            Trout Unlimited
    Chairman Wyden and members of the Subcommittee, I appreciate the 
opportunity to appear before you today to provide my views as Chief 
Operating Officer for Trout Unlimited (TU) on S. 1470, the Forest Jobs 
and Recreation Act. Prior to working for TU, I served as the senior 
policy and communications advisor to the Chief of the US Forest 
Service, and on the fish and wildlife and ecosystem management staffs 
for the Bureau of Land Management.
    Trout Unlimited (TU) is dedicated to the protection and restoration 
of our nation's trout and salmon resources and the watersheds that 
sustain them. TU has more than 135,000 members in 400 chapters across 
the United States. Our members generally are trout and salmon anglers 
who give back to the waters they love by contributing substantial 
amounts of their personal time and resources to fisheries habitat 
protection and restoration. I am offering this testimony today on 
behalf of TU and the National Wildlife Federation (NWF).
    More than 2,000 TU and 5,000 NWF members live and work in 
communities around the National Forest and BLM areas in this bill, 
including Butte, Anaconda, Deer Lodge, Sheridan, Twin Bridges, Silver 
Star, Philipsburg, West Yellowstone, Cameron, Dillon, Ennis, Bozeman, 
Missoula, Drummond, Ovando, Bonner, Whitehall, Libby and Troy. Most 
members in these areas are long-time or native Montanans and they fish, 
hunt, hike, camp, drive, snowmobile, ski, ride horses, and collect 
firewood, berries and Christmas trees from these lands. A number have 
livelihoods directly tied to these lands, working guides and 
outfitters, loggers, ranch hands, staffers in natural resource agencies 
or operators of small businesses.
    Several years ago, spurred by the recognition that National Forests 
in western Montana were not living up to their potential to support 
healthy fish and wildlife and provide jobs and recreational 
opportunities for local communities, TU and other local stakeholders 
came together to develop a shared vision for forest management. The 
resulting compromises provided the basis for an important part of S. 
1470, which would protect fish and wildlife habitat through the 
designation of more than 600,000 acres of new wilderness and more than 
300,000 acres of National Recreation Areas, restore degraded habitat 
through the removal of old roads and blocked culverts, reduce the risk 
of catastrophic wildfire through targeted fuel reduction projects, and 
create jobs for local communities through stewardship contracting. If 
implemented, the bill could yield significant benefits to fish and 
wildlife, water resources, and nearby communities.
    TU has a long record of working with farmers, ranchers, industries, 
and government agencies to protect and restore trout and salmon 
watersheds nationwide. In recent years, we have bought gas leases in 
Montana to help protect the Rocky Mountain Front, helped to establish a 
successful roadless area plan for the National Forests of Idaho, and 
helped to establish and fund historic, broadly-supported dam removal 
projects from the Penobscot River in Maine to the Klamath in California 
and Oregon. Finding solutions to vexing resource problems is a hallmark 
of what we do.
    Drawing on these cooperative experiences, we have worked to develop 
the solutions contained in S. 1470 with a diverse group of stakeholders 
in Montana. Bruce Farling, Montana TU's executive director, has led 
TU's efforts on the Beaverhead-Deerlodge, and TU volunteer Tim Linehan 
has been a leader in the Kootenai initiative. These people, and their 
coalition partners, have done courageous, outstanding work. TU strongly 
supports S. 1470, we deeply appreciate the work of Senator Tester and 
his staff for introducing it, and we urge the Subcommittee to support 
it.
    We realize that some people have concerns about some of the 
provisions of this bill. We do not claim to have all the answers and 
look forward to working with the Subcommittee, the Forest Service, the 
Obama Administration, and all others who share the goals of the bill. 
We urge others with criticisms to provide alternatives that will 
achieve the goals of the bill, namely protecting vital fish and 
wildlife habitat, restoring forests, and sustaining local communities.
    In my testimony today, I would like to focus on two major points. 
First, I will describe how S. 1470 would benefit fish, wildlife and 
local communities.
    Second, I will address some of the criticisms of this legislation, 
and explain why in spite of the challenges we face, I believe the goals 
of the legislation can be achieved.
                background on the development of s. 1470
    In an August 14, 2009 speech in Seattle, Agriculture Secretary Tom 
Vilsack stated that Americans must move away from polarization and 
``.work towards a shared vision-a vision that conserves our forests and 
the vital resources important to our survival while wisely respecting 
the need for a forest economy that creates jobs and vibrant rural 
communities.'' Through a collaborative grassroots effort dating back 
more than four years, a broad range of partners has done just that, and 
the resulting vision has provided the basis for the legislation 
introduced by Senator Tester.
    Prior to this collaborative process the forests were mired in 
stalemate that failed to protect and restore fish and wildlife. The 
state of Montana has not designated a new wilderness in 25 years, 
despite the broad recognition of the need to protect quality fish and 
wildlife habitat and public support to do so. There are hundreds of 
impassible culverts on the forests that fragment trout habitat. Dense 
networks of obsolete roads restrict elk security and movement 
contribute heavy loads of sediment to streams.
    Due in part to these impacts, native salmonids, some of which are 
listed or candidates for listing under the Endangered Species act, 
occupy but a fraction of their historic range. Decades of fire 
suppression has produced homogenous even-aged stands of forests, which 
along with climate change and the pine bark beetle infestation increase 
the risk of unnaturally intense fire. The Forest Jobs and Recreation 
Act will enable the Forest Service to address these long-neglected 
needs.
    The Forest Jobs and Recreation Act results from three grassroots 
efforts in which TU in Montana was a principal in two efforts (B-D and 
Three Rivers) and a supporter in the third (Blackfoot-Clearwater). The 
bill is Montana-made and it has generated popular and unprecedented 
consensus among many Montanans of different stripes that validates the 
notion that collaboration is vital to developing long-term popular 
support of public lands management.
  the fish and wildlife benefits of the forest jobs and recreation act
    Now more than ever, as changes in climate increase the challenges 
faced by forest managers and ecosystems, it is imperative that national 
forests are managed in ways that promote resiliency. At its heart, S. 
1470 is a climate change adaptation strategy. By federally protecting 
the highest quality landscapes and then reconnecting them to adjacent 
areas through watershed restoration, S. 1470 will help to maintain 
abundant fish and wildlife populations while providing multiple 
benefits to human communities through good paying jobs. As we recently 
stated before this committee, this can be done through the following 
actions:

          1. Protect the highest quality lands and waters.

          The Forest Jobs and Recreation Act would protect as federal 
        wilderness more than 670,000 acres of undeveloped country in 25 
        areas, as well as create over 300,000 acres of special 
        management and national recreation areas. By doing so, it will 
        protect crucial sources of clean, cold water as well as 
        essential habitats for wild and native trout in the headwaters 
        of some of the nation's most storied trout waters, including 
        Rock Creek and the Madison, Beaverhead, Ruby, Jefferson, Big 
        Blackfoot, Clark Fork and Kootenai rivers. Protection of 
        wilderness and special management areas in the bill will also 
        help secure habitats for Canadian lynx, a listed species, as 
        well as wolverines and mountain goats--all species that 
        research tells need undisturbed habitats. Finally, it will 
        provide vital habitats for elk security.
          The protection of high quality habitat, along with the 
        reconnection and restoration projects described below, will 
        help secure populations of one ESA listed fish species, Bull 
        trout, and three additional fish species that are candidates 
        for listing: westslope cutthroat trout, arctic grayling, and 
        interior redband trout. All of these species now inhabit but a 
        tiny fraction of their historical ranges on the lands in the 
        bill. The wilderness and special area designations serve as 
        critical sources for fish that are necessary for re-populating 
        restored habitats downstream.

          2. Reconnect landscapes so that fish and wildlife can survive 
        habitat disturbances.

          Restoration projects will be focused on areas of high road 
        density. Obsolete road networks in Montana forests cause 
        habitat fragmentation that prevents fish and wildlife from 
        dispersing to intact habitats when faced with disturbances such 
        as fire, drought or intense storms. The Forest Jobs and 
        Recreation Act would address the problems caused by these road 
        networks by (1) prohibiting the construction of new, permanent 
        roads; and (2) requiring that road densities be reduced (in the 
        Beaverhead-Deerlodge National Forest, when completing a project 
        done pursuant to the FJRA, road densities must be reduced to 
        averages no more than one linear mile per square mile). The 
        scientifically based standard recommended by the Montana 
        Department of Fish, Wildlife and Parks for elk security is one 
        mile per 1.5 square mile, which is the minimum needed to 
        provide enough security for elk so that Montana can maintain 
        its annual 5-week general big game hunting season. The 
        Beaverhead-Deerlodge National Forest and the Seeley Lake Ranger 
        District include some of the most productive lands anywhere in 
        Montana for large, trophy elk. The road standards in the Forest 
        Jobs and Recreation Act will also protect high quality habitat 
        and improve wildlife security for a host of popular game and 
        non-game species, including elk, mule deer, black and grizzly 
        bears and mountain goats.
          The road standards will also greatly benefit fish by reducing 
        erosion-prone road surfaces and road crossing structures such 
        as culverts that are currently harming habitat and impeding 
        movement of fish into and out of important habitats. Agency 
        surveys indicate, for example, that at least 240 road culverts 
        on the Beaverhead-Deerlodge National Forest are currently 
        complete or partial barriers to fish movement, and the 
        frequency of road crossing barriers on the Seeley-Lake and 
        Three Rivers Districts are even more severe. The result is 
        reduced habitat availability for species such as Bull trout and 
        cutthroat trout. The restoration projects called for in this 
        legislation will improve habitat connectivity by removing roads 
        and replacing or removing blocked culverts.

          3. Engage communities in restoration

          The FJRA directs the Forest Service to use stewardship 
        contracting to meet vegetation management goals, which ensures 
        that the value of trees removed is invested back onto the same 
        landscape in habitat restoration, elimination of pollution 
        sources, protection of key habitats from livestock, suppression 
        of weeds on winter ranges, as well as improvement of 
        recreational features, such as trails used by hunters, anglers 
        and other recreationists.
          By focusing stewardship projects on previously developed 
        landscapes with high densities of roads, the Forest Jobs and 
        Recreation Act will help address impairments on landscapes that 
        are prone to unnatural rates of erosion, and related effects 
        such as exotic weed invasion, after fires. When large fires 
        sweep through developed landscapes such as those on the 
        Beaverhead-Deerlodge National Forest or the Three Rivers Ranger 
        District, they significantly increase the risk of erosion from 
        road systems after snowmelt or severe rainstorms, and 
        subsequent colonization by exotic weeds. Similarly, post-fire 
        storms can block road culverts with debris and mud, causing 
        these structures to fail and resulting in channel scouring and 
        large amounts of sediment entering into trout streams. Fire is 
        a natural part of these forest systems. In fact, on undeveloped 
        landscapes it can play a beneficial role, one that fish and 
        wildlife have adapted to for eons. On densely roaded forests, 
        the effects of fire can cause intense erosion, water quality 
        degradation, and extirpation of local populations of fish and 
        wildlife-not to mention the risk to nearby human communities.
           challenges to meeting the goals of the legislation
    Montana has long been ground-zero in the ``timber wars.'' It was 
there that the deleterious effects of roading and clear cutting 
practices on the Bitterroot National Forest were brought to national 
attention through the Bolle Report, a report whose findings helped to 
bring about the National Forest Management Act of 1976 (NFMA). NFMA 
mandated a detailed forest planning process that resulted in a 
recommitment by the Forest Service to the concept of multiple-use. 
Today, however, few would argue that the NFMA planning process as 
currently implemented is proving effective at unleashing the 
extraordinary talent and skill of Forest Service employees to help 
combat the effects of climate change on natural resources, fish and 
wildlife, and human communities.
    In fire-adapted ecosystems that have missed fire return intervals, 
we do not have the luxury of hitting a reset button. Fire must be 
reintroduced to these systems, but it must be done so safely. In many 
cases, we will require the services and skills of timber companies to 
thin areas before we can safely reintroduce fires. In other areas, we 
need them to thin around communities along the forest's edge to help 
make them safer from the predicted increases in fire associated with 
climate change. No-one is talking about cutting old growth or entering 
pristine roadless areas. This bill is about land health and community 
safety and well-being. Given the State's role in the history of the 
Forest Service, it is fitting that a diverse array of stakeholders have 
come together in Montana to provide an alternative path for managing 
public lands in the face of a changing climate.
    None of the supporters of S. 1470 believe it an appropriate 
prescription for all of the National Forest System, but given the 
``paralysis'' as one former Chief put it, that the Forest Service finds 
itself mired in, we should be open to all good new ideas that help to 
bring people together for the betterment of the lands and waters that 
sustain us all.
    The collaborative process undertaken by a broad range of partners 
has brought about a shared vision for forest management that can 
protect critical fish and wildlife habitat, maintain and enhance 
recreational opportunities, restore habitat by removing roads and 
blocked culverts, reduce the risk of unnaturally intense wildfire, and 
support good paying, family wage restoration jobs. That said, the bill 
does have critics. I will present a few of the main criticisms of S. 
1470, attempt to answer them, and identify areas where people can work 
together to find solutions that meet the needs of the Forest Service, 
healthy ecosystems, and local communities.
    Completing the restoration projects outlined in the bill will be 
expensive, and may cause the Forest Service to divert funding from 
other important needs. Rather than look at the Forest Service budget as 
a zero-sum game, where dollars are spread evenly across the landscape; 
our strong belief is that it is more prudent to apply resources where 
they are needed most, and importantly, where the community capacity 
exists to ensure success.
    Few question the need of restoration treatments on the lands 
covered by S. 1470. The relationships and commitment to the type of 
collaborative process envisioned by Secretary Vilsack, however, exist 
in relatively few places today. As the diverse support base of this 
bill makes clear, the Kootenai, Lolo and Beaverhead-Deerlodge national 
forests are such places. These are the areas we should make our initial 
investments. And if legislation is required to kick start that era of 
collaborative stewardship, we think that type of congressional 
leadership appropriate.
    Leaving some forests under-funded and unable to accomplish 
restoration goals because resources were diverted elsewhere is not in 
anyone's interest. It may be necessary to secure additional resources 
beyond the Forest Service's base budget through appropriations and 
stewardship contracting receipts to complete the projects outlined in 
the bill without taking resources away from other forests. Because of 
the tremendous benefits provided by the bill, especially its 670,000 
acres of wilderness, such investments are cost-effective and 
worthwhile.
    Legislating forest plans is inappropriate. TU's national staff and 
thousands of volunteers have participated in forest planning for 
decades. The Forest Service is an important and valued partner to TU 
and NWF. That said, the Forest Service planning process has not had a 
stellar record. The amendments to the 1982 planning regulations in 2000 
were overturned by the Bush Administration, and subsequent efforts to 
revise the rules in 2005 and 2008 were deemed illegal by the courts. We 
plan to work with Secretary Vilsack and Chief Tidwell to make the 
latest attempt to revise the planning rules successful. In the 
meantime, we should not pass up opportunities to bring historic 
adversaries together, to protect crucial habitat, to restore degraded 
landscapes to better adapt to the effects of a changing climate, and to 
sustain local communities.
    If we pass this legislation, we will have to do the same for 
forests across the country. From 1960-1989, National Forests produced 
9-12 billion board feet of timber per year. Since that time, they have 
produced less than 2 billion per year. A recent survey of federal 
agencies found that morale in the Forest Service ranked 206 out of 216 
agencies. Where once the agency's clear mission was to sell trees to 
build homes and provide other multiple uses, the agency is now 
struggling through its 19th year of transition.
    Few wish to see the agency return to its timber cutting era. The 
nation, however, needs a strong Forest Service. We need its 
extraordinary knowledge and leadership to help human communities and 
fish and wildlife resources adapt to a changing climate. None of the 
organizations that support S. 1470 believes it is a panacea for the 
agency. We do, however, believe it vital to help foster the type of 
collaboration and negotiation that brought us here today. We do not 
want to see forest plans legislated across the country; but we do need 
to see models of collaborative stewardship enacted by the agency. For 
two decades, polarization and stalemate have defined National Forest 
management. S. 1470 could have a transformative effect within the 
Forest Service. Congress has an opportunity to send a clear message to 
the Forest Service. By sanctioning this effort to bring together 
diverse interests to meet the needs of the land and nearby communities, 
Congress will impel the agency to lead, promote, or otherwise enable 
them as standard-operating procedure within the Forest planning 
process.
    We subscribe to Secretary Vilsack's vision of a new era of 
collaborative stewardship within the agency. S. 1470 will help provide 
one example of how that vision can be made into reality across the 191 
million acre National Forest System.
                               conclusion
    The collaborative effort undertaken by local Montana groups is on 
the verge of overcoming years of controversy and delay to protect and 
restore Montana forests in ways that benefit local communities. There 
are challenges ahead, and to be certain, there may be ways to improve 
the bill, but S. 1470 represents a new way of doing business for the 
Forest Service, and we urge Congress to pass it.

    Senator Wyden. Thank you very, Mr. Wood.
    I think what I will do is recognize Senator Risch, who is a 
member of the subcommittee, and then recognize Senator Tester, 
who, of course, has many questions. We will see how many we can 
get in. The congressional schedule, as you can imagine, is a 
little hectic right now.
    So, Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Commissioner Hurt, you spent I think virtually all of your 
time talking about the importance of snowmobiling in the south 
half of the Mount Jefferson area. Is that the totality of your 
objection to the bill, or once the snow is gone, what about 
four-wheeling and that sort of thing? Can you elaborate a 
little bit more?
    All I am trying to do is get the magnitude of where you are 
coming from on it.
    Mr. Hurt. Senator, this area is protected by the roadless 
bill, the roadless area that you worked on when you were 
Governor. You can't get there----
    Senator Risch. A fine rule it is.
    Mr. Hurt. Yes, it is. I might add that, yes. You can't get 
there----
    Senator Risch. You have got to give Mr. Wood some of the 
credit for that, too. Jim Riley, if he is here? There he is.
    Mr. Hurt. It is protected in the summer from motorized 
vehicles. So the only access is by foot, llama, or horse. So we 
do--our issue is with taking it out of an area to ride for snow 
machines in the winter.
    Senator Risch. I have talked to lots and lots of people in 
Fremont County and the surrounding area, and they have all 
focused on the snowmobiling issue. Is it your position that the 
current Forest Service travel plan regarding snowmobiling is 
what should be left in place? Is that what your position is?
    Mr. Hurt. Yes, sir. Yes, sir, it is. It is a win-win for 
all sides.
    Senator Risch. Thank you.
    Mr. Koehler, did you participate in the drawing of this 
bill or the recommendations for it?
    Mr. Koehler. No. Our organization and most members of our 
coalition, even though we do participate in open, inclusive 
collaborative processes throughout Montana, we were not a part 
of the drafting of the bill. You know, again, we just felt it 
was a real self-selected process.
    You know, again, the issue isn't that some groups want to 
work together and some don't. For example, our restoration 
coordinator spends a lot of time in your State, working with 
the Salmon-Challis National Forest and a collaborative group 
that has sprung up there. We have worked together on a fuel 
reduction project and a restoration project, using stewardship 
contracting and many of the same ideas that we see expressed 
here.
    That is not the issue. The issue is what this bill as 
currently written would do.
    Senator Risch. You know, I understand your position. Mine 
is a little different than that. It is the outcome is certainly 
important. The process, to me, is very important because 
frequently that dictates the outcome. Did you attempt to 
participate in the drawing of this bill?
    Mr. Koehler. We had a meeting with the Montana Wilderness 
Association early on. We had a meeting with them. I believe it 
would have been in 2007 in Missoula with a representative of 
the Montana Wilderness Association. At that meeting was myself 
and our staff biologist, who currently is on a Fulbright 
Scholarship doing his research in Argentina. So he is obviously 
not real focused on these issues right now.
    At the meeting, we brought up many of the same concerns 
that I brought up today, which, quite honestly, are many of the 
same concerns that we heard brought up by Under Secretary 
Sherman earlier today. We just feel as if the mandated logging 
provisions are unprecedented. We feel as if setting a timeline 
on NEPA, it really just sets the Forest Service up for failure.
    Senator Risch. Did you express these concerns to Senator 
Tester and his staff as they were putting the bill together?
    Mr. Koehler. Our coalition has definitely met with Senator 
Tester's staff about this bill. Numerous members of our 
coalition have met. I remember meeting with the Senator's 
Missoula field director about 2 years ago, and this bill came 
up. Kind of more the concept because, at that time, it wasn't a 
bill. It was more the concept of this Beaverhead partnership.
    So we have exchanged emails back and forth. Again, members 
of our coalition have met with the Senator's office, given them 
specific recommendations, and to be quite honest, none of those 
recommendations seem to even be given very much weight, which 
is a frustrating thing to have happen when, again, these are 
public lands. They belong equally to all Americans, and we need 
an inclusive, transparent, open process to manage these lands.
    Senator Risch. Couldn't agree more. Did you convey to him 
some things that you would be willing to give up in exchange 
for getting some of the things that you wanted in the bill?
    Mr. Koehler. We did not have that discussion. I think the 
best way to approach that issue is to look at our line-by-line 
analysis of the bill. We, as a coalition of organizations and 
citizens, went through the bill. We provided very detailed 
recommendations for what we thought were improvements to the 
bill. So I would encourage the committee to look at that.
    Senator Risch. Again, who did you say the coalition was? 
That went over my head.
    Mr. Koehler. The name we have come up with is the Last Best 
Place Wildlands Campaign, and we are a coalition of 
organizations and citizens from Montana and around the country 
because, again, these lands do belong equally to all Americans. 
We did have about 50 or 55 organizations, conservation 
organizations, about 15 from Montana and the rest from around 
the country that did, as part of my written testimony that I 
submitted, did express our concerns about what is in the bill.
    Again, a lot of our groups, whether it is in Montana or 
groups elsewhere, we are committed to working together to 
finding solutions. But we just feel that, you know, not to 
belabor the process too much here, but we feel as if the 
process that was used, particularly on the Beaverhead-
Deerlodge, was not a good process. I think the county 
commissioners down in Beaverhead County would express similar 
concerns as well.
    Senator Risch. Thank you, Mr. Koehler.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Risch.
    Senator Tester.
    Senator Tester. It has been pointed out earlier, but isn't 
it funny how the far left and the far right often connect up?
    I would just ask Mr. Koehler a couple questions. When was 
the Last Best Place Wildlands Campaign formed?
    Mr. Koehler. I would say it was formed shortly after we 
found out about your bill----
    Senator Tester. Which was when?
    Mr. Koehler [continuing]. Which was in mid July, yes.
    Senator Tester. Mid July.
    Mr. Koehler. It is a campaign. It is a coalition of 
organizations, as I mentioned.
    Senator Tester. OK. If we--I think the first time we met 
was here today, correct?
    Mr. Koehler. No, I came to Washington, DC. I would say 
about a week after you were here. Your office, I believe, was 
still in the cafeteria, which I hope you have moved out.
    Senator Tester. Yes, we have moved out. You have gotten a 
hold of our Web site. Is that correct? You have sent us emails? 
The reason I ask is because I review all the emails, and I 
haven't seen one.
    Mr. Koehler. Our organization has met with members of your 
staff. Our coalition have met with members of your staff.
    Senator Tester. You seem passionate about this issue. Have 
you?
    Mr. Koehler. I am not sure that the issue is if I have met 
with you or members of your staff. To be honest, there was a 
time when members of your staff weren't returning our emails 
and weren't returning our calls.
    Senator Tester. That is because they didn't receive any 
because I looked at all the emails, and your name wasn't on 
them.
    Mr. Chairman, just for the record, you need to call us if 
you want us to respond. Don't make the claim that is unfounded 
because I tend to stick up for my staff in situations like 
this. The reason you are here as a part of this distinguished 
panel is because of your passion for this issue, your passion 
for this issue. Otherwise, we would have had somebody else.
    I have got some questions for Sherm Anderson. Some of the 
critics of this bill state that it will fail because the timber 
economics, specifically the current low market, is the reason 
it is going to fail. You have been in the business for a while, 
Sherm. How do you respond to statements that this bill is going 
to fail because timber markets are in the tank?
    Mr. Anderson. Senator Tester, sometimes I feel like I have 
been in the business way too long. In fact, as I was sitting 
here listening to the commissioner, that is where I grew up, 
and I was there when the beetle kill moved in to Island Park, 
and I actually participated in those huge clear-cuts.
    But this is a cyclical business. It goes up and it goes 
down, as do all businesses in the economy. For anyone to 
suggest that the state of the industry today is going to be the 
state of the industry tomorrow or next year or the year after 
is just ludicrous.
    The wood products industry is always the first industry to 
suffer from the economy downturns of a recession, and they are 
always the first to rebound, historically. We went into a 
recession in the latter part of 2006. The actual recession was 
not announced until 2008. So we now are feeling that we have 
bottomed out, and we are starting to pull out. All indications 
are the recession will not be over until 2010 or 2011.
    So we are looking long term here. We are not looking short 
term. If, in fact, that timber did not have any value, why 
would we be interested? I sincerely believe that from the lack 
of infrastructure that is actually disappearing and not only 
particular in our country, but in our friends to the north in 
Canada, that when this all washes out, there could very easily 
be a supply and demand issue where we cannot meet the supply.
    Senator Tester. OK. Thank you.
    Chris Wood, testimony earlier this afternoon said that this 
bill sets the Forest Service up for failure. You have worked in 
the Forest Service. You have worked outside the Forest Service. 
Could you give me a perspective on that statement?
    Mr. Wood. I wouldn't deign to have as much knowledge as 
most of the folks that were here in the room from the Forest 
Service or the agency.
    Senator Tester. Nor is any taken.
    Mr. Wood. I will note, though, that I was a part of an EIS 
that was developed in 18 months that covered 58 million acres, 
and I--that is the Roadless Area Conservation Rule EIS, and I 
have more faith, I think, in the Forest Service's ability to 
develop an EIS covering 50,000 acres in a year.
    Senator Tester. Let us talk about the tools that this bill 
gives the Forest Service. Could you bring some of them up that 
this bill gives the Forest Service to help achieve the goals?
    Mr. Wood. I think what it does is I think it is important 
to note as much what it doesn't do. It doesn't mandate logging 
levels. It doesn't mandate any sort of timber supply 
requirement. What it does is it provides congressional 
recognition of the need to treat acreage in already-roaded 
areas, using all the tools that are available to the Forest 
Service, particularly mechanized treatment.
    I think the lack of activity in the woods in Montana and, 
frankly, across most of the rest of the intermountain West, 
dictates that this type of approach is precisely appropriate. I 
have less of a concern of legislating this plan if it leads to 
these types of collaborative efforts and sort of breaks the dam 
that has been built up within the agency and allows this kind 
of treatment to happen across the West.
    Senator Tester. This is a question for both Mr. Baker and 
Mr. Anderson. You can go first, if you would like, Mr. Baker.
    Many say that I should separate the forest and restoration 
components from the wilderness and recreation portions of this 
bill and work on them as separate bills. I am not going to do 
that. But I want to know if I did do that, would you support 
it? Why or why not?
    Mr. Baker. If you were to separate this bill, Senator 
Tester, we would oppose this bill. This bill represents a 
vision. It represents a collaborative vision for how we should 
look at our forests in the future and how we can use that 
vision to bring different people together, diverse interests, 
to accomplish many things on the forest, including the wild 
landscape that deserves to be protected as wilderness and the 
roaded landscape where we need much more active management.
    So I think we want to see this bill stay intact because it 
represents this collaborative spirit that has brought Montanans 
together.
    Senator Tester. Mr. Anderson, could you comment on the same 
question? Do you want me to repeat it?
    Mr. Anderson. I can, Senator. We have vested over 4 years 
in collaboration in putting this thing together, and if you 
were to separate that, we would adamantly oppose it. The 
collaborative efforts that we have put forward and the hundreds 
of meetings that we have had and held throughout the areas that 
were involved in my estimation would be for naught if these 
bills were split apart.
    Senator Tester. I want to thank all the folks who provided 
testimony here for the panel. We have been at this for quite a 
while, and I want to thank the chairman once again for his 
indulgence in allowing me to be a part of the questions and the 
presentation.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank my colleague Senator Risch.
    We thank you, Senator Tester. I know that this legislation 
is of great importance to you. We will be working very closely 
with you.
    To all our witnesses, we may have Senators wishing to ask 
some of you questions in writing. We will hold the record open 
for that.
    We know you have traveled a long way. For westerners making 
this trek, there is not a bonanza of nonstop flights. So we 
really appreciate everybody coming, and the subcommittee is 
adjourned.
    [Whereupon, at 4:50 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Edwin Roberson to Questions From Senator Bingaman
                                h.r. 934
    Question 1. Today, a story appeared in the CNMI paper* stating that 
H.R. 934, as passed by the U.S. House of Representatives, would give 
the CNMI ``the option of exercising full control over the submerged 
lands surrounding the northernmost islands of Maug, Uracas and 
Asuncion, or decide to enter with a co-management system with the 
federal government as embodied in the Presidential Proclamation 
(establishing the Marine Monument for these islands)''.
---------------------------------------------------------------------------
    * US Senate subcommittee to discuss NMI submerged lands bill'' 
Thursday, 17 December 2009, by Gernina Q. Casas.
---------------------------------------------------------------------------
    Does the Interior Department agree with this report that the bill, 
if not amended, would give the CNMI this option?
    Answer. Unless evidence is presented that could harmonize H.R. 934 
with the Presidential Proclamation establishing the Marianas Trench 
Marine National Monument, a court could reach the conclusion that the 
CNMI could exercise exclusive control or enter into a co-management 
agreement with respect to the submerged lands surrounding Maug, Uracas 
and Asuncion. The later enactment by Congress would control over an 
earlier action. In this case enactment of H.R. 934 would be later than 
the January 6, 2009 date of the Presidential Proclamation.
    Question 2. If so, what would be the effect of CNMI having this 
option on the Presidential Proclamation and on management of the 
Monument?
    Answer. The Presidential Proclamation provides that submerged lands 
that are granted to the CNMI ``hut remain controlled by the United 
States under the Antiquities Act may remain part of the monument'' for 
coordinated management with the CNMI. Whether the United States retains 
any control under H.R. 934 depends on the plain language of the statute 
and the intent of Congress. If a court were to find that CNMI could 
exercise exclusive control under H.R. 934, it could also find that the 
federal government had no authority to administer the submerged lands 
lying up to three miles distant from the shores of Maug, Uracas, and 
Asuncion as part of the Marianas Trench Marine National Monument. In 
such an event, Federal officials would have no jurisdiction over the 
excised submerged lands and the protection of relatively pristine coral 
reef ecosystems, designated by the President as objects of scientific 
interest and essential to the long-term study of tropical marine 
ecosystems, could be called into question. Alternatively, a court could 
find that Congress did not intend that transfer of these submerged 
lands and waters would affect the existing federal management of 
Monument resources. Because the intent is not clear, we recommend that 
Congress clarify its intent with respect to the Islands Unit.
    A statement for the record was submitted by the Department of the 
Interior to the Senate Committee on Energy and Natural Resources with 
substitute language for H.R. 934 as passed by the House of 
Representatives. Included in the substitute language was a provision 
referencing the Marianas Trench Marine National Monument. This proposed 
language was intended to guarantee the integrity of the monument, 
preserve existing federal management authorities in the area of the 
national marine monument, including the Antiquities Act and the 
Magnuson-Stevens Fishery Conservation and Management Act, and harmonize 
the interests of the CNMI and the Monument.
    While creation of the monument was a historic achievement, it 
should be remembered that the leaders and people of the CNMI were and 
are these three islands' first preservationists. They included in their 
1978, plebiscite-approved constitution the following language:
                     article xiv: natural resources
          Section 1: Marine Resources. The marine resources in the 
        waters off the coast of the Commonwealth over which the 
        Commonwealth now or hereafter may have any jurisdiction under 
        United States law shall be managed, controlled, protected and 
        preserved by the legislature for the benefit of the people.
          Section 2: Uninhabited Islands. . . . The islands of Maug, 
        Uracas, Asuncion, Guguan and other islands specified by law 
        shall be maintained as uninhabited places and used only for the 
        preservation and protection of natural resources, including but 
        not limited to bird, wildlife and plant species.

    It is important to note that the legislature has never taken action 
adverse to the preservation of these northern islands and the waters 
surrounding them. The people of the CNMI are well aware of their 
treasures. CNMI leaders consented to creation of the monument because 
they believed that the monument would bring Federal assets for marine 
surveillance, protection, and enforcement to the northern islands that 
the CNMI cannot afford.
    The Department of the Interior seeks to harmonize all interests in 
the waters surrounding the CNMI's three northernmost islands and 
preserve sufficient control over the submerged lands and waters of the 
monument to ensure that the management of the monument is not affected 
by this legislation. Thus, the Department recommends that language be 
included in H.R. 934 referencing the proclamation that created the 
monument with federal and CNMI roles and preserving the statutory 
authorities underlying the federal roles in the Islands Unit]. Such 
harmonizing language is intended to preserve the Islands Unit of the 
monument and at the same time acknowledge the prescient and historic 
conservation effort of the leaders and people of the CNMI in protecting 
Uracas, Maug, and Asuncion, and their surrounding waters.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

          Questions for Edwin Roberson From Senator Murkowski
                                h.r. 762
    Question 1. As I understand it your agency had the potential to 
lose a lawsuit brought by the Western Lands Project related to the way 
you moved the Tortoise preserve at Coyote Springs before it was settled 
by the owners of Coyote Springs and the plaintiffs in that lawsuit.
    If the rock-fuel plant was built, would the new placement of the 
preserve still be the best placement on the preserve for the wildlife 
on the property and/or for wildlife that migrates through the property?
    Question 2. Was the Bureau of Land Management or the U.S. 
government a party to that Settlement agreement? If so would you please 
provide the Committee with a copy of that Settlement Agreement?
    Question 3. If the federal government was not a party of that 
settlement agreement, please explain how the federal government is now 
sure none of the federal government's interests in the Tortoise 
Preserve have fully protected by the settlement between the Western 
Lands Group and the owners of the Coyote Springs development?
    Question 4. When the government sold the power line right of way to 
Coyote Springs Corporation in 1993 it received about $10.5 million for 
the utility right of way or about $1,083 per acre.
    What was the appraised value per acre of the entire Coyote Springs 
property in 1988?
    Question 5. Can you help us understand how in five short years the 
land values in that area almost tripled?
    Question 6. In the estimation of the Bureau did the passage of the 
Lincoln County Wilderness Act which provided for rights-of-way for 
water pipeline to transfer water from Lincoln County to Las Vegas and 
Coyote Springs material change the value of the lands within the Coyote 
Springs development?
    Question 5. If the original land exchange had never occurred and 
the lands where simply BLM fee lands; where would the Department of 
Interior put the Tortoise Preserve within what is now known as the 
Coyote Springs Development?
                                s. 1787
    Question 1. I note in this act that it exempts the White Pine 
County Conservation, Recreation, and Development Act of 2006 (Public 
Law 109-432) and the Lincoln County Conservation, Recreation, and 
Development Act of 2004 (Public Law 108-424) but not the Owyhee 
Wilderness nor the Washington County Utah Wilderness bills from Public 
Law 111-11 that have similar programs.
    Is that an oversight that should be corrected before this bill is 
marked up?
    Question 2. Are there other situations or laws that also should be 
addressed before this bill moves to a mark up?
                                 ______
                                 
          Questions for Harris Sherman From Senator Murkowski
                                s. 1470
    Question 1. Does the Department support the Beaverhead-Deerlodge 
National Forest 2009 forest plan that recommended the south half of 
Mount Jefferson to be open to snowmobiling and not in Wilderness?
    Question 2. Given the recently completed Beaverhead-Deerlodge 
forest plan; why bother to go through the forest planning process if 
the agency is now going to support a Wilderness designation for the 
south side of Mt. Jefferson?
    Question 3. This bill calls for approximately 10,000 acres of 
hazardous fuel work using mechanical removals to be accomplished each 
year.
    If passed as currently written, how much will it cost Region One 
per year to accomplish the thinning called for on each of the three 
forests involved?
    Question 4. If passed will adding 10,000 acres of timber management 
in those three forests impact the budgets of forests outside Region 
One?
    Question 5a. During your testimony on S. 1470 you indicated that 
the Forest Service had never met with the group who developed the 
proposal in S. 1470. However, we know members of that group met with 
the Forest Supervisor of the Beaverhead-Deerlodge several times to 
discuss their proposal. In fact, there are press reports that indicate 
that the Forest Supervisor gave the group 4 months to get their 
proposal to the Forest Service to be considered as an alternative in 
the final forest plan that was completed in 2009.
    We know that the group met with former Chief Abigail Kimbell when 
she was Regional Forester, and met with current Chief Tom Tidwell on 
their proposal when he was Regional Forester.
    Would you please double check with local Forest Service officials 
and provide us with meeting logs for all District Rangers, Forest 
Supervisors, and Regional Office personnel related to any meeting they 
may have held with members of the Montana coalition that developed the 
proposal contained within S. 1470 between 2004 through 2009.
    Question 5b. If your audit finds that Forest Service employees did 
in fact meet with a member or members of the coalition related to the 
proposal contained within S. 1470 would you please provide the 
Committee with a corrected transcript to your answer of the question 
that was asked on this issue.
                              beetle kill
    Question 6. Mr. Sherman--Last week the Forest Service announced it 
was shifting $40 million to Region Two to deal with the mountain bark 
beetle infestation. I would also note that in the 2010 final 
appropriations bill the Forest Service saw a $40 million increase in 
timber management funding.
    Please give me the justification of sending the entire increase in 
timber funding received by the Forest Service to only Colorado and 
Wyoming?
    Question 7. Please provide the Committee a detailed description of 
which budget line items were tapped to pay for the additional $40 
million provided to Region Two.
    Question 8. Surely you realize that other intermountain western 
states have similar problems and similar needs, what is so critical in 
Colorado and Wyoming that an amount of funding equal to the total 
increase in the timber management 2010 budget is being focused on those 
two States?
                     fire aviation strategy report
    Question 9. The FY 2010 Interior appropriations bill included a 
requirement for the agency to complete a report with a strategy for 
replacing slurry bombers, including a cost of the strategy no later 
than 30 days after October 30th when the bill was signed into law.
    Given that report has languished at OMB for more than 4 years, when 
are you going to get that report up to this committee, as well as the 
other committees?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                     Congress of the United States,
                                  House of Representatives,
                                 Washington, DC, December 11, 2009.
Hon. Jeff Bingaman,
U.S. Senate, Chairman, Committee on Energy and Natural Resources, 304 
        Dirksen Senate Building, Washington, DC.
Hon. Lisa Murkowski,
U.S. Senate, Ranking Member, Committee on Energy and Natural Resources, 
        304 Dirksen Senate Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski: Thank you for 
your attention to H.R. 934, a bill that conveys certain submerged lands 
to the Commonwealth of the Northern Mariana Islands (CNMI), which I 
introduced on February 10, 2009. The bill provides the same benefits to 
the Northern Mariana Islands as are now enjoyed by American Samoa, 
Guam, and the Virgin Islands. The CNMI is the only U.S. jurisdiction 
that does not have ownership of the submerged lands three miles off its 
shores.
    I want to share with you some background of the bill as you prepare 
for the hearing conducted by the Senate Energy and Natural Resources 
Subcommittee on Public Lands and Forests on December 17, 2009.
    One issue of concern regarding H.R. 934 during consideration in the 
House was its effect on the Marianas Trench Marine National Monument 
that was established on January 6, 2009. I wanted to preserve the terms 
and conditions that were negotiated between the CNMI government and the 
federal government under the Proclamation while, at the same time, 
gaining control of the submerged lands around the Mariana Islands.
    On June 10, 2009, the House Natural Resources Committee held a 
mark-up on H.R. 934. Subcommittee Chairwoman on Insular Affairs, Oceans 
and Wildlife Madeleine Bordallo submitted an Amendment in the Nature of 
a Substitute (ANS) that would make technical changes and provide 
assurance, under subsection (c), that H.R. 934 would not alter or amend 
the Marianas Trench Marine National Monument. I had requested the 
inclusion of subsection (c) in order to preserve the agreement between 
the CNMI government and the federal government under the Monument 
Proclamation. The ANS was agreed to by unanimous vote and H.R. 934 was 
favorably reported to the House of Representatives, as amended, by 
unanimous consent.
    After the mark-up, there were concerns that subsection (c) may have 
unintended consequences. The intent of H.R. 934 was to convey title and 
rights to the submerged lands of all islands including the three 
northernmost islands, which constitute the ``Islands Unit'' in the 
Marianas Trench Marine National Monument. The concern was that 
subsection (c) may prohibit this land transfer.
    As a result of further discussions with the CNMI administration and 
legislature, an amendment deleting subsection (c) was supported by the 
leaders of the Northern Mariana Islands including Governor Fitial, 
Senate President Reyes, and House Speaker Palacios. In addition, the 
non-governmental organization which had been an important advocate for 
the establishment of the Mariana Trench Monument, Friends of the 
Monument supported the conveyance of the submerged lands around all the 
Mariana Islands. I have attached letters* of support for your 
reference.
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    On July 15, 2009, the U.S. House of Representatives considered H.R. 
934 under suspension of the rules. At my request, Subcommittee 
Chairwoman Bordallo offered an amended version of the ANS that would 
specifically delete subsection (c). With this support from the CNMI 
government, legislature and members of the public the House unanimously 
passed H.R. 934, as amended.
    I request that this letter and the attached supporting documents be 
made a part of your Subcommittee's hearing record on this bill. It is 
my hope that this bill will be enacted as soon as possible so that the 
people of the Northern Mariana Islands will get back the land that they 
have always believed belonged to them. I ask that the Committee 
favorably report H.R. 934 immediately.
            Sincerely,
                            Gregorio Kilili Camacho Sablan,
                                Delegate, Northern Mariana Islands.
                                 ______
                                 
                                Anaconda-Deer Lodge County,
                                   Anaconda, MT, December 11, 2009.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Senate Committee on 
        Energy & Natural Resources, 304 Dirksen Senate Building, 
        Washington DC.
RE: Senate Bill 1470, Forest Jobs and Recreation Act of 2009

    Dear Senator Wyden: I urge you and the Senate Subcommittee on 
Public Lands and Forests to strongly support S. 1470, the Forest Jobs 
and Recreation Act (FJRA), introduced by Senator Jon Tester in July and 
cosponsored by Senator Max Baucus. We must get past the gridlock that 
has plagued forest management for so many years. We need to have jobs 
in the forests, restore our best fisheries and wildlife habitat, 
address fire risk, protect our best backcountry as wilderness for 
fishing, hunting, and clean water, and make sure that there is room for 
diverse forms of recreation, including motorized use and mountain 
bikes.
    The overall objectives of this bill are to:

  <bullet> Create Jobs: Members of the timber industry strongly support 
        this bill because they believe it will help the industry 
        survive and prosper.
  <bullet> Improve Forest Health: The bill is focused on addressing 
        issues related to the health of our forests, from beetle 
        outbreaks to impaired fish habitat.
  <bullet> Protect Our Best Fishing, Hunting, and Clean Water: The 
        Forest Jobs and Recreation Act is good for fishing and hunting, 
        by protecting as wilderness key wildlife and fisheries 
        habitats, and other deserving wild places.
  <bullet> Protect Recreation Opportunities: The bill protects popular 
        areas for motorized and mountain bike recreation on public 
        lands.

    The legislation is in part based on several local collaborative 
efforts around the state that I have been following for several years. 
These efforts have brought diverse Montana citizens and groups together 
to find a better way to manage our national forests. Although the 
Anaconda-Deer Lodge County Commission has not yet formally endorsed the 
FJRA, it has endorsed the Forest Partnership Proposal on which the FJRA 
was based.
    As the County's elected Chief Executive officer, I strongly believe 
that these collaborative efforts benefit the residents of Anaconda-Deer 
Lodge County, because they represent the type of cooperation among 
different and diverse stakeholders that we need to solve many of the 
serious problems on the public lands within our boundaries.
    I see the promise that the Forest Jobs and Recreation Act holds for 
all of us who govern in counties with national forest lands.
            Sincerely,
                                           Rebecca C. Guay,
                                                   Chief Executive.
                                 ______
                                 
   Statement of Maureen Connor, Commissioner, Office of the Board of 
   County Commissioners, Granite County, Philipsburg, MT, on S .1470
    Dear Honorable Senators of the Natural Resources Committee,
    My name is Maureen Connor and I am a Granite County, Montana 
Commissioner. This County is approximately 1.2 million acres, of which 
61% is federal forest land. Our economy and general way of life is 
inextricably bound to the actions or inactions of our largest land 
manager, the United States Forest Service.
    Our 100 cattle ranches depend on creek water--watersheds that begin 
on National Forest land, high in the Anaconda-Pintler Wilderness Area. 
Our small towns are on those creeks and rivers. A small lumber mill 
used to employ 100 workers at a time, a large percentage of our overall 
workforce. That mill is now closed. In recent years, there are very few 
jobs for working people, and our new retired residents move here to 
enjoy the natural amenities of the area. Tourism seems to be picking 
up, but doesn't bring enough jobs to keep our young people in the area 
and our economy vital.
    Meanwhile, much of our forest looks like it's in a death spiral, 
turning bright red. As a county commissioner, I know we are not in a 
good position when the predicted wildfire comes eventually to restore 
balance to our public lands.
    Several years ago our National Forest, the Beaverhead-Deerlodge 
began a mandated forest planning effort. That plan resulted in a number 
of alternatives, none of which seemed well suited to our county. A 
group of neighboring timber companies invited Granite County to discuss 
the proposed forest plan alternatives.
    Those timber companies were at the table with mainstream 
environmental groups active in Montana. Together, through a lot of 
talk, a lot of meetings, and a lot of maps, Granite County became a 
supporter of their efforts. Personally, I thought this was remarkable, 
since the County hadn't been in such a collaborative effort in the 
past. The group was called the Partnership Strategy.
    This resulted in a unique alternative proposal being hammered out 
and sent to the Forest Service, one that the Partnership Strategy 
supported. At the end of the federal process, a forest plan alternative 
was adopted that met some, but not all of the group's objectives.
    When our new Senator Jon Tester came by to visit our County, we 
told him about this effort. We told him it wasn't perfect, and that 
maybe we thought perfection wasn't realistic given all the special 
interests, but that we thought it would work for our County. He 
listened to us.
    With the Forest Plan now adopted, other objectives of the 
Partnership Strategy are currently before you and with your 
recommendation, the Congress of the United States. I continue to 
support this cooperative and common sense effort now through the Forest 
Jobs and Recreation Act, S.1470.
    Thank you for your time and hard work.
                                 ______
                                 
  Statement of Suzanne Browning, Chairperson, Office of the Board of 
     County Commissioners, Granite County, Drummond, MT, on S .1470
    Dear Honorable Chairman Jeff Bingaman and Committee on Energy and 
Natural Resources,
    I support Senator Tester and Senator Baucus's willingness to carry 
the Forest Jobs and Recreation Act in Congress. This courageous new 
bill represents hope and new opportunity for our state, because it aims 
to break the decades-long logjam on forest policy.
    Like others, the customs and culture of Granite County dictate the 
use of our forest resources. Granite County is approximately 1733 
square miles, of which 61% is federal land. This resource is vital to 
our county and communities, not just for timber, but for agriculture, 
watersheds, wildlife habitat, and recreation, to name a few.
    Our county is changing, and we are regularly among the top growth 
counties in Montana. Much of our growth is in second homes for 
residents to enjoy the natural amenities of the area. There are very 
few jobs for working people or occupations to keep our young people in 
the area.
    The stability of our local economy did rely heavily upon our mills, 
an industry that has a long legacy in Montana. A short time ago, one of 
our top five private taxpayers and one of the top private employers, 
Eagle Stud Mill, suspended operations to virtually nothing. In the 
past, there were at least three mills operating in our county.
    The irony is that now, more than ever, there is a greater need for 
timber operators. Forest health in the county continues to decline due 
to unmanaged timber stands, extended fire suppression, insect 
infestation, and the rampant spread of noxious weeds.
    With expanded growth and more homes being built on the forest 
fringe, there's a growing concern about the risks and costs of wildfire 
in Montana's wildland-urban interface, referred to as the WUI. Fire 
risk around our communities is high. We now talk about what to do with 
red trees, not green ones.
    S. 1470 clearly focuses on creating positive solutions to restore 
our forests. These stewardship logging projects will help bring 
economic health hack to the industry and our communities. They will cut 
down the risk of wildfire. They will create and save jobs. Our forests 
will benefit from these restoration projects, including protecting 
Granite County communities from wildfire and restoring watersheds.
    This bill was based on a collaborative spirit. That same spirit is 
evident in the bill and will be evident in the timber projects. 
Stewardship timber projects will be designed by ``resource advisory 
committees'' representing all forest interest groups shaping the 
direction of forest management.
    The Forest Jobs and Recreation Act is a non-partisan bill. It isn't 
solely about loggers or environmentalists. It's the result of people 
from different walks of life working together on a plan to fix 
Montana's forest policy so that it works for our forests and the people 
who rely on them.
    Any plan as bold and courageous as this is of course going to see 
its share of criticism. But the facts of the legislation are 
indisputable. And based on the facts, the Forest Jobs and Recreation 
Act enjoys overwhelming support.
    This is a vision for forest management that will bring us from the 
old days of the timber wars to a new day with conservationists, timber 
industry, and recreational advocates working on many different levels 
to protect and restore our public lands.
    We need to work together. Together, we can build a foundation for 
our economy and our heritage of managing and preserving our forests for 
generations to come.
                                 ______
                                 
  Statement of Terry Schultz, Commissioner, Butte Silver Bow County, 
                               District 4
    I strongly urge you and the administration to strongly support S. 
1470, the Forest Jobs and Recreation Act, introduced by Senator Jon 
Tester in July. We need to get past the gridlock that has plagued 
forest management for so many years. We need to have jobs in the woods, 
restore our best fisheries and wildlife habitat, address fire risk, 
protect our best backcountry as wilderness for fishing, hunting, and 
clean water, and make sure that there is room for diverse forms of 
recreation, including motorized use and mountain bikes.
    The overall objectives of this bill are to:

  <bullet> Create Jobs: Members of the timber industry strongly support 
        this bill because they believe it will help the industry 
        survive and prosper.
  <bullet> Improve Forest Health: The bill is focused on addressing 
        issues related to the health of our forests, from beetle 
        outbreaks to impaired fish habitat.
  <bullet> Protect Our Best Fishing, Hunting, and Clean Water: The 
        Forest Jobs and Recreation Act is good for fishing and hunting, 
        by protecting as wilderness key wildlife and fisheries 
        habitats, and other deserving wild places
  <bullet> Protect Recreation Opportunities: The bill protects popular 
        areas for motorized and mountain bike recreation on public 
        lands.

    The legislation is in part based on several local collaborative 
efforts around the state that we have been following for several years. 
These efforts have brought diverse Montana citizens and groups together 
to find a better way to manage our national forests. Although our 
commissions have not yet formally endorsed the FJRA, we have endorsed 
one or more of the underlying collaborative projects.
    As individual commissioners, we strongly believe that these 
collaborative efforts strongly benefit the residents of our respective 
counties, because they represent the type of cooperation among 
different and diverse stakeholders that we need to solve many of the 
serious problems on the public lands within our boundaries.
    We all see the promise that e Forest Jobs and Recreation Act holds 
for all of us who govern in counties with national forest lands.
                                 ______
                                 
   Statement of Mike Sheehy, Commissioner, Butte Silver Bow County, 
                              District 10
    I strongly urge you and the administration to strongly support S. 
1470, the Forest Jobs and Recreation Act, introduced by Senator Jon 
Tester in July. We need to get past the gridlock that has plagued 
forest management for so many years. We need to have jobs in the woods, 
restore our best fisheries and wildlife habitat, address fire risk, 
protect our best backcountry as wilderness for fishing, hunting, and 
clean water, and make sure that there is room for diverse forms of 
recreation, including motorized use and mountain bikes.
    The overall objectives of this bill are to:

  <bullet> Create Jobs: Members of the timber industry strongly support 
        this bill because they believe it will help the industry 
        survive and prosper.
  <bullet> Improve Forest Health: The bill is focused on addressing 
        issues related to the health of our forests, from beetle 
        outbreaks to impaired fish habitat.
  <bullet> Protect Our Best Fishing, Hunting, and Clean Water: The 
        Forest Jobs and Recreation Act is good for fishing and hunting, 
        by protecting as wilderness key wildlife and fisheries 
        habitats, and other deserving wild places
  <bullet>  Protect Recreation Opportunities: The bill protects popular 
        areas for motorized and mountain bike recreation on public 
        lands.

    The legislation is in part based on several local collaborative 
efforts around the state that we have been following for several years. 
These efforts have brought diverse Montana citizens and groups together 
to find a better way to manage our national forests. Although our 
commissions have not yet formally endorsed the FJRA, we have endorsed 
one or more of the underlying collaborative projects.
    As individual commissioners, we strongly believe that these 
collaborative efforts strongly benefit the residents of our respective 
counties, because they represent the type of cooperation among 
different and diverse stakeholders that we need to solve many of the 
serious problems on the public lands within our boundaries.
    We all see the promise that e Forest Jobs and Recreation Act holds 
for all of us who govern in counties with national forest lands.
                                 ______
                                 
               Statement of Dale N. Bosworth, on S. 1470
    I am writing regarding S. 1470, the Forest Jobs and Recreation Act, 
introduced by Senator Jon Tester of Montana. This proposed legislation 
deserves strong consideration by your committee and I appreciate that 
you have scheduled a hearing for December 17. f have a long history in 
Montana. I worked on several national forests in the state, I was 
Regional Forester for the Northern Region of the Forest Service, and as 
Chief of the Forest Service my responsibilities included Montana. I am 
now retired and living in Missoula, Montana. There are three major 
reasons I support S. 1470.
    First, there are many areas in Montana deserving Wilderness 
designation. S. 1470 would accomplish most of that. It has been 
difficult for the public and the Forest Service, having areas in limbo 
over the past several decades. It's time for Congress to act.
    S. 1470 requires the use of stewardship contracting to accomplish 
much needed restoration work on the Beaverhead-Deer-lodge National 
Forest. I strongly support the use of stewardship contracting and 
believe it is the tool of the future for accomplishing needed work on 
national forest system land. I urge the committee to work closely with 
the Forest Service to identify needed changes in the stewardship 
contracting authority to make it an even better tool.
    S. 1470 is based on collaborative efforts across Montana. Members 
of those communities who have historically been at odds, came together 
with various proposals. That in itself is huge. If we expect that kind 
of behavior in the future, then there must be a positive outcome.
    While there are many good aspects of S. 1470, there are a few items 
that l am concerned about. My biggest concern is the mandated 7000 
acres of treatment per year for the Beaverhead-Deerlodge NF. I believe 
it would be more effective to have a goal-oriented approach. There is 
nothing in the legislation that makes it any easier for the Forest 
Service to accomplish its work. A goal of 7000 acres per year, with 
required reporting to Congress on the annual accomplishments, would be 
a better strategy. I encourage the committee to work with the Forest 
Service to work out solutions to these few problems with the 
legislation.
    Mr. Chairman, the status quo is simply not acceptable. The public, 
the land and future generations deserve better. Thanks again for giving 
S. 1470 the consideration it deserves.
                                 ______
                                 
        Statement of George Wuerthner, Richmond, VT, on S. 1470
    I am submitting this testimony to be included in the official 
hearing record regarding Senator John Tester's S.1470. Thank you.
    I am a former Montana hunting and fishing guide, and have visited 
every large roadless area in Montana, including all areas proposed for 
wilderness in S.1470. I'm also an ecologist who has written 35 books, 
including several dealing with wildfire ecology. I'm very familiar with 
the lands contained in this bill.
    There are some good things in the Tester's legislation and other 
things that I could live with if there were some modification of the 
bill's language.
    I would like to commend Senator John Tester for addressing some 
long-standing issues like wilderness designation.
    However, I have a problem with how the contents of the bill were 
developed (with limited public input), as well as with the larger 
philosophical idea behind the bill that ``locals'' in Montana should 
have a greater say over management of national assets (like trees) than 
someone living in Florida or Wisconsin. I hope this collaborative quid 
pro quo approach does not become a model for future wilderness bills in 
Montana or anywhere else, though 1 have no problem with people trying 
to find common ground on things like wilderness designation if that can 
be achieved.
                             the good stuff
    Despite how it was created. there is some good aspects to this 
bill. not the least of which is the creation of more than 670,000 acres 
of new wilderness. Many of these areas--including the Italian Peaks, 
Lima Peaks, Snowcrest, East Pioneers, Centennial Mountains, Sapphires, 
and Roderick Mountain (Yaak)--contain some of the finest unprotected 
landscapes in Montana.
    The designation of wilderness areas including the Centennials, Lima 
Peaks, Italian Peaks and two small wilderness areas in the West Big 
Hole along the Continental Divide that will increase the likelihood 
that the adjacent Idaho roadless lands will also garner protection.
Brief Description of Proposed Wildernesses
    I have personally visited every proposed wilderness in S.1470. 
Because of my personal familiarity with these landscapes, I'd like to 
give a very brief overview of some of the areas contained in S.1470 and 
offer some suggested changes.
    On the Kootenai National Forest in Northwest Montana lies the 
proposed 29,869 acre Roderick Mountain Wilderness. This heavily 
forested uplands is important for grizzly bear remaining in the Yaak 
drainage. The Yaak drainage has been severely logged in the past, and 
any remaining roadless lands should he given protection.
    Just south of Butte are three roadless areas that have important 
wildlands values. The 12,000 acre Humbug Spires managed by the BLM,and 
21,000 acre High land Mountains. The spires feature many granite knobs 
that are a favorite for climbers while the Highlands are glaciated with 
cirques on the flanks, while flat-topped Table Mountain offers 
expansive views. The proximity to Butte makes both areas important for 
their easy access and recreational values.
    Starting in the north end of the Big Hole Valley are proposed 
additions to the existing 158,000 acre Anaconda Pintler Wilderness 
which would expand significantly protection for the lower slopes of the 
range. This would secure some of the more productive forested lands in 
the valley, including the most important big game habitat. A few of the 
streams offer habitat for endangered grayling, while lynx, and 
wolverine are both known to frequent this area.
    South of Big Hole Pass are the rugged glaciated peaks and more than 
30 cirque lakes of the 130,000 acre West Big Hole roadless area, 
including 10,621 foot Homer Young Peak, the highest in the range. Under 
Tester's bill this roadless area would he designated as a National 
Recreation Area with two small wilderness areas of 44,000 acre 
wilderness.
    Given its spectacular scenic value as well as the value as a north-
south migration corridor, as well as home to genetically unique 
populations of lake trout (Miner Lake) and Arctic grayling spawning 
habitat, this entire area should be given protection as wilderness. 
East of Wisdom is the 240,000 roadless acres of the West Pioneer 
Mountains, one of Montana's largest roadless areas and another S.393 
wilderness study area. The rolling forested mountains of the West 
Pioneers Proposed Wilderness top out at 9,000 feet. This area has been 
greatly impacted by ORV intrusions in recent years. Senator Tester only 
proposes 25,700 acres of this range as wilderness. Given its 
significant biological values, the entire 148,000 S. 393 acreage should 
be protected at a minimum, with a 100,000 acre NRA surrounding it.
    Directly east and across the Wise River, are the 145,000 acre East 
Pioneer Mountains Proposed Wilderness. The East Pioneers are extremely 
rugged, with many cirque lakes and glaciated high peaks including 
11,154 foot Tweedy Mountain and 11,146 foot Torrey Mountain. The area 
is easily one of the more scenic mountain ranges in Montana. Under 
Tester's bill this area would only 76,000 acres would he protected as 
wilderness. The acreage should he expanded to protect the entire 
145,000 acres.
    The 90,000 acre Italian Peak Proposed Wilderness is part of a 
larger nearly 300,000 acre chunk of roadless country straddling the 
Continental Divide on the Montana-Idaho border. The lonely, but rugged 
limestone peaks, including 10,998 Italian Peak reminds me of the 
Canadian Rockies. Other major peaks include 11,141 foot Eighteenmile 
Peak. As a migration corridor along the Continental Divide, this area 
should be given maximum protection. Unfortunately under the Tester bill 
only proposes 29,500 acres as wilderness. This area needs to be 
expanded to the full 90,000 acre roadless area.
    The 42,000 acre Lima Peak/Mount Garfield Proposed Wilderness also 
straddles the Continental Divide, and includes 10,961 foot Mt. 
Garfield. This area features many aspen groves, along with patches of 
conifers intermixed with open grassy slopes that can be hiked for 
miles. The gentle terrain of the lower slopes of this area makes for 
exceptional hiking and horseback riding. Tester's bill only proposes 
35,000 acres.
    Several other small BLM roadless areas are also found in this 
region including 27,000 acres in the Ruby Range east of Dillon which 
Senator Tester proposes as a 15,000 acre wilderness. The Ruby Range 
provides some of the water for the Ruby River, a well known trout 
stream in Montana.
    Southeast of Dillon lies the 15,000 acres Blacktail Mountains of 
which 10,000 acres would be protected by S. 1470. However, this is 
beautiful fault block mountain uplift with open grassy slopes and 
pockets of timber that is excellent big game habitat. Hiking the ridge 
crest offers expansive views of the surrounding mountainous terrain.
    Marking the southwestern edge of the Gallatin Valley is the 96,000 
acre Tobacco Root Mountains Proposed Wilderness. Extensively fragmented 
by old mining roads, the Tobacco Roots still harbor some small roadless 
areas. These glaciated mountains possess 28 peaks over 10,000 feet and 
dozens of small lakes and tarns. Senator Tester's bill would only 
protect a fraction of this range in the 5,223 acre proposed Lost Cabin 
Proposed Wilderness. This mountain range should obviously get expanded 
wilderness protection.
    To the southwest of Dillon and the headwaters of the Ruby River 
lies the wildlife-filled 110,000 acre Snowcrest Range Proposed 
Wilderness. A long narrow range with a number of 10,000 plus peaks, the 
Snowcrest Range is a mixture of open grassy/sage slopes, pockets of 
aspen and conifers, topping out with tundra along the ridges and higher 
peaks. You might see pronghorn as elk on the high slopes of this range. 
Recently grizzly bears have been seen in this range. S. 1470 would 
designate 89,000 acres as wilderness, however, it releases the adjacent 
BLM East Fork of the Blacktail Wilderness Study area. This area is part 
and parcel of the larger Snowcrest Wilderness and provides one of the 
major trailheads leading into the proposed Snowcrest Wilderness and 
should be included as part of the Snowcrest Wilderness.
    I fully support the 18,950 acre proposed additions to the Lee 
Metcalf Wilderness.
    Straddling the Continental Divide west of Henry's Lake, Idaho, the 
82,000 Centennial Mountains Proposed Wilderness (much of this acreage 
is in. Idaho) is one of the few east-west running mountain masses in 
Montana, making it an important corridor and connector between the 
Greater Yellowstone Ecosystem and Central Idaho wildlands to the west. 
S. 1470 only proposes protecting 23,256 acres. Grizzly bears have been 
reported expanding into this area in recent years. I',1k and moose both 
migrate out of the Gravelly Range and Snowcrest Range across the 
Centennial Valley and often winter on the southern slopes of the range. 
Protecting the Centennials would help preserve these migration 
corridors.
    Most of the range on the Montana side of the border is managed by 
the BLM which has identified a 27,000 wilderness study area in the 
central portion of the range. Aspen is abundant here, and the valleys 
are surprisingly lush.
    A small subset of the Centennial Range is the Mount Jefferson 
proposed wilderness. Mount Jefferson is managed by the BDNF. The 
proposed wilderness is 4,465 acres. The area includes a spectacular 
cirque as well as the headwaters of I Icllroaring Creek, an important 
sprawning area for the endangered Arctic grayling. Wolverine use of 
this area has been documented. Increasing snowmobile activity threatens 
the wolverine.
    The 77,000 acre Quigg Peak roadless area lies along Rock Creek. a 
tributary of the Clark Fork River and one of Montana's blue ribbon 
trout streams. It harbors excellent wildlife habitat for elk and deer, 
plus has several small trout streams including Butte Cabin Creek. Only 
8,388 area recommended for wilderness, primarily because most of the 
acreage lies on the Lobo NF. The entire roadless area should be 
designated as wilderness irrespective of national forest administrative 
boundaries.
    South of Welcome Creek in the Sapphire Range is the 103,000 acre 
Stony Mountain Proposed Wilderness including headwater tributaries to 
Rock Creek. Yet only 14,261 acres are proposed as wilderness in S.1470. 
The entire 100,000 acre plus roadless area should be designated 
wilderness irrespective of administrative boundaries.
    Continuing south of Skalkaho Pass in the Sapphire Range is another 
5,393 wilderness study area, the 116,000 acre Sapphire Mountain 
Proposed Wilderness. The highest point is 9,000 foot, Kent Peak. The 
Sapphire Mountain WSA is a critical link in the Sapphire/Rock Creek 
Wildlands corridor that leads to the Big Hole Valley further south. The 
Sapphire Mountain WSA is also immediately adjacent to the existing 
Anaconda Pintler Wilderness, and the combined acreage of 350,000 acres 
makes it the fourth largest continuous roadless area in Montana. S.1470 
only proposes 53,327 acres as wilderness, again largely because part of 
the roadless areas lies on the Bitterroot NF. The entire roadless area 
should be given protection in S. 1470.
    Another major tributary of the Clark Fork is Flint Creek. The Flint 
Creek Range south of Deer Lodge and east of Phillipsburg contains 
glacier-scoured. 10,000 foot peaks, cirque lakes and a 60,000 acre 
proposed wilderness. S. 1470 only proposes a 9,367 acre Dolus Lakes 
Wilderness. This area should be expanded to include more of the 60,000 
acre roadless areas.
Other Provisions of S.1470
    I also support the proposed road density limits in the bill as the 
maximum that should be permitted. In many areas, especially where 
sensitive wildlife like grizzly bear are found, road densities should 
be limited to no more than one mile per section. Any computation of 
roads must include any trails accessed by motorized vehicles including 
ORVs and snowmobiles.
    The bill also designates several hundred thousand acres of National 
Recreation Areas in the West Big Hole, West Pioneers, Northwest Peaks 
(Yaak), Thunderbolt near Helena and elsewhere. In some cases, there is 
a core ``wilderness'' component. For instance, in the West Big Hole, 
the Tester bill creates two small wilderness areas surrounded by the 
larger NRA and the same for the West Pioneers.
    I oppose these NRA designations, and advocate for wilderness 
designations for all areas. In particular, the West Pioneers is already 
protected under S. 393 and unless the bulk of this area were designated 
wilderness, I believe it is better off remaining under S. 393 
protection.
    If no changes occur in the NRA acreage than at a minimum all should 
have a specific provision banning logging, including the West Big Hole 
area.
    There are other parts of the bill that call for restoration of 
natural lire regimes, removal of roads and culverts, and so forth that 
will improve the ecological integrity of the areas affected. The bill's 
language also directs the Forest Service to prioritize logging projects 
in areas where road densities exceed 1.5 mile of road per square mile 
of habitat, where habitat fragmentation is greatest, and so on. This 
directive, if followed, should focus logging in areas already degraded 
by past logging practices and is a positive aspect of the bill. 
(However, the mandated treatment of 100,000 acres of land is 
problematic--more on this later.)
                           potential problems
    Beyond the issue of how this bill was created. there are aspects of 
the bill that deserve additional scrutiny. I make no claims that I am 
expert on the bill, though I have read through in an attempt to 
understand it. I may be misinterpreting things or overlooking 
provisions that would mollify some of my concerns.
    One of the problems with the bill is that while it establishes new 
wilderness areas, it releases a lot of currently protected acreage to 
potential new development. For instance, the bill specifically releases 
76,000 acres of BLM WSAs. WSAs are supposed to be managed to protect 
wildlands values, so their release means they could be logged, opened 
up for more ORV use, or leased for oil and gas development. I've hiked 
some of these released areas like Hidden Pasture and Bell/Lime Kiln 
Canyon WSAs south of Dillon, and they are wonderful open. rolling 
grasslands with pockets of timber that are not common in our wilderness 
system. At the very least, I would prefer to see that all the BLM WSA 
not designated as wilderness remain as WSA instead of released for 
development.
National Recreation Areas
    I previously noted that the Tester bill releases a significant 
acreage of the S.393 areas legislated by Senator Lee Metcalf efforts. 
For instance, the West Pioneers Wilderness Study Area set aside by the 
1977 legislation is one of the largest unprotected roadless areas in 
Montana. Yet the Tester bill only designates slightly less than 26,000 
acres as wilderness. Much of the remainder of this area is a proposed 
129,000 acre National Recreation Area that would exclude logging. but 
losing more than 129,000 of WSA is very significant. The reason given 
to me for NRA status, as opposed to wilderness designation has been the 
gradual invasion of these lands by motorized usage. Nevertheless, there 
is no reason why ORV trails and routes can't be closed and wilderness 
established in this area. Wilderness designation for the entire West 
Pioneers WSA would be a huge improvement.
    It is also disappointing to see 94,000 acres of the West Big Hole 
designated as an NRA as well instead of wilderness. This spectacular 
area along the Continental Divide with its numerous cirque lakes, 
jagged, glaciated peaks, and numerous wildflower studded meadows easily 
qualifies as wilderness. It's location along the Continental Divide 
makes it a potential migration corridor for wildlife. Several lakes 
including Miner Lake have genetically unique populations of lake trout, 
as well as headwaters spawning habitat for threatened Arctic grayling.
    I have the same disappointment over NRA status for wildlands in the 
Yaak. The Northwest Peaks NRA was created again as a concession 
primarily to snowmobilers. There is so little wilderness in the Yaak 
and what little unlogged country that remains should he given maximum 
protection afforded by wilderness. Rare species like wolverine, lynx, 
and fisher could be compromised by motorized intrusions. Protection of 
these areas from all motorized use would give these animals some chance 
of sustaining themselves over the long term in the Yaak drainage.
Logging Provisions of the Bill
    How much logging and where it can occur will be greatly influenced 
by the interpretation of one clause in the bill. There is specific 
language that says that all landscape-scale restoration projects (i.e. 
logging) must be done ``consistent with laws (including regulations) 
and forest plans and appropriate to the forest type.'' Proponents tell 
me this means that laws like the Endangered Species Act remain in 
force.
    However, others who have reviewed the same language aren't so sure 
that language is sufficient to guarantee that all existing 
environmental laws like the ESA applies to the landscape restoration 
projects mandated by the Tester hill. This is a key element because if 
the specific mandate for logging a minimum of a hundred thousand acres 
can override things like the ESA or other regulations, there is 
potential for greater long-term harm to our wildlands and wildlife.
    If there is room for different interpretations, it is critical to 
get specific language in the bill that leaves no doubt about the 
application of the ESA, roadless rule, and so on to the forest lands 
covered in the Tester bill.
    Another part of Tester's bill bans the construction of any 
permanent roads in project areas, and requires that all ``access 
roads'' (logging roads) be reclaimed in five years and specifically 
requires restoration of road prism and removal of road crossings like 
culverts. This is a very good provision--if you are going to have 
logging at all and I applaud the proponents of the bill for putting in 
such specific language about road removal standards.
    However, the language does allow for roads to be converted into ORV 
trails. So there is the potential for creation of miles of new ORV 
trails that would greatly reduce any positive effect from road closure 
(though road density limits will temper the total mileage allowed to a 
degree).
    One serious and worrisome language is about consultation. The bill 
says that any dispute and/or appeal be resolved in the project area. 
This, if I read it correctly, could means that someone protesting a 
timber sale from eastern Montana might have to travel to the Yaak to 
settle a dispute, a cumbersome burden on appellants, not to mention 
someone living across the country. This could thwart public 
participation in forest management.
    Moreover the language says that the parities who were involved in 
crafting the original proposals--meaning the timber companies and 
other--can provide input to the Forest Service, but does not guarantee 
similar input access from other members of the public. Again such a 
provision gives greater control and influence to local interests over 
the general public.
    Another problem is the language for restoration on the BDNF. While 
any receipts from timber projects in the Blackfoot and Three Rivers 
areas must be used in that local area, receipts from the BDNF could be 
used anyplace in the country. This is a serious potential problem 
because the Forest Service might be tempted to expand logging on the 
BDNF to pay for improvements on other forests.
    Furthermore, the money from these stewardship contracts can be used 
for things like putting in new toilets in campgrounds and picnic 
tables, as well as commercial timber harvesting, instead of removing 
logging roads and culverts as commonly portrayed by proponents. This is 
not to say that all funds will be used in this way, but the language 
does permit funds to be used in this manner. Given that closing roads 
is far more controversial, than say building some toilets or picnic 
tables in a campground, some district rangers might be tempted to use 
funds for such non-ecological ``restoration'' work.
    The bill also authorizes a MINIMUM of 7,000 a year must be 
``mechanically treated'' (euphemism for logging) and a MINIMUM of 3,000 
acres a year on the Three Rivers Ranger District in the Yaak. 
Thankfully there is no acreage requirement for the Seeley Lake District 
on the Lolo NF. That suggests to me there is no upper limit on logging 
that could occur as now written. Though proponents assure me that it's 
unlikely the Forest Service will offer more acres for logging, one 
can't predict the future.
    An additional troubling clause says the authorization for the 
legislation terminates in either 15 years from enactment OR when 70,000 
acres of land on the BDNF has been mechanically treated. The same 
clause applies to the 30,000 acres in the Yaak. This suggests that 
there is no real time limit on logging. If timber prices remain low for 
a decade, logging companies may wish to delay logging for years until 
prices improve.
    And while the legislation mandates a specific amount of logging, 
there is no similar mandate for restoration. If the past is any 
indication. logging will occur, but much of the restoration will he not 
take place. This is particularly true for the BDNF. The BDNF is one of 
the least productive forests in Montana, and has consistently lost 
money on its timber program. Flow timber sales on the BDNF will 
generate enough money to pay for both the administrative costs as well 
as restoration efforts is not clear.
    A minor issue is a provision specific to the proposed Snowcrest 
Wilderness that says that ranchers can use motorized access to preserve 
``historic access'' ranching activities. T presume cowboys no longer 
ride horses, so must now be able to ride ATVs or pickups.
    While the bill authorizes wilderness protection for a Quigg Peak 
and Sapphires, it only addresses lands on the BDNF portion of these 
roadless areas. It would seem to make sense to designate wilderness for 
the entire roadless portion of these areas now, in-espective of 
national forest administrative boundaries.
    With regards to motorized use, the bill specifically directs the 
Forest Service to create new trails. particularly loop trails. How much 
this will expand motorized use in these areas is difficult to predict, 
but almost for sure, we will see more officially sanctioned ORV use. 
There is, however, specific language that limits ORV use in National 
Recreation Areas to designated trails and routes.
             uncharacteristic fire and insect infectations?
    Another big problem I have with the hills language is that it 
suggests that most of the forests in the northern Rockies are 
ecologically degraded. Tester's bill says that logging should he done 
to reduce ``uncharacteristic wildland fire and insect infestations.'' 
For the most part, except for areas that have been previously logged. I 
do not believe that the hulk of the forests in any of the forests 
addressed in this bill are seriously out of whack ecologically.
    Some 99% of the BDNF, for instance, consists of higher elevation 
forests of lodgepole pine and other forest types that have not been 
significantly compromised by fire suppression. Lodgepole pine forests 
naturally burn at long intervals and often in intense large fires arid/
or are periodically attacked by bark beetles. Similarly much of the 
Yaak drainage on the Kootenai NF and the Seeley Lake District of the 
Lolo National Forest consists of lodgepole pine, subalpine fir, western 
larch and even western red cedar forests--all of which are not 
seriously affected by fire suppression.
    Plus large fires and beetle outbreaks are critical to the long-term 
health of these forest ecosystems. They are adapted and depended upon 
periodic large infusions of dead wood. So I have serious reservations 
about the ecological assumptions and justifications guiding these 
projects. In other words, how can you ``restore'' something that is not 
seriously degraded? Thus the entire ecological justification for active 
management in these forests is suspect.
Subsidies to Timber Industry
    Another part of the Tester bill that I have a philosophical problem 
with is the direct subsidy of private companies. For instance, the 
public subsidy of a biomass burner for the Pyramid Lumber Company in 
Seeley Lake is one example. The justification for this biomass burner 
is partially due to the previous assumptions--that somehow the Pyramid 
Lumber Company will be doing us a favor by cutting all those trees that 
they suggest have grown due to fire suppression. But as I have 
previously suggested, most of the forests in the Seeley Lake area are 
likely not out of whack. But even if they were, setting a demand for 
biomass is risky and can lead to additional demands for logging well 
above the levels envisioned by proponents. We would be better off 
spending that money--if taxpayer money be spent-on closing roads and 
other actions that.
    There are good things in Senator Tester's bill worthy of support. 
But there is much that needs to be altered or at least modified to 
improve this legislation by the bill's supporters as well as critics 
alike if indeed this bill moves forward.
                                 ______
                                 
                              Lewis & Clark County,
                             Board of County Commissioners,
                                       Helena, MT, October 5, 2009.
Hon. Secretary of Agriculture Tom Vilsack,
1400 Independence Ave, SW, Washington DC.
    Dear Secretary Vilsack: We urge you and the administration to 
strongly support S. 1470, the Forest Jobs and Recreation Act, 
introduced by Senator Jon Tester in July.
    We need to get past the gridlock that has plagued forest management 
for so many years. We need to have jobs in the woods, restore our best 
fisheries and wildlife habitat, address fire risk, protect our best 
backcountry as wilderness for fishing, hunting, and clean water, and 
make sure that there is room for diverse forms of recreation, including 
motorized use and mountain bikes.
    The overall objectives of this bill are to:

  <bullet> Create Jobs: Members of the timber industry strongly support 
        this bill because they believe it will help the industry 
        survive and prosper.
  <bullet> Improve Forest Health: The bill is focused on addressing 
        issues related to the health of our forests, from beetle 
        outbreaks to impaired fish habitat.
  <bullet> Protect Our Best Fishing, Hunting, and Clean Water: The 
        Forest Jobs and Recreation Act is good for fishing and hunting, 
        by protecting as wilderness key wildlife and fisheries 
        habitats, and other deserving wild places.
  <bullet> Protect Recreation Opportunities:The bill protects popular 
        areas for motorized and mountain bike recreation on public 
        lands.

    The legislation is in part based on several local collaborative 
efforts around the state that we have been following for several years. 
These efforts have brought diverse Montana citizens and groups together 
to find a better way to manage our national forests. Although our 
commissions have not yet formally endorsed the FJRA, we have endorsed 
one or more of the underlying collaborative projects.
    As individual commissioners, we strongly believe that these 
collaborative efforts strongly benefit the residents of our respective 
counties, because they represent the type of cooperation among 
different and diverse stakeholders that we need to solve many of the 
serious problems on the public lands within our boundaries.
    We all see the promise that the Forest Jobs and Recreation Act 
holds for all of us who govern in counties with national forest lands.
            Sincerely,
                                           Andy Hunthausen,
                                                          Chairman.
                                               Mike Murray.
                                               Derek Brown.
                                 ______
                                 
                     Board of County Commissioners,
                                            Lincoln County,
                                      Libby, MT, December 16, 2009.
Hon. Jon Tester,
Washington, DC.
    Dear Senator Tester: The Lincoln County Board of Commissioners 
supports your efforts of leadership by introducing and moving forward 
with a Forest Jobs and Recreation Act legislation.
    The Three Rivers Challenge project in Lincoln County is a similar 
local effort to accomplish comparable goals such as job creation and 
recreational opportunities through a collaborative effort with all 
sides of the federal land management debate.
    We believe that your bill needs to move forward out of committee to 
allow further discussion of the bill language. As with any legislation, 
some changes will need to be addressed during further debate of these 
important issues.
    It is very important to our residents that this bill move forward 
to see If efforts like ours work and change the way things are done on 
the National Forest.
            Sincerely,
                                            John C. Konzen,
                                                          Chairman.
                                         Marianne B. Roose,
                                                            Member.
                                         Anthony J. Berget,
                                                            Member.
                                 ______
                                 
                     Board of County Commissioners,
                                           Missoula County,
                                   Missoula, MT, Nobember 23, 2009.
Hon. Jon Tester,
U.S. Senate, 204 Russell Senate Office Building, Washington, DC.
RE:Forest Jobs and Recreation Act

    Dear Senator Tester: The Missoula Board of County Commissioners 
wishes to express our support for the proposed Forest Jobs and 
Recreation Bill announced in July 2009. As we understand. it, the bill 
is based on three different collaborative projects in Western Montana: 
the Beaverhead Deeriodge Partnership; Three Rivers Challenge; and the 
Blackfoot/Clearwater Stewardship Project. We commend your support of 
these collaborative efforts, which include conservation, timber, small 
business and outdoor recreation interests. This legislation will codify 
a positive new approach to resolving public lands management conflicts 
based on compromise and collaboration. We are pleased to see a proposal 
that will move our communities forward in timber management, 
restoration, building local jobs, and protecting both wild and 
recreation areas.
    The bill supports a stewardship approach to forest management. It 
will require watershed restoration projects such as road 
decommissioning and stream restoration, all funded by the receipts of 
logging projects within each stewardship area. This approach creates 
well-paying jobs for local residents, as well as healthier forests.
    In Missoula County, the bill proposes new wilderness and forest 
stewardship areas in accordance with the Blackfoot Clearwater 
Stewardship Project, a multi-year project brought forward by a 
coalition of conservation, timber, small business and outdoor groups. 
The process for developing this project had support and input from 
local residents and business owners, local government, Forest Service, 
and regional and national conservation groups. We particularly want to 
note our appreciation for Seeley Lake District Ranger Tim Love's active 
and beneficial participation in this landmark stewardship project. We 
also appreciate that the proposed legislation authorizes a federal 
cost-share program for investment in biomass energy technology. This 
could provide significant funding assistance for Pyramid Mountain 
Lumber in Seeley Lake to create a biomass plant, which would serve as 
an outlet for excess forest products from all over Western Montana.
    After 26 years without new wilderness in Montana, and with so many 
acres of Wilderness Study Areas left in limbo, this proposal designates 
670,000 acres of wilderness, protecting important landscapes for 
current and future Montana residents and visitors. The creation of 
these new wilderness areas is balanced with designation of recreation 
areas and timber management areas, resulting in more certainty for all 
interests.
    We agree that this legislation is important enough to Montanans and 
the nation that it be thoroughly vetted as it moves forward. We applaud 
and encourage your efforts to listen to all concerns regarding this 
bill. This legislation reflects a growing interest in western Montana 
for collaborative resolution of multiple-use conflicts on public lands. 
The components of this legislation are precedent setting for other 
efforts in the future. We see this bill as a positive step in the right 
direction and encourage your continued diligent work on the following 
issues:

  <bullet> The bill stipulates that current federal laws, like the 
        National Forest Management Act and the Endangered Species Act, 
        will govern the management of these forest stewardship projects 
        and any harvest or restoration activity that occurs. We share 
        the concern with many that the timeframes stipulated for the 
        Forest Service to complete the requirements of these laws are 
        unrealistic and not feasible under current conditions. We urge 
        you to continue your good work with the Forest Service to find 
        mutually agreeable solutions to these issues that are more 
        realistic and achievable.
  <bullet> There are a number of exceptions to what has become 
        ``boilerplate'' language in Wilderness protection. Your bill 
        includes notable allowances for motorized use, landing of 
        aircraft and military operations in Wilderness. We understand 
        that in this case, these exceptions are efforts at compromise 
        and allowance of existing uses. However, these exceptions 
        contradict the intent of Wilderness and could be erosive to 
        wilderness protections. We hope these exceptions can be 
        minimized, if not eliminated, and specifically spelled out to 
        restrict exceptions to only the intended allowances on 
        specifically designated acres.
  <bullet> We thank you for working to recently extend the Secure Rural 
        Schools (SRS) Act, which originally expired in 2008, but will 
        now continue to provide critical funding to several Montana 
        counties until 2011. Many are concerned that if SRS is not 
        again extended in 2011, rural schools, roads and other 
        infrastructure will suffer a significant decrease in funding. 
        Before SRS was enacted in 2002, counties that encompassed large 
        amounts of federal lands relied on 25% of the receipts of 
        federal timber sales as stipulated by the PILT (Payment In Lieu 
        of Taxes) program. Counties are concerned that the stewardship 
        contracting stipulated in your Forest Jobs and Recreation Bill 
        will further erode the PILT funding we have relied upon in the 
        past. We recognize this concern, but see it as a broader issue, 
        separate from your Forest Jobs and Recreation Bill. We have 
        also seen that funding from the PILT program can be variable 
        and unreliable in some cases because it is dependent upon 
        forest project receipts. It seems that the best approach to 
        supporting the economic needs of rural areas would include the 
        continued funding assistance of SRS, plus the local jobs 
        created by your bill, which together would create multiple 
        benefits for our rural communities. Your continued efforts to 
        communicate your intentions with SRS and other rural funding 
        solutions in the future may help clarify and alleviate these 
        concerns.

    In light of these matters and those brought forward by others, 
please continue your commendable efforts at compromise and cooperation 
with land management agencies, local businesses, conservation 
interests, and outdoor recreation groups as you gather feedback on this 
bill. We also encourage you to support future similar, collaborative 
efforts to create jobs and support healthy forests and landscapes while 
concurrently protecting our( valuable conservation resources.
    Thank you for your efforts to balance wildiands, working forests, 
recreational opportunities, restored watersheds and economic 
enhancement with this proposal. We believe that the collaborative 
efforts of the Beaverhead Deerlodge Partnership, Three Rivers Challenge 
and the Blackfoot/Clearwater Stewardship Project are. commendable and 
worthy of implementation through national legislation. Thank you for 
bringing this bill forward.
            Sincerely,
                                                Bill Carey,
                                                             Chair.
                                              Jean Curtiss,
                                                      Commissioner.
                                         Michele Landquist,
                                                      Commissioner.
                                 ______
                                 
       Statement of Pat Williams, Former Congressman From Montana
    Senators: I am Pat Williams, Montana's member of the U.S. House 
from 1979 to 1997. Serving all 18 years on the House Interior (Natural 
Resource) Committee and the Public Lands Subcommittee, I became very 
familiar with the imperative of concluding the old RARE 11 and 
designating Wilderness in Montana.
    Between 1979 and 1997 I introduced 18 Wilderness bills to achieve 
those ends. Two of those bills passed and were signed into law, however 
both of those bills designated only single wilderness areas: The Lee 
Metcalf Wilderness north of Yellowstone Park and the Rattlesnake 
Wilderness near Missoula, Montana and south of Glacier National Park. 
However, my and our Delegation's efforts to pass some of the Roadless, 
RARE 11 areas into law failed. The sole exception was a major Montana 
Wilderness bill that passed both the Senate and House in 1988 but was 
tragically vetoed by President Reagan...the only veto of a Wilderness 
bill in American history.
    The legislation before you marks the first congressional effort in 
14 years to see a Montana Wilderness bill through the Congress. Good 
for Senator Jon Tester! Please give this critically important 
legislation every consideration. It just might he the last best chance 
for this Last Best Place.
    This legislation is in keeping with the now fifteen-year-old 
congressional process of developing Wilderness bills though local 
collaboration. In my view that relatively new process is far from 
perfect, encouraging, as it has, both the benefits and imperfections of 
local passions....be they economic, recreation, or preservation.
    Senator Tester, relying on the process of local collaboration, 
really has sought to make this legislation as appealing as he can to 
various local constituencies. So, as has so often happened during these 
past fifteen years, the members of this committee may find some 
precedents and exceptions within this bill. As you are very well aware 
they exist, as they have in virtually every Wilderness bill, to 
increase the palatability of the legislation to the various issue 
constituencies within our state. These locally demanded exceptions are, 
for the most part, necessary to preserve the popular balance that the 
bill currently enjoys here in Montana. So, please be as careful with 
amendments on this legislation as I know you have been with others 
recently seen into law.
    I could make several suggestions to improve this legislation, 
however I confine myself to one: the limited logging in this bill is 
mandated; please do the same with the landscape restoration suggested 
by the bill...mandate that too. Such an amendment will not only be 
excellent for the economy and a remedy for scarred land but it will 
also significantly increase the already significant support for the 
legislation.
                                 ______
                                 
                            Office of the Governor,
                                          State of Montana,
                                     Helena, MT, December 17, 2009.
Hon. Senator Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Honorable Chairman Wyden and Members of the Subcommittee: I 
appreciate the opportunity to submit comments on Senator Tester's S. 
1470, known as the Forest Jobs and Recreation Act of 2009. Senator 
Tester has attempted to enact the work of a wide variety of Montanans 
to create jobs in Montana's forests, keep communities safe from 
wildfire, protect public water supplies, and safeguard Montana's 
hunting, camping, fishing, motorized, and quiet backcountry 
recreational traditions.
    Like most Montanans, lam frustrated that we have millions of acres 
of dead and dying trees in our national forests, yet we haven't been 
able to harvest much of this timber for forest health purposes, vital 
wood products, or biomass energy production right here at home. 
Furthermore, we expend great resources and struggle mightily to protect 
our communities from the wildfire risk this situation presents.
    I support S. 1470. For decades, in Montana and much of the West, 
the debate over federal forest management has been controlled by the 
extremes. People poked fingers at each other while the health of our 
forests declined, and Montana and other states continued to lose 
sawmills and jobs. Several Western states lost completely their forest 
industry infrastructure. I am grateful that Senator Tester is not 
willing to sit idly while Montana loses what remains of its critical 
forest industry infrastructure. This legislation begins to move us 
beyond these tired fights of the past.
    Montanans from the area encompassed by the Beaverhead-Deerlodge 
National Forest, from the Seeley Lake area, and from the Yaak Valley 
have stepped forward to offer their solutions in S. 1470. These citizen 
groups have worked long and hard to build consensu s in their 
communities, and have taken their case to statewide and now nationwide 
audiences. Senator Tester has worked very hard to craft a good 
compromise in S. 1470, and it has received widespread support from 
those who seek reasonable solutions. Absolutists on both extremes who 
are willing to sacrifice the good in a quest for their conception of 
the perfect are likely to continue with the disappointment and lost 
opportunities of the last several decades.
    Once again, I thank you for the opportunity to comment on this 
important legislation. I urge your support of S. 1470.
            Sincerely,
                                          Brian Schweitzer,
                                                          Governor.
                                 ______
                                 
          House of Representatives of the State of Montana,
                        Office of the Speaker of the House,
                                                        Helena, MT.
Hon. Secretary of Agriculture Tom Vilsack,
1400 Independence Ave, SW, Washington, DC.
    Dear Secretary Vilsack: We urge you and the administration to 
strongly support S. 1470, the Forest Jobs and Recreation Act, 
introduced by Senator Jon Tester in July.
    We need to get past the gridlock that has plagued forest management 
for so many years. As lawmakers, we are keenly aware that the best 
policy initiatives on issues as inherently divisive as forest 
management require support of diverse backgrounds. We need to have jobs 
in the woods, restore our best fisheries and wildlife habitat, address 
fire risk, protect our best backcountry as wilderness for fishing, 
hunting, and clean water, and make sure that there is room for diverse 
forms of recreation, including motorized use and mountain bikes.
    The overall objectives of this bill are to:

  <bullet> Create Jobs: Members of the timber industry strongly support 
        this bill because they believe it will help the industry 
        survive and prosper.
  <bullet> Improve Forest Health: The bill is focused on addressing 
        issues related to the health of our forests, from beetle 
        outbreaks to impaired fish habitat.
  <bullet> Protect Our Best Fishing, Hunting, and Clean Water: The 
        Forest Jobs and Recreation Act is good for fishing and hunting, 
        by protecting as wilderness key wildlife and fisheries 
        habitats, and other deserving wild places
  <bullet> Protect Recreation Opportunities: The bill protects popular 
        areas for motorized and mountain bike recreation on public 
        lands.

    Healthy forests are a huge issue in Montana right now. Many folks 
across the state need only to look out their back window to see dead 
and dying forests. The stewardship contracting component of the bill 
will insure a reinvestment in local forests and thoses dollars coming 
back to Montana can be used for such things as protecting local 
communities from catastrophic wildfire.
    The legislation is in part based on several local collaborative 
efforts around the state that we have been following for several years. 
These efforts have brought diverse Montana citizens and groups together 
to find a better way to manage our national forests.
    As individual state legislators and leaders in our respective 
communities, we strongly believe that these collaborative efforts 
strongly benefit our constituents because they represent the type of 
cooperation among different and diverse stakeholders that we need to 
solve many of the serious problems on the public lands within our 
boundaries.
    We all see the promise that the Forest Jobs and Recreation Act 
holds for all of us who govern in counties with national forest lands.
            Sincerely,
                       Sen. Minority Leader Carol Williams,
                                                          Missoula.
                                 House Speaker Bob Bergren,
                                                             Havre.

    [Due to the long list of names, other signatories have been 
retained in subcommittee files.]
                                 ______
                                 
 Statement of Rick Deniger, President, and Russ Ehnes, Vice President, 
 Montana Trail Vehicle Riders Association (MTVRA), Great Falls, MT, on 
                                S. 1470
    Mr. Chairman and Members of the Subcommittee:
    The Montana Trail Vehicle Riders Association (MTVRA) represents a 
mix of single, family, and business members as well as local OHV clubs 
and associations in Montana supporting responsible OHV use. MTVRA 
believes in fair, balanced and equitable solutions to the ongoing loss 
of OHV opportunities. Our members live and work in Montana and recreate 
on public and on a regular basis. They participate in local and state 
sponsored trail maintenance projects and have served as willing and 
committed partners to the Forest Service districts in their local 
areas. MTVRA is recognized by State and Federal agencies as the state 
association representing off highway recreationists in Montana.
    MTVRA actively works to educate the public about good ethics and 
the responsible use of motorized vehicles on public and private lands. 
We believe in shared, multiple-use of public lands, with a reasonable 
balance between the protection of natural resources and maintaining a 
variety of opportunities currently available to the people of Montana. 
The families and diverse groups of visitors to public lands are one of 
Montana's most valuable resources and thus deserve recognition and 
consideration when adopting rules and legislation governing the use of 
our public lands.
    MTVRA appreciates the opportunity to offer the following comments 
on Senator Testers S. 1470 ``Forest Jobs and Recreation Act of 2009''.
    MTVRA does not support the designation of more Wilderness Areas in 
Montana. We firmly believe the current designated acres are sufficient. 
However, we also believe that Senator Tester is sincere in his belief 
that this bill would permanently protect wild lands in Montana and 
protect motorized recreational opportunities in the 
BeaverheadDeerlodge, Lobo and Kootenai National Forests.
    We are concerned that the language assigning areas and trails as 
open to motorized use leaves them vulnerable to future closures through 
the various existing planning processes of the US Forest Service. Based 
on actions and decisions completed the past few years, MTVRA does not 
trust the Forest Service process to support the Senator's intent to 
provide and protect motorized recreation in the lands affected by S. 
1470.
    MTVRA has had several meetings and conversations with Senator 
Tester's staff suggesting changes to the language to assure the intent 
of this legislation is conveyed in the language of the S--1470. The 
Senator and his staff have welcomed our suggestions. We are working on 
those suggested language changes as well as important boundary 
adjustments but they have not yet been delivered as the areas and 
trails affected by S. 1470 are vast and requires close examination, 
with trail by trail evaluation to assure the on the ground'' facts 
agree with the maps and proposed intent of the bill. We hope to be able 
to provide this information to Senator Tester soon.
    We appreciate the opportunity to comment on S. 1470 and while we do 
not support the designation of additional Wilderness in Montana, we do 
appreciate to opportunity to be involved in the discussion and the 
democratic process.
    Thank you for your time and attention to this comment.
                                 ______
                                 
                               Powell County Commissioners,
                                 Deer Lodge, MT, December 14, 2009.
Hon. Jeff Bingaman,
Chairman, U.S. Senate Committee on Energy and Natural Resources, 304 
        Dirksen Office Building, Washington DC.
    Dear Honorable Chairman Jeff Bingaman: The Powell County 
Commissioners urge you and the administration to strongly support 
S.1470, the Forest Jobs and Recreation Act, introduced by Senator Jon 
Tester in July.
    We believe gridlock has plagued proper forest management for many 
years resulting in the forest service not being able to properly manage 
our public forests. The results are very apparent in the millions of 
acres of dead and dying trees, catastrophic fires, loss of grazing for 
wildlife and impaired habitat for fish, not to mention loss of areas 
available for recreationists. The overall objectives of this bill are 
to:

  <bullet> Create Jobs: Members of the timber industry strongly support 
        this bill because they believe it will help the industry 
        survive and prosper.
  <bullet> Improved Forest Health: The bill is focused on addressing 
        issues related to the health of our forests, from beetle 
        outbreaks to impaired fish habitat.
  <bullet> Protect Our Best Fishing, Hunting and Clean Water: The 
        Forest Jobs and Recreation Act is good for fishing and hunting, 
        by protecting as wilderness key wildlife and fisheries 
        habitats, and other deserving wild places.
  <bullet> Protect Recreation Opportunities: The bill protects popular 
        areas for motorized and mountain bike recreation on public 
        lands.

    The legislation is in part based on several local collaborative 
efforts around the state that we have been following for several years. 
These efforts have brought diverse Montana citizens and groups together 
to find a better way to manage our national forests. Powell County 
Commissioners have formally endorsed the FJRA S1470.
    We strongly believe that these collaborative efforts strongly 
benefit the residents of our county. This bill represents the type of 
cooperation among different and diverse stakeholders.
    We all see the promise that the Forest Jobs and Recreation Act 
holds for all of us who govern in counties with national forest lands.
            Sincerely,
                                      Ralph E. Mannix, Jr.,
                                                          Chairman.
                                               Donna Young,
                                                     Vice-chairman.
                                                Cele Pohle,
                                                            Member.
                                 ______
                                 
   Statement of James A. Burchfield, Interim Dean, the University of 
    Montana, College of Forestry and Conservation/Montana Forest & 
             Conservation Experiment Station, Missoula, MT
    I was honored to be asked by Senator Jon Tester earlier this week 
to provide brief written testimony on the Forests Jobs and Recreation 
Act of 2009. I support this legislation and urge affirmative support 
from your subcommittee to enact this important bill into law.
    I support the bill because it is a measured, pragmatic step to 
advance forest planning on our National Forests. As you are all too 
aware, forest planning across the West has been mired in unproductive, 
small-bore struggles over a host of specific project proposals, masking 
the deep-seated policy conflicts over the purposes of public lands. The 
Forest Jobs and Recreation Act advances forest planning by 
demonstrating a new form of collaborative engagement between citizens 
and agency personnel based in common interests, thoughtful 
deliberations, and a goal of stewardship that melds resource protection 
with economic benefits.
    I cannot stress enough, however, that the Forests Jobs and 
Recreation Act is but a first step in reforming the planning and 
management of our National Forests so these lands can offer the full 
range of benefits to the American people. I view this legislation as a 
pilot project that will demonstrate, much like an experiment, the 
available, constructive tools to engage public interests with 
scientists and resource management professionals. This Act must be 
coupled with a larger, Congressional effort to examine the policy 
conflicts and operational barriers to the effective management of 
public lands. Planning on our National Forests is broken, and the 
vision of the National Forest Management Act (NFMA) has not been 
fulfilled. Serious steps must be taken to support the USDA Forest 
Service to reconstruct its capacity to undertake open, adaptive, and 
efficient forest planning processes. The beauty of the Forest Jobs and 
Recreation Act is that it reflects this type of process, and it builds 
confidence among citizens that seemingly intractable differences can be 
reconciled.
    I do not see, however, the Forests Jobs and Recreation Act 
replicated on other National Forests. In fact, I am generally opposed 
to what has been called ``place-based legislation.'' I believe 
legislation mandating specific actions on individual National Forests 
weakens the overall capacity of the Forest Service to provide the 
institutional expertise and analytical power necessary to evaluate 
system conditions, trends, and management impacts, and it generates a 
difficult set of budgetary and administrative constraints that limit 
the agency from doing its job of being effective stewards and 
protectors of our public lands. Yet the case of the Forest Jobs and 
Recreation Act is an exception to the rule. The Act provides a bridge 
to a more vitalized Forest Service that can, with Congressional and the 
Obama Administration's help, develop a new generation of forest plans 
based on recently tested interactive, transparent processes that both 
honor multi-party negotiations and remain flexible to the accelerating 
changes within the forest environment. Further, the social context 
surrounding the Act argues for an immediate response to the stasis in 
forest planning since critical, responsible actors within both industry 
and conservation organizations have broken free of ideological shackles 
to risk these workable compromises. In short, we need a kick in the 
pants to show us that we can get something done. Senator Tester's 
efforts in crafting the Act have given people across this region reason 
to believe that we have buried our hatchets and are willing to try 
something that was created by and for the citizens who care about our 
forests.
    You will note that I have not commented on the specifics of the 
Act, but have urged passage on the general principle of building public 
confidence in our ability to apply collaborative planning processes and 
make progress in the context of ongoing policy controversy. I have made 
comments in a separate communication with Senator Tester's office about 
some items that I think could improve the bill, and most of these 
relate to ensuring that the Act creates learning opportunities from its 
implementation. I am particularly pleased that the Act emphasizes 
stewardship contracting and the formation of Resource Advisory Councils 
(RACs), since these tools allow both ongoing citizen participation and 
a reengagement of the private sector in the design of projects.
    I will restate my overarching concern that this Act must be part of 
a larger Congressional effort to reform National Forest planning. I was 
delighted to see that you and 11 other Senators recently wrote to 
President Obama requesting additional support for the Forest Service 
budget, as this is also a necessary step to energize the capabilities 
of the agency. Like most all of us, I want our National Forests and 
other public lands to remain one of America's best ideas. I want the 
Forest Service reborn as a living example of a responsive agency for 
the public good. I want our students, our families, and our descendents 
to enjoy and benefit from our National Forests, remembering that when 
hard choices needed to be made, we did everything within our power to 
overcome adversity and move forward.
                                 ______
                                 
     Statement of Hon. Dean Heller, U.S. Representative From Nevada
    I would like to start by thanking Chairman Wyden and Ranking Member 
Barrasso for bringing this important piece of legislation before the 
Subcommittee today. I know that you have a full schedule and I 
appreciate the time you have made to consider this legislation, which 
will bring solar energy development and other much needed economic 
development to my district.
    H.R. 762 seeks to validate a configuration change to an existing 
land patent located in Clark and Lincoln Counties in Nevada. This 
legislation is straightforward, non-controversial, and passed the House 
unanimously on July 15th of this year. Validation of this patent is 
necessary to enable to recovery of the desert tortoise which is 
currently listed as an endangered species.
    This legislation has a long history beginning with the Nevada-
Florida Land Exchange Authorization Act of 1988 (ACT), Public Law 100-
275, which authorized the original land exchange between the Unites 
States and Aerojet. Because the lands in question were in a 
configuration that effectively created a doughnut hole of habit 
stranded in the middle, the U.S. Fish and Wildlife Service (FWS) 
requested the Bureau of Land Management (BLM) change the land 
configuration to provide for contiguous desert tortoise habitat. This 
action was allowed, pursuant to the Act, however it led to a stipulated 
settlement from a Federal district court lawsuit involving the BLM and 
landholders.
    H.R. 762 implements that settlement and provides contiguous habitat 
for the benefit and recovery of the desert tortoise, while allowing 
much needed economic and solar energy development to take place in 
Clark and Lincoln Counties.
    I am including for the record letters from the impacted counties, 
Lincoln and Clark, as well as letters from various conservation 
organizations in support of this legislative effort. The broad support 
for this legislation is a result of the common desire to validate the 
patents and leases issued in 2005 by the BLM for the benefit of the 
wildlife values we originally sought to protect.
    Thank you again for your willingness to take up H.R. 762 before the 
Subcommittee today, and I stand ready to assist you in any way to 
ensure passage of this legislation by the Senate. Thank you
                                 ______
                                 
           Broadwater County Board of County Commissioners,
                                    Townsend, MT, October 26, 2009.
Hon. Secretary of Agriculture Tom Vilsack,
1400 Independence Ave, SW, Washington, DC.
    Dear Secretary Vilsack: We strongly urge you and the administration 
to support S. 1470, the Forest Jobs and Recreation Act, introduced by 
Senator Jon Tester in July.
    We need to get past the gridlock that has plagued forest management 
for so many years. As lawmakers, we are keenly aware that the best 
policy initiatives on issues as inherently divisive as forest 
management require support of diverse backgrounds. We need to have jobs 
in the woods, restore our best fisheries and wildlife habitat, address 
fire risk, protect our best backcountry as wilderness for fishing, 
hunting, and clean water, and make sure that there is room for diverse 
forms of recreation, including motorized use and mountain bikes.
    The overall objectives of this bill are to:

  <bullet> Create Jobs: Members of the timber industry strongly support 
        this bill because they believe it will help the industry 
        survive and prosper.
  <bullet> Improve Forest Health: The bill is focused on addressing 
        issues related to the health of our forests, from beetle 
        outbreaks to impaired fish habitat.
  <bullet> Protect Our Best Fishing, Hunting, and Clean Water: The 
        Forest Jobs and Recreation Act is good for fishing and hunting, 
        by protecting as wilderness key wildlife and fisheries 
        habitats, and other deserving wild places
  <bullet> Protect Recreation Opportunities: The bill protects popular 
        areas for motorized and mountain bike recreation on public 
        lands.

    The legislation is in part based on several local collaborative 
efforts around the state that we have been following for several years. 
These efforts have brought diverse Montana citizens and groups together 
to find a better way to manage our national forests. Although our 
commissions have not yet formally endorsed the FJRA, we have endorsed 
one or more of the underlying collaborative projects.
    As individual state commissioners, we strongly believe that these 
collaborative efforts strongly benefit the residents of our respective 
counties, because they represent the type of cooperation among 
different and diverse stakeholders that we need to solve many of the 
serious problems on the public lands within our boundaries.
    We all see the promise that the Forest Jobs and Recreation Act 
holds for all of us who govern in counties with national forest lands.
            Sincerely,
                                            Gail M. Vennes,
                                                          Chairman.
                                 ______
                                 
   Statement of Thomas Michael Power, Research Professor & Professor 
 Emeritus, Economics Department, The University of Montana, Missoula, 
                             MT, on S. 1470
   1. the key assumptions behind senator tester's ``forest jobs and 
                            recreation act''
    Montana's Senator Tester is attempting to cut the Gordian knot that 
has tied up any action on the management of more than six million acres 
of roadless federal land in Montana. He has been praised by some for 
his courage and audacity while others have attacked him for not keeping 
faith with those who elected him and for selling out to one special 
interest group or another.
    One reason for this mixed emotional reaction is that when it comes 
to the public dialogue about forest management there is no common 
agreement about the underlying facts and economic context. Senator 
Tester and his allies are operating from one set of what they believe 
to be factual assumptions while their critics begin with a quite 
different understanding of the facts on the ground.
    What I want to do here is simply outline the conventional wisdom 
from which Senator Tester appears to be operating. That will sound 
familiar, and, to many, convincing, but those assumptions are, in fact, 
highly debatable. In commentaries over the next two months, I will then 
seek to critically explore each of those assumptions before coming to 
any conclusion about whether Senator Tester is actually offering a 
viable solution to the paralysis that has kept a grip on Montana's 
roadless wildlands for more than a quarter of a century.
    The title of Senator Tester's bill makes clear its primary focus: 
forest restoration. The basic assumption is a familiar one: The 
National Forests in Western Montana, as a result of a variety of human 
and non-human causes, are in poor, even dangerous, condition. They 
biologically are well beyond natural and sustainable conditions. As a 
result major human intervention is necessary to move these natural 
landscapes back to a healthy, safe, and sustainable condition. From 
this point of view, we cannot just stop stressing and damaging the 
forests and allow them to rest and recover on their own.
    That is why roadless area or wilderness protection for most of 
these lands will not solve the problems. We have to actively intervene 
with landscape-scale vegetative manipulation, including logging, 
thinning, prescribed burns, etc. Tester's bill seeks to start doing 
exactly that.
    This need to work the forests to move them back to safe and stable 
conditions is also why it is important for the region to maintain a 
functioning forest products industry. Without that, we will not have 
the commercial infrastructure to make use of the logs that need to be 
removed from our forests. Without a significant forest products 
industry, the wood fiber in our forests loses commercial value, and the 
harvest of trees from these unhealthy forests cannot help finance the 
forest restoration work that needs to be done. That is one of the 
reasons Tester's bill seeks to prop up the region's forest products 
industry.
    The other reason that Tester proposes legally mandating the harvest 
of more timber from federal lands is the belief that the economies of 
Western Montana heavily depend on the forest products industry and 
those economies have been disrupted by the inability of the US Forest 
Service to maintain a flow of logs to our mills. Tester's bill seeks to 
solve that problem by mandating a steady annual flow of logs. That, he 
believes, will help save those mills and stabilize our economies.
    Landscape-scale forest restoration of the sort that would be 
mandated by Tester's bill will cost a lot of money, money that the 
federal government does not really have. With existing large federal 
deficits and increasing demands on the federal budget for economic 
recovery, ongoing wars, medical insurance reform, and energy policy, it 
is unlikely that we can count on Congress to appropriate the money to 
fund all of the forest restoration work that we are told needs to be 
done. Senator Tester proposes to get around these funding limitations 
by paying private contractors with the harvest of commercially valuable 
logs to do the needed work. Instead of the US Forest Service selling 
the logs and sending the cash back to the US Treasury, the logs would 
be used to pay for the forest restoration work through what are called 
Stewardship Contracts.
    The approach that Senator Tester has taken in developing his bill 
indicates his solution to the conflict among competing uses of National 
Forest land that has thus far led to paralysis and gridlock. Senator 
Tester relied on having some of the competing interests sit down at the 
table and negotiate in a collaborative manner. That sort of negotiation 
allowed many parties to get part of what they wanted from the National 
Forests, producing what has been called a win-win-win outcome. The idea 
is that these competing uses can be balanced so that the forests can 
simultaneously support an expansion of the timber industry, more off 
road vehicle use, improved wildlife habitat, enhance non-motorized 
recreation, as well as the environmental services provided by natural 
forests and watersheds. Allowing such local and private negotiations 
over the management of our National Forests is seen as an appropriate 
decentralized solution to a broken centralized federal system.
    Finally, the forested landscape of Western Montana is seen as so 
huge that significant timber harvests are possible without doing any 
serious environmental harm. With millions and millions of acres of 
federal forestland available, mandating the annual harvest of ten 
thousand acres or so of trees could not possibly do significant damage 
to the overall forest. In fact, we are told, that mandated logging, 
when carried out as part of a larger forest restoration effort, will 
actually improve the health of the forests.
    As common and familiar as all of these underlying assumptions are, 
they are far from being factual assumptions. They are a mix of folk 
wisdom, economic nostalgia, wishful thinking, and barely disguised 
commercial and bureaucratic government special interests. Before 
jumping onboard with Tester's proposal, each has to be critically 
analyzed.
       2. two views of the tester forest jobs and recreation bill
    The controversy over Senator Tester's Forest Jobs and Recreation 
Bill is likely to get some national attention in a week or so as the 
bill receives its first hearing before the Senate Subcommittee on 
Public Lands and Forests in the our nation's capitol. That bill has 
been called both Tester's ``logging bill'' as well as Tester's 
``wilderness bill.'' Critics point out that the title of the bill 
mentions ``forest jobs'' but does not mention ``wilderness'' at all, 
leaving some suspicion as to what the main purpose of the bill is.
    Wilderness advocates who support the bill point out that the bill 
would add 670,000 acres of wilderness and another 225,000 acres of 
National Recreation Areas where timber harvest will be prohibited. 
That's approaching a million acres of protected land, clearly an 
admirable goal.
    The critics, also wilderness advocates, shake their heads in dismay 
because at the same time that bill appears to open so much roadless 
wild land to potential logging. Consider the Beaverhead-Deerlodge 
National Forest, Montana's largest National Forest. It contains 3.3 
million acres of land, mostly undeveloped, high lodgepole pine forest. 
Forest managers there have classified less than ten percent of that 
land as suitable for commercial timber management. Yet, Tester's bill 
would classify 1.9 million acres of land as ``suitable for timber 
production'' where ``timber harvest is allowed.'' The 500,000 acres of 
new wilderness that Tester's bill would create in the Beaverhead-
Deerlodge National Forest somewhat shrinks in significance compared to 
the area four times as large that appears to be declared open for 
timber harvest. That is especially shocking since the area now declared 
open to logging is over eight times larger than what had previously 
been deemed suitable for timber harvest.
    This may just be the result of bad horse trading and a conscious 
gamble on the part of the collaborative that originally negotiated this 
proposal. The fact is that the vast majority of the Beaverhead-
Deerlodge National Forest is likely to remain unroaded and unlogged 
indefinitely into the future, primarily protected by economics. It is 
far too costly to go after most of the standing inventory of trees 
there and those trees have little commercial value, at least for now.
    Tester's bill actually attempts to steer the logging that the bill 
mandates away from the backcountry and limit it to the already human 
dominated edges of the forest. The bill orders the Forest Service, when 
choosing the lands where the timber harvest is to take place, to give 
``priority'' to lands that already have high densities of roads, have 
already been relatively heavily logged, and contain forests that are at 
high risk for insect epidemics or high-severity wildfires.
    The actual meaning of these limits, however, may hinge on whether 
all of these criteria have to apply or whether only one of them need 
apply. That last criteria is loose enough that it by itself could open 
the entire Beaverhead-Deerlodge National Forest to timber harvest since 
lodgepole pine forests naturally tend to experience large stand-
replacing fires.
    The level of timber harvest that would be annually mandated on the 
Beaverhead-Deerlodge National Forest under Tester's bill can also be 
read in either comforting or alarming terms. The bill requires 7,000 
acres a year to be harvested. To supporters of the bill, this is a tiny 
acreage of harvest, a tiny fraction of one percent of the huge 3.3 
million acre forest.
    To critics, although 7,000 acres appears trivially small compared 
to the total size of the forest, it is not so small compared to the 
part of the forest deemed suitable for commercial timber harvest, 
300,000 acres, of which the 7,000 acres are 2.3 percent. That level of 
harvest would be sustainable only if new trees grew to commercial size 
in about 40 years, an unlikely event in a high, cold, lodgepole pine 
forest in Montana.
    To critics, this is simply an unsustainable level of harvest. 
Looking back over 40 years of timber harvest on that forest, 7,000 
acres of timber harvest was reached only once, in 1971, in the heyday 
of aggressive Forest Service harvests across the nation. That level of 
harvest was once again approached in the last peak harvest year on 
Forest Service lands in the late 1980s when 6,000 acres were harvested. 
Between 1967 and 1989, when the Forest Service was still largely 
unhindered by environmental concerns and harvested record numbers of 
trees, the average acreage harvested on the Beaverhead-Deerlodge 
National Forest was about 4,000 acres. The Tester bill would seek to 
force a harvest level two-thirds higher than that previous unfettered 
average harvest level.
    Supporters of Tester's bill insist that the intent is not to open 
up most of the forest to timber harvest but quite the opposite: to 
support modest timber harvests where they would do the most good and 
the least harm. If that is the case, the language of the bill should be 
tightened up to accomplish exactly that by limiting the areas open to 
potential timber harvests to a much smaller portion of the forest and 
by making clear that the ``priority'' areas for timber harvest are in 
fact those areas that have already been roaded and open to logging and 
where the timber harvests can help protect human habitation. Finally, 
the level of mandated timber harvest should be set based on what 
foresters indicate is a sustainable level of harvest given the 
characteristics of that forest.
    Such a tightening up of the language and numbers in the Tester bill 
should be acceptable to the wilderness advocates who support this bill 
since it would simply assure that the bill does what they say it is 
intended to do. If timber interests howl in protest over such 
clarification that should give the rest of us pause as to exactly what 
the Tester bill is really all about.
     3. mandating timber harvests to support wilderness protection
    Senator Tester's ``Forest Jobs and Recreation Act,'' which seeks to 
both boost timber harvests and add hundreds of thousands of acres of 
wilderness in Montana, had its first hearing before a congressional 
committee late last week. It was not surprising that Montana timber 
interests testified in favor of the bill. What was interesting was that 
wilderness advocates from Montana and national environmental 
organizations were strongly divided over the merits of Tester's bill. 
Tester is attempting to ``split the baby'' and end the multi-decade 
paralysis that has both blocked any new wilderness protection for 
Montana's six million acres of unprotected wildlands and shrunk timber 
harvests on federal lands in Montana down to a small fraction of what 
they were two decades ago.
    The Obama Administration, through the Undersecretary in charge of 
the U.S. Forest Service, weighed in on the side of the critics of 
Tester's bill, strongly recommending that key elements of the bill be 
modified. In particular, federal officials focused in on Tester's 
proposal to have Congress mandate particular levels of timber harvest 
on some of Montana's National Forests. They commented that those 
mandated timber harvests ``are likely unachievable and perhaps 
unsustainable'' and ``far exceed historic [harvest] levels on these 
forests, and would require an enormous shift in resources from other 
forests in Montana and other states to accomplish the [harvest] levels 
specified in the bill.'' That is the same criticism that has come from 
many Montana critics of the Tester bill.
    Tester's Senate colleague, Ron Wyden of Oregon, sought to support 
the bill by asking why, if the Federal government can bail out our 
automobile companies and banks, it cannot support bailing out the 
timber industry in Montana and elsewhere the Pacific Northwest? Setting 
aside the question of whether an endless wave of federal bailouts of 
private businesses is good for our economy, the problem with Tester's 
bill is that it will not stabilize the timber industry and timber 
communities but would do the opposite.
    Senator Tester's bill would require the U.S. Forest Service to 
arrange the commercial harvest of more acres on the Beaverhead-
Deerlodge National Forest than have ever been harvested there in the 
last 50 years except for one year. The Forest Service would have to see 
that those acres were harvested every year no matter what the demand 
for timber happens to be. The economically naive idea behind this 
timber harvest mandate is that if large volumes of timber are 
harvested, our lumber mills will operate at a higher level and more 
Montana workers will be employed. Advocates believe that a constant 
timber supply will assure constant production and employment at mills.
    It might have worked that way back in the old centrally planned 
Soviet Union, but it does not work that way in a market economy. When 
the demand for timber products is very low, as it is now because of the 
collapse of the construction industry, continuing to produce wood 
products at a constant level only drives down the price of wood 
products further, threatening the profitability of those mills that 
have been barely able to continue to operate. Similarly, even if the 
housing industry were not in the dumps, if total wood products supply 
exceeds demand because of increased mill production or competition from 
other parts of the nation and the world, simply churning out the same 
level of production despite the excess supply will simply assure that 
lumber prices will continue tanking, forcing more and more mills out of 
business.
    In a market economy, producing a constant level of supply no matter 
what economic conditions happen to be destabilizes the market, 
businesses, and communities even more. During periods of excess supply, 
it drives prices lower than they otherwise would be. During periods of 
excess demand, it drives prices higher than they otherwise would be. 
Stable levels of production lead to unstable prices as market 
conditions fluctuate. Mandating a constant flow of trees into the 
market does not stabilize communities. It does the opposite.
    The mandated harvests in Tester's bill are also likely to be very 
costly to taxpayers and to the important non-timber programs run by the 
Forest Service. In soft timber markets, the skinny lodgepole pine of 
the Beaverhead-Deerlodge National Forest is likely to have very low 
commercial value. Yet Tester's bill would require that the Forest 
Service harvest the trees nonetheless, even if, as is usually the case 
on most of Montana's National Forests, that harvest takes place at a 
loss to the U.S. Treasury. The Forest Service will have to take money 
from other projects and/or other forests to subsidize the harvest of 
those trees that the market does not want or need.
    The low value and high cost of those trees is what has kept harvest 
levels of those trees so low over the last half-century, even during 
boom times in the timber industry. Yet now harvest-at-a-loss would be 
mandated by law. Tester likely suspects that this will be the case 
because while his bill mandates the timber harvest, it does not mandate 
the forest restoration work that the timber harvest is supposed to pay 
for. In today's markets and in many of the market conditions we have 
faced in the past, the mandated harvest will lose money and fund no 
restoration work at all.
    As the Obama Administration witness said at the Senate hearings, 
this is a fixable problem with Tester's bill: Just get rid of the 
mandated timber harvests and the massive expansion of the part of the 
forest that is open to commercial timber harvest. That would be better 
both for Montana's communities and for Montana's forests.
      Statement of Martin Nie, Professor, College of Forestry and 
            Conservation, University of Montana, on S. 1470
    I was asked by Senator Tester to provide written testimony on S. 
1470. I want to thank the Senator, and the Subcommittee on Public Lands 
and Forests, for the opportunity to do so. I am a professor of natural 
resource policy in the College of Forestry and Conservation at the 
University of Montana. The following testimony draws from my research 
on the problems and opportunities presented by ``place-based'' National 
Forest law. I write to neither support or oppose the Forest Jobs and 
Recreation Act (FJRA) as currently written. Instead, I ask a number of 
questions that deserve serious consideration by the Committee.
    There is increasing interest in ``place-based,'' or national 
forest-specific legislation. In several places divergent interests are 
negotiating how they would like particular forests to be managed. These 
proposals often include provisions related to wilderness designation, 
economic development, forest restoration, and funding mechanisms, among 
others. But unlike more typical collaborative efforts, some groups are 
interested in possibly codifying the resulting agreements.
    While S. 1470 has garnered national interest, there are place-based 
initiatives happening on other National Forests, including the Lewis 
and Clark, Colville, Clearwater and Nez Perce, Fremont-Winema, Tongass, 
and federal forests in Arizona, among others. Each initiative is 
different in significant ways. But all are searching for more durable, 
bottom-up, and pro-active solutions to National Forest management. Some 
negotiations, like that on Idaho's Clearwater and Nez Perce, may result 
in proposed legislation. But others, including arrangements on the 
Colville and Fremont-Winema, are not based on forest specific laws but 
instead operate through formalized agreements and protocols with the 
U.S. Forest Service. This bigger picture is important and I hope the 
Committee considers the possible impact of S.1470 on these other 
initiatives.
    S. 1470 is a bold and constructive response to a dysfunctional 
status quo. It advances the debate over National Forest management in 
significant ways, by forcing us to address several intractable system-
wide problems. Nonetheless, the legislated approach to National Forest 
management is a significant departure from the status quo and it raises 
several significant questions. Laid out below are some of the most 
important. They go beyond S. 1470, with the assumption that if enacted, 
similar place-based forest laws are forthcoming.

          1. Would a proliferation of place-based forest laws disunify 
        the relatively consistent mission and mandate of the USFS?

          If replicated more broadly, the place-based approach to 
        forest management could further disaggregate the National 
        Forest system. Law-by-law, the National Forests could be 
        governed by forest-specific mandates, not unlike the unit-
        specific enabling laws governing the National Parks and 
        National Wildlife Refuges. A relatively consistent mission and 
        mandate applicable to the National Forests would be replaced by 
        more site-specific prescriptive laws detailing how particular 
        forests must be managed. This might be good for some forests, 
        but what effect would it have on the National Forest System?

          2. Will the FJRA conflict with preexisting Forest Service 
        mandates, environmental laws, and planning requirements?

          Forest-specific laws already codified, like the Tongass 
        Timber Reform Act and the Herger-Feinstein (Quincy Library) 
        Act, have engendered more conflict than consensus partly 
        because of how these laws sometimes fail to fit into the 
        preexisting legal and planning framework. In these and other 
        cases the USFS is forced to walk a statutory minefield with 
        legal grenades thrown from all directions. One way or another, 
        the agency gets sued for either complying with existing 
        environmental laws or for ostensibly subordinating the new 
        place-based one. These cases show that the answer to forest 
        management might not be another law placed on top of myriad 
        others but rather an untangling or clarification of the 
        existing legal framework.
          NEPA is one big unanswered question in S. 1470. The bill 
        requires the USFS to satisfy its NEPA duties within one year. 
        But without additional support it is hard to fathom the agency 
        meeting this deadline, given that it takes the USFS about three 
        years to complete an EIS. When it comes to meeting NEPA 
        obligations, the USFS needs more funding, leadership, and 
        institutional support, not more law.

          3. Can the FJRA be successfully implemented and how will it 
        be paid for?

          One purpose of S. 1470 is to generate a more predictable flow 
        of wood products for local mills, thus the bill's timber 
        harvest mandate. The probability of achieving community 
        stability through forest management has been debated ad 
        nauseum. Alas, most agree that there are simply too many 
        uncontrollable impediments to achieving this objective, like 
        fluctuating housing starts, cheap Canadian imports, vacillating 
        court decisions, swings in agency budgets, and so on. 
        Nonetheless, S. 1470 is to be admired for its focus on 
        sustainable forests and communities, and for understanding the 
        benefits of having a functional timber industry in Montana.
          Before proceeding with a controversial legislated harvest 
        mandate, lawmakers should consider some alternative ways to 
        achieve greater predictability. This includes an innovative 
        effort on the Colville National Forest to provide a steadier, 
        sustainable, and less contested stream of timber for local 
        mills, with accompanying restoration objectives. In this case, 
        a collaborative group works with the agency to achieve its 
        objectives via formalized agreement and a mutually agreed upon 
        decision making protocol.
          S. 1470 would be primarily implemented and paid for by using 
        stewardship contracting. This tool's popularity stems partially 
        from the highly uncertain congressional appropriations process, 
        a process that chronically underfunds the USFS and its non-fire 
        related responsibilities and needed restoration work. But on 
        the Beaverhead-Deerlodge National Forest, there are serious 
        questions as to whether there is enough economic value in this 
        lodgepole pine-dominant forest to pay for the restoration work. 
        As a safety valve, S. 1470 authorizes spending additional money 
        to meet its purposes, but there is no guarantee that such funds 
        will be appropriated, or if so, they would not come from 
        another part of the agency's budget.
          The question, then, is what happens if such envisioned funds 
        don't materialize? Will money be siphoned from other National 
        Forests in order to satisfy the mandates of S. 1470? Consider, 
        for example, the White Mountain stewardship project in Arizona. 
        The Government Accountability Office (GAO) found that this 
        project incurred greater costs than expected and such costs 
        have ``taken a substantial toll on the forest's other 
        programs.'' Furthermore, some other fuel reduction projects 
        were not completed because their funding sources were being 
        ``monopolized'' by the White Mountain project. Other National 
        Forests in the region also paid a price to service the terms of 
        this contract, and ``[a]s the region has redirected funds 
        toward the White Mountain project, these other forests have 
        become resentful of the disproportionate amount of funding the 
        project has received.''
          Several other budget related questions are raised by the 
        possible replication of place-based forest laws. For example, 
        might the approach move the National Forests closer to a 
        National Park Service model, where congressional delegations 
        exercise increased control over a unit via Committee and purse 
        strings? Will senior congressional delegations be more 
        successful in securing funding for place-based laws in their 
        states? Will it create a system of ``haves'' and ``have nots'' 
        in the National Forest system? And perhaps most important, 
        would these budgetary situations benefit the National Forest 
        system as-a-whole?

          4. What precedent will be set if the RJVA is enacted?

          There is a remarkable amount of interest in S. 1470. This is 
        partly because of the precedent the bill would set by 
        legislating management of particular National Forests, 
        including a legislated timber supply requirement. The place-
        based initiatives referenced above could be impacted by S. 
        1470. If the bill passes in its current form, more groups will 
        seek place-based forest laws in the future, and some of those 
        proposals would undoubtedly contain some type of a legislated 
        timber supply mandate. Thus, the FJRA has national 
        implications, and for this reason it should be scrutinized 
        carefully.
          Congress has a history of deferring to state congressional 
        delegations in wilderness politics. So, for example, if one 
        delegation defers to Montana's in passing S.1470, Montana's 
        delegation will be asked to play by the same rules when a 
        different wilderness bill is being considered. And recent 
        history shows that those proposals may not be carefully crafted 
        or in the national interest. Potential for abuse is even more 
        acute if individual forest bills contain special privileges and 
        exemptions that are not available elsewhere. In this regard, 
        subsequent efforts in codifying place-based agreements could 
        have a dangerous snowball effect.
          Also legitimate is the fear that if passed, S. 1470 creates a 
        precedent and possible expectation that future wilderness bills 
        must be packaged with economic development provisions (among 
        other nonconforming uses within wilderness areas) if they are 
        to be politically feasible. And special provisions are often 
        replicated in wilderness law. Once used, provisions related to 
        such matters as water rights and buffer areas are regularly 
        stamped onto future wilderness bills as a matter of course.
          To be sure, compromise is inherent in the Wilderness Act, and 
        all sorts of special exemptions and political deals are written 
        into wilderness laws with some regularity. But trading 
        wilderness for a timber harvest mandate is a different beast 
        altogether. The real question here is not whether it is 
        reasonable to require two National Forests to mechanically 
        treat 100,000 acres over the next ten years; but rather what 
        those numbers will look like in other states if all of a sudden 
        harvest mandates are politically palatable.

          5. Why not experiment in more serious fashion?

          S. 1470 includes a vague reference to ``adaptive 
        management,'' and thus an implicit acknowledgement that there 
        are uncertainties inherent in the bill. In this vein, the bill 
        sets up a monitoring program whereby the USFS will report to 
        Congress on the progress made in (1) meeting the bill's timber 
        supply mandate, (2) the cost-effectiveness of the restoration 
        projects, and (3) whether or not the legislation has reduced 
        conflict as measured by administrative appeals and litigation. 
        Not included on the list are specific ecological (non-timber 
        related) monitoring requirements.
          This is a good start. But given the importance of S. 1470, 
        and the impact it could have on other place-based proposals, 
        why not approach matters in a more deliberately experimental 
        fashion? This could be accomplished in different ways but the 
        principles would be the same: proceed cautiously, try different 
        approaches in different places, carefully monitor the results, 
        and go from there. These experiments could be housed within a 
        more structured experimental framework, with appropriate legal 
        sideboards and oversight, such as that provided by the recently 
        enacted Collaborative Forest Landscape Restoration Program. 
        Such a legislatively-created framework is one way of ensuring 
        that future place-based proposals do not become used as a 
        backdoor way of undermining environmental law and devolving 
        federal lands to self-selected stakeholders.
          If such a framework is not used, I recommend making the 
        purpose of experimentation more central to S. 1470. This could 
        be done by strengthening the bill's monitoring and evaluation 
        requirements, to include other ecological and policy/process 
        considerations. Ecological monitoring requirements should be 
        mandated.
          Changes should also be made to S.1470 to ensure that its 
        ecological restoration goals are achieved in tandem with its 
        harvest mandate. I propose a reciprocal or staged stewardship 
        contracting approach whereby future timber projects cannot 
        proceed until certain restoration objectives are met; and once 
        met, future timber is released in a sort of tit-for-tat 
        sequence. This approach will alleviate widespread concerns that 
        restoration will take a back seat to the bill's more clearly 
        articulated timber supply mandate.
          Another possibility is to carve out some space in the bill to 
        experiment with different ways of improving the forest planning 
        and NEPA process. Why not try different approaches to its 
        implementation and learn lessons from that experience? In doing 
        so, S.1470 could teach valuable lessons that might be tried 
        elsewhere, and the USFS could be brought into the process as 
        partners, rather than subjects.
          With a more deliberately experimental design, S. 1470 could 
        inform a larger system-wide look at National Forest law and 
        management. All sorts of ways in which to reform National 
        Forest management have been proposed in the past, and most of 
        those proposals focus on systemic measures imposed on all 
        forests from the top-down. Rarer are proposals seeking to learn 
        lessons from the bottom-up, and S. 1470 offers such an 
        opportunity. So do the other place-based initiatives referenced 
        above. All of these efforts are admirable in their goals to 
        secure broader-based solutions and conservation strategies. It 
        is my hope that lawmakers and others carefully study these 
        place-based initiatives as part of a more structured and 
        comprehensive review of National Forest law and management.
                                 ______
                                 
   Statement of Keith L. Olson, Executive Director, Montana Logging 
                        Association, on S. 1470
          Preface: On December 5, 2009 the board of directors of the 
        Montana Logging Association (MLA) developed the following 
        position on S. 1470--the Forest Jobs & Recreation Act of 2009. 
        Notably, this position was adopted in advance of the 
        announcement that the Smurfit-Stone Container mill in Missoula, 
        Montana would permanently shut down December 31, 2009. That 
        closure gives greater urgency to our stated concern for 
        ensuring that this legislation must assist in the survival, 
        viability and expansion of Montana's integrated forest-based 
        manufacturing infrastructure.

    Chairman Wyden and members of the subcommittee on Public Lands and 
Forests:
    The 500+ members of the Montana Logging Association (MLA) operate 
family-owned businesses engaged in the harvesting and transportation of 
logs from forest to mill in Montana and; as such, we have a key 
interest in legislation that impacts the health of our forests and 
rural communities.
    One of the stated objectives of S. 1470 is to resolve the gridlock 
which continues to plague the management and, thereby, the health of 
Montana's national forests.
    That gridlock is a product of many factors, including poorly 
written legislative mandates that often contradict one another... 
administrative policies that fail to recognize the dynamic nature of 
our forests... a litigious minority that is rewarded for challenging 
forest management proposals... and a judiciary that refuses to 
acknowledge that the second guessing of resource professionals is as 
damaging to forested ecosystems as are insects, diseases and, thereby, 
the inevitable consequence of catastrophic wildfire.
    Members of the subcommittee, when laws don't work and policies 
don't work, forest plans will not work; and abdicating management of 
our national forests to the judiciary is irresponsible. It's time to 
try something else.
    S. 1470 has many critics... and hopefully, most of their concerns 
can be addressed in the final version of this bill. We, too, will 
highlight several shortcomings that concern us. Before we proceed, 
however, it is imperative that you understand that our concerns will 
focus on one necessary truth:

          The final version of S. 1470 must assist in the survival, 
        viability and expansion of Montana's integrated forest-based 
        manufacturing infrastructure.

    That infrastructure is disappearing at an alarming rate; thereby 
threatening the health of our forests and the quality of the resource 
values they provide... as well as the economic vitality of our rural 
communities and the proud heritage and quality of life they provide.
    With respect to S. 1470 as it currently reads, we believe the 
following shortcomings must be addressed in the final bill:

  <bullet> Funding Mechanisms Although the bill mandates stewardship 
        projects, including the production of merchantable wood 
        products, it does not provide adequate assurance that funds 
        will be appropriated to carry out the non-wilderness mandates 
        in the bill. This shortcoming must be addressed if S. 1470 is 
        to avoid becoming an unfunded mandate.
  <bullet> Appeals & Litigation Congress has demonstrated support for 
        beneficial legislative language that has passed judicial 
        muster--such as pre-decisional appeals, expedited NEPA and 
        balance of harms--and S. 1470 must include such provisions if 
        mandated projects are to have every chance to succeed.
  <bullet> Skin in the Game Litigants must not be given free reign to 
        sue, especially when the objectives of active management 
        include fuels reduction, watershed protection, community 
        safety, protection from catastrophic wildfire, etc. Therefore, 
        S. 1470 must include a provision that penalizes litigants when 
        they do not succeed in court, such as a bonding requirement 
        equal to the monetary losses unsuccessful challenges cause to 
        contractors and the environment.
  <bullet> Beneficial Judicial Language In order to ensure the agency 
        has every chance to prevail in court--because S. 1470 will be 
        litigated--the following language is submitted for inclusion in 
        the bill:

          SECTION--A Record of Decision for a landscape scale 
        restoration project shall not be deemed arbitrary and 
        capricious under the National Forest Management Act, National 
        Environmental Policy Act or other applicable law as long as 
        each landscape scale restoration project is consistent with the 
        restoration requirements in Section 104.

    This is nearly identical to language used to authorize timber sales 
in the Flathead and Kootenai National Forest Rehabilitation Act--Pub. 
L. No. 108-108 Sec.  407, 117 Stat. 1241 (2004). Importantly, this 
statutory language was upheld against a challenge that it was 
unconstitutional by the Ninth Circuit in Ecology Center v. Castaneda. 
Please include it in S. 1470.

  <bullet> Automatic Reauthorization This is essential if S. 1470 is to 
        provide for the long-term sustainability of the national 
        forests in question... because without it, critics of the 
        legislation will litigate knowing that time is their ally in 
        court.
  <bullet> Stewardship Projects As much as the MLA likes stewardship 
        contracting, we caution the subcommittee to remember that it is 
        but one tool that forest managers need at their disposal to be 
        true stewards of the forest. Unnecessarily limiting management 
        tools may work against the objectives of the legislation. 
        Furthermore, S. 1470 needs to include smaller scale projects 
        for local contractors who do not have the financial capacity to 
        be competitive for landscape-level projects.

    Members of the subcommittee, we believe S. 1470 must address the 
aforementioned shortcomings if the bill is to meet our mandate of 
assisting the survival, viability and expansion of Montana's integrated 
forest-based manufacturing infrastructure.
    We would further note that, in our opinion, S. 1470 could achieve 
greater public support if it were to also include language that 
addresses:

  <bullet> Equal Certainty S. 1470 provides wilderness protection first 
        and foremost; thus, we are in agreement with those who believe 
        a ``trigger'' mechanism for non-wilderness mandates should be 
        met before wilderness designations are finalized.
  <bullet> Local Governments In keeping with the fact that MLA members 
        represent an essential component--economically and socially--of 
        Montana rural communities, we respectfully encourage you to 
        carefully consider the valid concerns of local elected 
        officials.
  <bullet> Active Forest Management We agree with the logic advanced in 
        testimony provided by the Society of American Foresters with 
        respect to the long-term production of merchantable fiber; and 
        we specifically support their recommended language and ask that 
        you include it in S. 1470 to wit: ``Forest management 
        activities, consistent with prescribed restoration treatments, 
        must be used on a sustainable and permanent basis following the 
        first 15 year treatment on the designated landscapes. Forest 
        management activities would be the primary tool to maintain and 
        conserve forests for the desired objectives of wildlife 
        habitat, recreation, water resources, wildfire and climate 
        change resilience, and additionally designed to produce 
        renewable and economically marketable wood products.''

    Members of the subcommittee, we reiterate our appreciation of S. 
1470's stated goal to resolve the deadlock that has plagued forest 
management in Montana for decades... and we submit that inclusion of 
the recommendations we have listed above will help to ensure that S. 
1470 successfully accomplishes that goal.
    Respectfully submitted upon behalf of the board of directors of the 
Montana Logging Association.
                                 ______
                                 
  Statement of Kathy DeCoster, Vice President and Director of Federal 
             Affairs, The Trust for Public Land, on S. 1787
    Mr. Chairman and Members of the Subcommittee:
    On behalf of The Trust for Public Land (TPL), I appreciate the 
opportunity to express strong support for S. 1787, the ``Federal Land 
Transaction Facilitation Act Reauthorization of 2009.'' We commend 
Senator Bingaman for introducing this bill and appreciate the the 
subcommittee's expeditious consideration of this very important 
legislation.
    The Trust for Public Land conserves land for people to enjoy as 
parks, gardens, and natural areas, ensuring livable communities for 
generations to come. Since 1972, TPL has helped protect more than 2.8 
million acres of land in 47 states, the District of Columbia, Puerto 
Rico, the Virgin Islands, and Canada.
    TPL endorses the principle that proceeds from the targeted sales of 
lands identified for disposal under the Federal Land Planning 
Management Act should be used for the acquisition of inholdings and 
significant edgeholdings of our national parks, forests, refuges, and 
eligible BLM units. Since 2007, more than $57 million in FLTFA funds 
has been invested in the acquisition of over 13,600 acres of important 
conservation lands. TPL has been pleased to be a partner of federal 
land management agencies in using FLTFA to acquire lands in Oregon, New 
Mexico, Nevada, Utah, and Arizona.
    Among the first group of acquisitions approved by the Secretaries 
of the Interior and Agriculture under FLTFA was an historic fishing 
camp once owned by the Western novelist Zane Grey on the Rogue River in 
Oregon. Located on a wild and scenic river corridor, this former 
inholding is a popular stop for rafters, hikers, and fishermen. While 
taking a respite, these recreationists can peer into Zane Grey's rustic 
cabin--listed on the national register of historic places. This 
property is now part of the Rogue Wild and Scenic River administered by 
the Bureau of Land Management.
    In New Mexico, TPL has completed three FLTFA acquisitions with BLM, 
two at La Cienega ACEC and one at Elk Springs ACEC. The La Cienega 
acquisitions are part of an ongoing effort to create an unbroken 
connection of protected lands. FLTFA was instrumental there in 
protecting over a half-mile of the Santa Fe River along with stands of 
cottonwood and coyote willow that provide habitat for species such as 
the Southwestern willow flycatcher. The acquisition of 2,280 acres at 
Elk Springs provides improved forage for Jemez elk and deer herds and 
protects the Juana Lopez Research Natural Area of Manco shale, a 
fossil-rich formation containing ammonites, mollucks, and fish of the 
upper Cretaceous age.
    Earlier this year, Zion National Park was able to acquire ten 
critical acres in the Kolob Terrace section of the park. Located on a 
popular scenic road, this property lies near the base of Tabernacle 
Dome, an area popular for its hiking trails, camping, and spectacular 
vistas. The NPS had long identified this property as a priority to 
acquire because of its visual prominence. Because there were not 
sufficient funds in Utah's FLTFA account, the Park Service stepped up 
to contribute some funds from the Land and Water Conservation Fund in 
order to complete the purchase.
    In addition to the acquisitions described above, TPL has been 
pleased to work on two Forest Service acquisitions. In Arizona, FLTFA 
provided the funding necessary to acquire the first phase of the 139-
acre Packard Ranch located in the Coconino National Forest. Surrounded 
by national forest lands, the property contains two perennial streams, 
a trailhead to the Sycamore Canyon Wilderness, and important 
archaeological resources. Long a top acquisition priority for the 
Forest Service in Arizona, Packard Ranch would have been a lost 
opportunity had FLTFA funding not been available. Funds from the Land 
and Water Conservation Fund (LWCF) were subsequently used for the 
second phase of this project and we hope to complete the final phase in 
FY 2011. More recently, approval was given for an acquisition in the 
Humboldt-Toiyabe National Forest in Nevada along the Pony Express 
National Historic Trail. This very historic and beautiful 123-acre 
property is located near Lake Tahoe and would serve as a connection 
between the Tahoe Rim Trail to the west and the system of trails in the 
foothills of the Carson Range to the east.
    The Zion NP project and the Packard Ranch acquisition are good 
examples of how FLTFA and LWCF complement one another. The acquisition 
of inholdings is important for the management of federal lands and for 
the protection of significant natural, recreational, historic, and 
archaeological resources. LWCF appropriations have been insufficient to 
meet the needs identified by federal land management agencies, and many 
opportunities have been lost to development or other noncompatible 
uses. FLTFA is a critical tool for land protection; without it, many 
more opportunities would have been lost in the past few years.
    The Trust for Public Land supports the permanent reauthorization of 
FLTFA and the elimination of the date limitations on both sales and 
acquisitions. This would enable land managers to more fully utilize 
FLTFA to accomplish their goals of improved management and greater 
protection for our nation's natural treasures. I recognize that S.1787 
in its current form extends the limitation on land sales to the date of 
enactment rather than completely eliminating this restriction. 
Nevertheless, we look forward to the passage of this important 
legislation and thank the subcommittee for its active consideration of 
S. 1787.
                                 ______
                                 
                  Statement of Tim Aldrich, on S. 1470
    As a native Montanan, a retiree after 37 years of employment with 
the United States Forest Service and as the president of two Montana-
based organizations of conservation-minded hunters and anglers, I offer 
the following for your consideration:
    S. 1470, The Forest Jobs and Recreation Act comes from the 
collaborative efforts of organizations and individuals who, for the 
last 30 years at least, have been tugging in entirely different 
directions as far as the management of the National Forests. This is 
also a good bill from several other perspectives:

  <bullet> Montana's wood products industry in nearing total collapse. 
        Montana needs viable wood products industries for jobs, to 
        provide the tools essential for the wise management and use of 
        vegetation on federal, state and private forests, and to 
        provide important materials and products used all over the 
        world.
  <bullet> Montana has many outstanding landscapes; some of the finest 
        are included in S 1470 to be designated as Wilderness. 
        Management of inventoried roadless lands has been in limbo too 
        long, and the continuation of the ``standoff'' does not serve 
        the American people and their resources well.
  <bullet> Through implementation of its prescribed management and 
        restoration activities, S 1470 will assure a continuing 
        abundance of cool clear water and provide improved wildlife 
        habitat to support the wealth of wildlife species so important 
        in the culture of Montana. Stewardship contracting provides an 
        excellent mechanism to get the work done while keeping the 
        value of products in benefits on the sites. I encourage the 
        Committee to look at this Act as providing the opportunity to 
        explore the need for and use of tools that could also benefit 
        other units in the future.

    I strongly encourage the Committee in their wisdom to steer this 
legislation to assure that it facilitates the intended successes for 
the Public and for the Forest Service. Strong leadership and backing of 
Congress, the Department of Agriculture and Forest Service at all 
levels will be essential. This Act must assure that the three national 
forests don't become `winners'' at the expense of all the other 
national forests becoming ``losers.'' I thank you for your serious 
consideration of this Act.
                                 ______
                                 
                                                 December 17, 2009.
Hon. Jeff Bingaman,
703 Hart Senate Office Building, U.S. Senate, Washington, DC.
    Dear Senator Bingaman: We are writing in support of S. 1787, your 
bill to reauthorize the Federal Land Transaction Facilitation Act.
    The Federal Land Transaction Facilitation Act of 2000 (FLTFA) has 
been a successful and balanced approach to land conservation. FLTFA 
provides a key tool for the Bureau of Land Management (BLM), the U.S. 
Forest Service, the U.S. Fish and Wildlife Service and the National 
Park Service to purchase critical inholdings and edgeholdings from 
willing sellers in the western states. Using a ``land for land'' 
approach, FLTFA has generated over $113 million in revenue from BLM 
sales of scattered and discontiguous tracts and the Secretaries of 
Interior and Agriculture have approved over $66 million toward 
protecting more than 18,000 acres of high-priority land.
    Your legislation will help ensure that FLTFA's success continues. 
S. 1787 incorporates key principles for reauthorization by maintaining 
the ``land for land'' principle in the current law; making the 
authorization permanent; and allowing designated areas to qualify for 
funding, regardless of the date of designation. Because of FLTFA's 
great benefits for fish and wildlife conservation, outdoor recreation 
and historic preservation, we hope to see it reauthorized before it 
expires in July 2010.
    As your bill moves forward, we look forward to working with you and 
your staff on elements of the bill relating to the eligibility of lands 
for disposal and individual county bills. We support the provision in 
the House bill striking the date restriction on land use plans so that 
any land identified for disposal in a plan qualifies for FLTFA, 
regardless of the date of the plan. Additionally, we support the 
language in the Senate bill regarding the White Pine and Lincoln 
counties and encourage that the Owyhee, ID, and Washington, UT, county 
bills be included and other local public lands legislation be 
addressed, as well.
    Thank you again for introducing this important legislation. We 
applaud your leadership and stand ready to assist you in reauthorizing 
FLTFA.
            Sincerely,
                                        Darin C. Schroeder,
                           Vice President of Conservation Advocacy,
                                         American Bird Conservancy.
                                            Wade Blackwood,
                                                Executive Director,
                                        American Canoe Association.

    [Due to the long list of names, other signatories have been 
retained in subcommittee files.]
                                 ______
                                 
     Statement of Steve Bullock, Attorney General, State of Montana
    As a member of the State Land Board--the panel charged with 
overseeing the management of 5.2 million acres of school trust land in 
Montana-I'm one of five elected officials responsible for deciding how 
best to generate revenue from the use of those lands, revenue that 
supports Montana schools.
    From gtazing,farming, timber, oil, gas and mining leases to 
easements for projects like transmission lines, Montana's state lands 
have many uses. And much like federal lands, state land uses can come 
into conflict with each other. Often these conflicts escalate into 
management stalemates where no one wins.
    On Montana's federal lands, these conflicts have plagued forest 
management for decades. Because of historical conflicts between 
conservationists and loggers, the Forest Service is struggling to 
provide proper management, while our timber mills and the rural 
economies they support are dying, and our fisheries and wildlife 
habitat are suffering.
    Meanwhile, much of Montana's most precious backcountry is at great 
risk. As you know, not a single acre of our public lands--the legendary 
landscapes where my family and many Montana families hunt, camp, hike 
and fish--has been protected in over two decades. Even motorized users 
and mountain bikers fear losing access to their recreational 
opportunities.
    We are at a crossroads.
    If we do nothing, our national forests will continue to tum red and 
build fuel for wildfire, our blue ribbon fisheries will continue to 
slide, Montana's wildest places will go unprotected and our saw mills 
will continue to shut their doors. Or, we can work together to move 
beyond this gridlock.
    Many Montanans recognize this opportunity and support Senator 
Tester's Forest Jobs and Recreation Act and the collaborative spirit in 
which it was developed. I'm proud that diverse groups of Montanans have 
come together and tackled this issue head on.
    The Forest Jobs and Recreation Act finds a balance among all uses 
and gives Montanans a tool to work together on forest management. The 
timber industry will have access to fiber from national forest land and 
Montana's heritage of outdoor recreation--hiking, riding snowmobiles, 
mountain biking, hunting and fishing--will continue.
    I strongly support Senator Tester's Forest Jobs and Recreation Act 
and the grassroots efforts that have brought it before yoru committee. 
I urge you to join the many Montanans who are working together for our 
public lands.
                                 ______
                                 
Statement of G. Holly McKenzie, State Chair--Montana SAF, 2009, Montana 
                  State Society of American Foresters
    The Society of American Foresters (SAF) is the scientific, 
educational and professional organization devoted to the sustainable 
and science-based management of our forests for the benefit of society. 
With 14,000 members, nearly 400 in the state of Montana, we ask that 
the following testimony be submitted for the record on S. 1470, the 
Forest Jobs and Recreation Act introduced by Senator Jon Tester of 
Montana.
    The SAF greatly appreciates the efforts of Senator Tester to 
address some of the problems preventing the appropriate and science-
based management of our federal forests. The leadership, controversy 
and hard work required to address this task is not taken lightly and we 
look forward to helping the Senator in his goal of improving federal 
forest management. At the same time, we are concerned that the 
legislation, as drafted, will not meet this goal. Attached is a letter* 
from the Montana Society of American Foresters listing recommendations 
for S. 1470. We ask that this letter also be submitted for the record 
and note that our testimony below is meant to supplement these 
recommendations while adding a national perspective.
---------------------------------------------------------------------------
    * Letter has been retained in subcommittee files.
---------------------------------------------------------------------------
    Across much of the West, foresters and now the general public see 
the continued decline of federal forest health as evidenced by the 
massive bark beetle epidemics and increase of catastrophic wildfires 
(all of which are exacerbated by a changing climate). Both science and 
anecdotal evidence show that much of this calamity could have been 
prevented with active forest management to improve forest health and 
resiliency. Decades of appeals and litigation, agency analysis 
paralysis and wasted time and resources has taken its toll. Now in much 
of the West, we have little to no ability to manage our forests because 
we have little or no harvesting or milling infrastructure. In areas of 
limited infrastructure, the cost of treatment sky-rockets and only very 
high priority areas can be addressed to protect public safety leaving 
very few opportunities to improve watersheds and wildlife habitat or 
reforest after fire.
    Thankfully Montana still has the infrastructure, albeit it limited, 
necessary to manage its forests. SAF is very disappointed, however, to 
hear about the permanent closure of Smurfit Stone in Missoula and 
subsequent job loss of over 400 people. This is immediately concerning 
because of the many small diameter forest health treatments currently 
being conducted of which the only valuable by-product is chips for 
paper products. Harvesters and landowners in Montana now have nowhere 
to sell these pulp logs, many of which have already been purchased. In 
the short and long term, sawmills now have no place to sell their 
`clean' chips. This additional revenue stream is absolutely critical to 
making ends meet--especially in our current economic times when 
virtually all sawmills are operating at a loss. An integrated wood 
products industry with a dependable supply is vital to maintaining the 
health of our forests and the water and wildlife dependent upon them.
    Recently we've seen a regional or state approach by elected 
officials to attempt to solve forest management problems in their 
districts/states through legislation, funding and even the occasional 
appropriations rider. This piecemeal approach is understandable, but 
also shows how broken federal forest management is in many, though not 
all, areas. Ideally, the SAF would recommend complete federal forest 
reform, which is clearly needed. Given the dire situation faced in many 
areas, however, we understand the effort to pass and implement 
something quickly. Nonetheless, comprehensive federal forest reform 
will be the only way to address the long term health of our forests, 
watersheds and communities. We ask that you refer to the attached 
letter for specific recommendations, but would like to offer some brief 
observations regarding S. 1470.
                    wilderness and forest management
    The SAF recognizes and endorses the value and concept of wilderness 
for appropriate areas on landscapes, as well as forests managed for a 
broader range of multiple uses including an emphasis on wood products 
for fiber and fuel. We support the Forest Service's specific forest 
management plans and each individual plan's recommendations for 
wilderness. We also recognize that the Congress, through the Wilderness 
Act, may designate wilderness regardless of the Forest Service's 
recommendation. According to the Forest Service, the National 
Wilderness Preservation System currently includes over 700 areas in 44 
states totaling more than 107 million acres. With this many acres 
congressionally designated as wilderness, we see nothing wrong with S. 
1470 mandating certain areas (which were identified in the forest 
management plan) for active forest management.
                             forest service
    The Forest Service and the Society of American Foresters were 
established at the same time by Gifford Pinchot, the first Chief of the 
Forest Service and appointed by President Theodore Roosevelt. SAF has a 
long and important history with the Forest Service and we strive to 
support the agency in its mission. We believe forest management 
legislation, such as S. 1470, should be received with an open mind and 
appreciation for congressional efforts to solve agency problems. The 
Forest Service should also provide thoughtful, constructive criticism 
and help legislators draft legislation that will truly make a 
difference.
                scale of montana's forest health problem
    S. 1470 mandates a minimum of 30,000 acres for timber harvest over 
15 years. Even if this minimum amount of work is accomplished, which is 
unlikely unless additional authorities are enacted, Montana has 1.7 
million acres infested by the Mountain Pine Beetle (MPB)(according to 
2008 Forest Service data). This number is growing exponentially as MPB 
populations continue to proliferate. Further, according to 2004 Forest 
Service data, of Montana's 22.3 million acres of forest, 82 percent are 
high to moderate in terms of fire hazard rating. Of this, 7.5 million 
acres are at moderate to high risk of destructive crown fires.
    The scale and scope of Montana's forest health problems is huge. 
Congress must act boldly now if anything is to be done about this 
problem and if we're to maintain a relevant forest products industry 
and purposeful rural communities. We have the science, experience, 
loggers, mills, management practices and the will to protect our 
forest's health and resiliency for future generations if only Congress 
will give our federal land managers to the tools they need.
    Again, we thank the Subcommittee for the opportunity to submit 
testimony and commend Senator Tester for taking on such a difficult and 
controversial issue. SAF would be happy to answer any questions or 
further explain our recommendations.
            Statement of The Wilderness Society, on S. 1470
    The Wilderness Society (TWS), representing over 500,000 supporters 
and members, supports S. 1470, the ``Forest Jobs and Recreation Act'' 
introduced by Montana Senator Jon Tester. Many of the national forest 
lands addressed in this bill are of national significance and S. 1470's 
passage would benefit Americans from current and future generations. 
This bill has diverse, bi-partisan support from across Montana and we 
commend Senator Tester and his staff for their effort and leadership in 
developing this important bill and tirelessly engaging with Montanans 
on its provisions. We are committed to working with Senator Tester, the 
committee, and the Obama administration to address concerns, seek 
creative solutions and to ensure the final version of this bill is the 
best possible legislation for Montana and the nation.
    TWS strongly supports the provisions of S. 1470 that would 
designate 677,000 acres of Wilderness. We also support this bill's twin 
goals of enhancing ecological restoration on appropriate national 
forest lands while aiding a struggling timber industry in western 
Montana. We also respect the diverse, collaborative efforts that 
developed many of the provisions embodied in this bill. 
Conservationists, hunters, anglers, timber industry representatives, 
recreation interests, and many others have engaged in countless 
meetings over many years in a sincere effort to address forest 
management conflicts that have remained unresolved for decades while 
advancing the restoration of degraded forest lands.
    Montana's communities, forests, fish and wildlife all deserve a 
chance to see this bill work. While we have identified some concerns 
and specific areas for refinement, we want to be clear that we support 
the bill's overall goals and stand ready to work with Senator Tester, 
the committee and the administration to ensure this bill can fulfill 
its promise and become law.
                      montana's wilderness context
    It has been over a decade since any member of Montana's 
congressional delegation has introduced a bill addressing Wilderness in 
the state and more than 25 years since Congress last passed legislation 
designating any of Montana's wildlands as federally-protected 
Wilderness. In 1988 Congress passed a state-wide bill designating 1.4 
million acres in Montana but it was pocket vetoed by President Reagan. 
The last time a new Wilderness area was successfully added in Montana 
was 1983. Since that time, every other western state has seen areas 
added to the National Wilderness Preservation System. Today only 4% of 
Montana's total land base is protected as Wilderness--the lowest 
relative amount of any western state. The percentage of other western 
states designated as Wilderness ranges from 5% for Wyoming and Nevada 
to 15% and 16% for California and Alaska, respectively.
    Thus, while S. 1470 is much more than ``just'' a Wilderness bill, 
it is nonetheless critically important that this bill addresses a 
longstanding need and backlog of areas deserving of the protections 
that Wilderness designation brings. Indeed, many of the 677,000 acres 
designated as Wilderness in this bill (whether on the Beaverhead-
Deerlodge, Lolo, or Kootenai National Forests or on BLM lands within 
the Dillon Resource Area) have been formally recommended by the 
agencies for Wilderness protection and are already mostly managed to 
maintain wilderness values.
    S. 1470 is also noteworthy because it represents a new approach to 
addressing disputes over natural resources management and land 
protection, which have a long and bitter history in Montana. While 
collaboration is an often overused word, this bill is truly ``bottom-
up'' and represents the product of neighbors and even adversaries 
sitting down long enough to get to know one another, learning to 
respect one another, and forging a common vision for the management of 
our public lands.
    Indeed, we are seeing other collaborative efforts involving 
Wilderness designation and forest restoration in Montana and throughout 
the west. Perhaps most noteworthy in Montana is the ``Rocky Mountain 
Front Heritage Proposal'' (www.savethefront.org) for the Forest Service 
and BLM lands east of the Bob Marshall Wilderness which includes a 
noxious weed restoration component. Passage of S. 1470 will help 
provide the momentum and model for consideration of other Montana 
wildlands deserving of protection that have for too long been in a 
holding pattern.
 the promise of the blackfoot clearwater landscape stewardship project
    While S. 1470 addresses three forest landscapes (the Three Rivers 
District of the Kootenai National Forest, the Beaverhead-Deerlodge 
National Forest and the Seeley Lake Ranger District of the Lolo 
National Forest) TWS was only involved in the development of the 
Blackfoot Clearwater Landscape Stewardship Project (BCSP) on the Lolo's 
Seeley Lake Ranger District. We believe the BCSP model is a blueprint 
for success because it promotes pre-NEPA collaboration, ensures 
adequate funding for forest restoration, and promotes the development 
of forest biomass infrastructure while respecting the integrity of all 
existing laws and regulations.
    The BCSP proposal recognized that the Blackfoot-Clearwater Valley 
is a unique ecosystem with significant forest, wildlife and wilderness 
resources. It was made possible, in large part, by the culture of 
cooperative conservation common throughout the Blackfoot-Clearwater 
Valley and was informed by lessons learned from the recently completed 
Clearwater Stewardship Project. Several years ago residents of the 
Blackfoot-Clearwater region expressed increasing interest in forest 
restoration, sustainable logging, ranching, recreation and wilderness 
uses across the landscape. The BCSP proposal emerged from a three-year 
dialogue among key stakeholders and it demonstrates that wilderness and 
wildlife can be protected alongside historic and traditional activities 
on the landscape.
    As a demonstration project for cooperative public-private 
stewardship across a landscape area, the original BCSP was intended to 
facilitate cooperative stewardship via Congressional funding for forest 
restoration and for a biomass cogeneration facility in Seeley Lake, 
Montana as well as inclusion of recommended tracts within the Bob 
Marshall-Scapegoat and Mission Mountain Wilderness totaling 87,000 
acres. The project addressed the 400,000-acre Seeley Ranger District of 
the Lolo National Forest within the Blackfoot watershed as well as 
lands within the public-private 41,000-acre Blackfoot Community 
Conservation Area.
    The BCSP vision would maintain traditional wilderness pack trails 
on the Seeley Lake Ranger District as well as all of the existing 
groomed snowmobile trails and areas. Groups have agreed to additional 
snowmobile opportunities in the area between East Spread Mountain and 
Otatsy Lake. The participating groups agreed to a revision in the 
proposed Lolo Forest Plan to allow an approximately 2,000 acre ``winter 
motorized use area'' in this area. The BCSP identifies a management 
approach that allows for most active management such as livestock 
grazing, logging and restoration work in the roaded lands found at 
lower elevations. All the activities envisioned by the BCSP would be 
consistent with all existing laws and regulations, including proposed 
revisions to the Lolo National Forest Management Plan.
    The original proposal included a funding request to allow the 
Forest Service to plan and implement landscape stewardship and 
restoration projects on 400,000 acres in the Lolo National Forest 
portion of the Blackfoot-Clearwater watershed. It calls for restoration 
logging to protect large trees and restore presuppression old growth 
conditions, with the receipts from the logging being used for 
restoration work on the ground including watershed improvements, road 
rehabilitation work and weed eradication. We are also engaged in a 
diverse collaborative effort to submit a proposal under the Forest 
Landscape Restoration Act (FLRA) for the Southwestern Crown of the 
Continent, including the Blackfoot-Clearwater Valley, to seek funding 
for the restoration work envisioned by the BCSP.
    Within the 41,000 acre Blackfoot Community Conservation Area, 
cooperative management of timber, grazing lands, weeds, hunting and 
other recreational uses is being planned. BCSP supporters have long 
believed this proposal represents a new model for landscape-level 
conservation in Montana. This proposal would help keep historic and 
traditional activities as part of the landscape, add diversity and 
sustainability to the local economy with both recreation and forestry 
jobs, and enhance watersheds and the landscape.
    The spirit of the original BCSP proposal is captured in S. 1470 in 
the form of Wilderness designations, funding authorization for forest 
restoration and funding authorization for a biomass feasibility study 
and biomass infrastructure.
                      timber supply predictability
    The Wilderness Society has concerns over S.1470's provision that 
calls for a mandatory number of acres to be mechanically treated on the 
Beaverhead and Kootenai National Forests. The Society strongly endorses 
the overall goals of the bill to provide a more predictable supply of 
timber to mills, and we have been quite vocal in stating that Montana 
needs a viable, diverse wood products manufacturing infrastructure to 
meet our forest restoration and fuel reduction goals. The question is 
how to best meet the goal of a more predictable supply while achieving 
restoration goals. We oppose Congressionally mandated treatment levels 
in the bill because they, a) neglect the root causes of the problems 
this bill is intended to address, b) set an adverse national precedent, 
c) create unreasonably high expectations, d) fail to provide the agency 
the resources it needs to do its job, and e) most important, we do not 
believe this approach will work on the ground.
    While the Blackfoot-Clearwater Stewardship proposal was being 
crafted we deliberately avoided mandatory mechanical treatment language 
because we, and our partners, believe strongly that a strategy based on 
inclusive, diverse, pre-NEPA collaboration, adequate funding and a 
clear Congressional and agency commitment to ecological restoration 
will produce far greater positive results on the ground. The BCSP 
participants, including TWS, made a clear decision to let the landscape 
analysis dictate what restoration treatments are appropriate. One of 
the reasons we included a biomass provision in the original bill was to 
help create a market for small diameter material that did not have 
value as commercial saw logs, but were important to remove as part of 
the restoration strategy. We want to avoid situations where landscape 
analysis areas are gerrymandered to ensure that a certain number of 
acres are available for mechanical treatment.
    While we were crafting the BCSP proposal, TWS conducted a review of 
collaborative efforts between conservation and timber interests 
throughout the West. The collaborative efforts that successfully 
completed projects had in common strong pre-NEPA collaboration and 
adequate funding. In examples where mandatory targets were created, 
they were never met, even in cases where adequate funding was provided. 
We observe that collaborative efforts between conservation and timber 
interests are thriving in most Western states and we encourage the 
committee to capture this positive energy in a directed way that can 
bring conservation and industry success to these placed-based 
campaigns. TWS pledges to work with the Committee to help address these 
issues.
        the montana forest restoration committee and principles
    The Wilderness Society is engaged in a number of collaborative 
forest restoration efforts around the country and we believe that the 
Montana Forest Restoration Committee (MFRC) offers a promising model 
that we should consider as we work together to refine and advance S. 
1470. The MFRC, founded in early 2007, has developed 13 restoration 
principles that define a ``zone of agreement'' regarding the 
restoration of national forest lands in Montana. The Wilderness Society 
has played a leadership role in this effort from its inception to the 
present day and these principles, coupled with pre-NEPA collaboration 
and consistent agency engagement, have resulted in strong consensus and 
significant progress regarding the development of on the ground 
restoration work on the Lolo, Helena and Bitterroot National Forests in 
just two short years. Earlier this year, the first project to go 
through NEPA analysis to a decision document under the MFRC principles 
was developed in the Blackfoot-Clearwater Valley without any appeals or 
litigation.
    We believe strongly that the MFRC principles, highlighted below, 
coupled with adequate funding and diverse, inclusive, pre-NEPA 
collaboration at the project level can provide a viable model for 
forest restoration in Montana, including areas affected by this bill on 
the Beaverhead-Deerlodge and Kootenai National Forests.
    The Montana Forest Restoration Principles (available online at 
www.montanarestoration.org) address the following:

  <bullet> Restoring functioning ecosystems by enhancing ecological 
        processes;
  <bullet> Applying an adaptive management approach;
  <bullet> Using the appropriate scale of integrated analysis to 
        prioritize and design restoration activities;
  <bullet> Monitoring ecological restoration outcomes;
  <bullet> Reestablishing fire as a natural process on the landscape;
  <bullet> Considering social constraints and seeking public support 
        for reintroducing fire on the landscape;
  <bullet> Engaging community and interested parties in the restoration 
        process;
  <bullet> Improving terrestrial and aquatic habitat and connectivity;
  <bullet> Emphasizing ecosystem goods and services and sustainable 
        land management;
  <bullet> Integrating restoration with socioeconomic well-being;
  <bullet> Enhancing education and recreation activities to build 
        support for restoration;
  <bullet> Protecting and improving overall watershed health, including 
        stream health, soil quality and function and riparian function; 
        and
  <bullet> Establishing and maintaining a safe road and trail system 
        that is ecologically sustainable.
               comments on specific provisions of s. 1470
    The Wilderness Society appreciates the openness and constructive 
attitude that Senator Tester and his staff have shown in considering 
the questions and concerns Montanans from all walks of life have raised 
regarding S.1470. We applaud the Senator and his staff for their 
proactive efforts to inform groups and individuals about the bill 
through community presentations, creation of a dedicated section on the 
Senator's website, meetings with many organizations and local 
businesses, and other means.
    In this vein, many of the issues we raise below have been 
previously shared with the Senator's staff and we are heartened by 
their commitment to address them at some level. In addition to the 
issues listed below, there are issues raised by USDA that carry 
national implications for the management of the National Forest System 
that should be reviewed and modified by the Senate Committee on Energy 
and Natural Resources when it reports S. 1470 to the U.S. Senate.
S. 1470's NEPA provisions in Section 102(2)(b)(6)
    While the Forest Jobs and Recreation Act includes important 
language requiring full compliance with NEPA and its implementing 
regulations, it also has provisions constraining how NEPA will be 
applied to projects catalyzed by other requirements in this bill. We 
support many of the goals of S. 1470's NEPA provisions, such as 
encouraging more comprehensive environmental analysis at a landscape 
scale, engagement of local multi-stakeholder advisory groups, more 
efficient NEPA reviews, and the continued implementation of project 
components that have not been challenged or enjoined. However, based on 
consultation with NEPA experts, we do have concerns that some of the 
specific language in this section of S. 1470 could effectively 
undermine the application of NEPA and its implementing regulations.
    We have three major concerns with these provisions:

          First, current bill language would restrict project 
        alteration and supplemental NEPA analysis, if needed, because 
        of unexpected, changed circumstances, major unanticipated 
        changes in the project 6 or monitoring results that should 
        trigger changes through adaptive management. We believe the 
        bill's requirements for a single EIS per large landscape 
        project allowing supplemental NEPA review only ``if based on 
        project monitoring and determination that this would better 
        meet the Act's purpose'' is inconsistent with longstanding CEQ 
        guidance.
          Second, existing NEPA provisions could complicate the Forest 
        Service's full consideration of all alternatives, including the 
        no action alternative, given that S. 1470 compels the agency to 
        issue the ambitious timeline of at least one Record of Decision 
        per year.
          Third, existing language lacks clarity regarding the 
        implementation of projects that do not comply with applicable 
        law (or implementing regulations) as their legal deficiencies 
        are remedied. While the bill does not have language explicitly 
        limiting appeals or litigation, it does state that projects, 
        ``will be implemented following completion of EIS/ROD'' and 
        then states that if modified, the original project, ``shall 
        continue until the modification is approved by US District 
        Court or Secretary;''

    Our NEPA concerns are amplified when one considers the woefully 
inadequate agency funding and staffing levels relative to the levels 
needed to effectively carry out the project design, data collection, 
analysis, public engagement, and other tasks related to NEPA. While 
this is a larger National Forest System problem and it is not S. 1470's 
intent to remedy this (or to appropriate new, dedicated funding), this 
on the ground reality must be considered when evaluating S. 1470's NEPA 
provisions.
    With some modifications to the language in Section 102(2)(b)(6), we 
are confident that the restoration work resulting from this legislation 
will receive complete, adequate environmental analysis in full 
compliance with NEPA and its regulations. Our understanding is that 
other supporters of S. 1470 share this overarching goal.
Recommended Changes to S. 1470's Wilderness Areas
    1) Mount Jefferson: While only encompassing 4,500 acres, this 
proposed Wilderness Area on the Beaverhead-Deerlodge National Forest 
near the Idaho state line and adjacent to the BLM's 28,000 acre 
Centennial Wilderness Study Area (which S. 1470 would also designate 
Wilderness ) has nationally significant ecological values and has 
attracted vocal, out-of-state opposition.
    The Wilderness Society strongly supports the current boundaries in 
S. 1470 for Mount Jefferson and does not feel any adjustments are 
justified. Moving the boundary from the state line, which is also the 
drainage divide (and the continental divide), would only continue and 
exacerbate an existing illegal snowmobile trespass problem in the Mount 
Jefferson recommended wilderness area and into the adjacent BLM's 
Centennial Wilderness Study Area and also harm existing, locally owned 
Montana businesses (Hellroaring Ski Adventures and Centennial 
Outfitters). The Forest Service has documented repeated snowmobile 
trespass into adjacent lands that would be designated Wilderness under 
S.1470. Further, the agency estimates that at most one job in Island 
Park would be impacted by managing all 4,500 acres of the Montana side 
of Mount Jefferson for non-motorized recreation. This job loss is more 
than offset by the gains in employment in Montana's human-powered 
recreation industry.
    2) BLM Wilderness Areas: We strongly support Senator Tester's 
inclusion in S. 1470 of appropriate BLM lands and we recommend the 
6,200 acre East Fork of Blacktail Wilderness Study Area be added to the 
bill as Wilderness. As described in DOI's testimony, this WSA sits in 
the heart of a landscape managed for conservation purposes. It is 
contiguous on two sides with the proposed Snowcrest Wilderness in S. 
1470 and adjacent to two state Wildlife Management Areas. BLM did not 
recommend this WSA for wilderness in its 1991 review for the Dillon 
Resource Area was because the adjacent Snowcrest lands managed by the 
Forest Service were not recommended for wilderness designation at that 
time. Today, the Beaverhead-Deerlodge forest plan recommends the 
Snowcrest as Wilderness and the BLM recommends consideration of this 
area as Wilderness.
    We also support the expansion of the Centennial Wilderness Area in 
S. 1470 by adding approximately 3,800 acres found in Peet Creek/Price 
Creek. With one small cherry stem for the existing logging road in the 
East fork of Peet Creek, addition of this area would protect important 
habitat for big game, grizzly bear, wolverine, and cutthroat trout.
    3) Lee Metcalf Wilderness addition: For the north unit of this 
Wilderness addition we recommend elimination of the non-wilderness 
corridor (Trail #315) that would bisect this proposed addition into two 
units. Originally we understood this trail corridor was added to the 
bill to accommodate mountain bike use but it has become clear that the 
western portion of this trail crosses onto private land with a public 
use easement that is clearly limited to only foot and horse traffic.
    4) East Pioneers, West Pioneers, and West Big Hole areas: Compared 
to S. 1470, the Beaverhead-Deerlodge Partnership Agreement negotiated 
larger Wilderness Areas for these three areas. Given the wild values 
and ecological importance of these areas (as well as the fact that the 
expanded East Pioneers acreage is recommended Wilderness by the Forest 
Service), we suggest reconsideration of S. 1470's boundaries for these 
areas, with expansion of some of them to more closely follow what the 
Partnership originally proposed.
Wilderness Management Language
    There is some language in S. 1470 relating to management of 
wilderness areas that we believe is unnecessary and could complicate 
management consistent with the Wilderness Act. We are aware of concerns 
over management of new wilderness, and believe sufficient guidance 
already exists to allow the agencies to address these important issues.

          1) Highlands Wilderness: S. 1470 contains language that would 
        authorize the continued landing of helicopters for military 
        training purposes within this proposed Wilderness Area. We 
        recommend that S. 1470 instead designate the Highlands area as 
        a ``Potential Wilderness'' (similar to language used in the 
        recently enacted Virginia Wilderness bill). This designation 
        would allow essential training to continue, while protecting 
        the area's wilderness values. We would encourage the inclusion 
        of ``trigger'' language that would designate the Highlands as 
        Wilderness upon publication by the Secretary that the non-
        conforming use is no longer occurring.
          2) Snowcrest Wilderness: While we are not opposed to 
        continued grazing in this proposed wilderness area, we believe 
        S. 1470's language providing for continued motorized access for 
        sheep trailing and maintenance of water impoundments is 
        unnecessary. The Congressional Grazing Guidelines, incorporated 
        in S. 1470 at Section 202(i), provide time-tested guidance for 
        the managing agency to effectively balance existing grazing 
        related motorized and mechanized use with the Wilderness Act's 
        management provisions.
          3) State Management of Recreational Use: Section 202(j)(2)(B) 
        could be interpreted to allow motorized access into wilderness 
        areas for recreational activities including hunting, fishing, 
        trapping, and other state managed uses. We recommend deleting 
        this subsection and replacing it with language consistent with 
        the language in the Omnibus Public Lands Act of 2009 (Sections 
        5401(a) and 8301(a)) that makes clear that access to wilderness 
        areas must be consistent with the Wilderness Act.
          4) Outfitter Permits: Section 202(m) effectively removes 
        Forest Service outfitter permits in use on date of enactment of 
        S. 1470 from any further analysis, in perpetuity. We understand 
        this language was intended to ensure wilderness designation in 
        and of itself did not trigger a new round of permit review and 
        that any permit-related costs be borne by the permitting 
        agency. We believe this language should be revised to state 
        that outfitting should continue subject to existing 
        regulations--and not be suspended or reduced simply because of 
        the wilderness designation.
       special management area/national recreation area language
    We support the special designations that would protect Montana's 
landscapes and provide continued recreation opportunities. We suggest 
the following improvements in these provisions.

          1) West Big Hole Recreation Area: We suggest adding language 
        like that found in section 206 similarly authorizing the 
        Secretary to close any trail or route for purposes of public 
        safety or natural resource protection. We also suggest removal 
        of the unclear purpose related to conservation of values ``that 
        represent the economic and social history of the American 
        West.''
          2) Three Rivers Special Management Area: Consistent with the 
        restrictions placed on other recreation areas and special 
        management areas in this legislation, we suggest that this 
        subsection (209) include a prohibition on new roads and trails.
          3) Mechanized, nonmotorized vehicle language: The language 
        for management of mechanized/non motorized vehicles in the West 
        Big Hole Recreation Area (section 206), Lost Creek Protection 
        Area (section 205), and Thunderbolt Creek Recreation Area 
        (section 208) should be amended to include language that 
        provides discretion to close trails, routes, areas if necessary 
        for public safety or natural resource protection. This would be 
        consistent with language already found in the bill addressing 
        snowmobile management in the Lost Creek area (section 205(f)(2) 
        and for overall recreation management in the West Pioneers unit 
        (section 207(g)(3).
             additional questions and components for review
    The Wilderness Society strongly supports the wilderness designation 
and forest restoration goals of S. 1470 and we respect the diverse 
collaborative efforts that have worked for years to chart a new path 
forward. We also agree with Secretary Vilsack, who said in his 
groundbreaking speech in Seattle in August of 2009, that our shared 
vision for the national forests begins with restoration.
    We also recognize and respect the concerns of our partners in the 
timber industry regarding the fact that the Forest Service does not 
have the capacity to address all of the forest restoration needs that 
exist today and thus the importance of maintaining some timber 
infrastructure in the state. If we hope to complete these forest 
restoration needs, we believe we must take the following steps:

  <bullet> Ensure adequate funding for Forest Service restoration 
        programs in Montana and nationally;
  <bullet> Sustain a right-sized timber industry infrastructure 
        adequate to carry out much-needed forest restoration 
        activities;
  <bullet> Protect the integrity of all existing laws and regulation 
        including the National Environmental Policy Act, Endangered 
        Species Act, National Forest Management Act, and others;
  <bullet> Examine other forest restoration models to ensure the final 
        version of S. 1470 is modeled after approaches that have worked 
        on the ground while avoiding the pitfalls of failed attempts at 
        forest management.
  <bullet> Consider the impact of S. 1470's provisions on other 
        collaborative efforts under development or those that could 
        arise in the future, given the growing interest in tackling 
        forest protection, logging, restoration issues outside of the 
        regular national forest planning process and the tendency to 
        incorporate approaches already ratified by Congress.

    Finally, as many have noted (including Senator Tester, the 
Administration, and Trout Unlimited in S. 1470's December 17 hearing), 
the specific components of the Forest Jobs and Recreation Act were not 
intended to be replicated nationally or to resolve the longstanding 
calls for review and reform of the many mandates driving national 
forest management. Given this, we recommend that S. 1470 have explicit 
language both presenting its overall approach and specific components 
as a pilot project intended to help inform larger national forest 
management and better detailing how ecological health and restoration 
impacts are to be monitored and reported back to Congress.
                               conclusion
    The Wilderness Society's vision for our National Forests is to 
maintain and restore healthy and sustainable natural forests that will 
be resilient in the face of climate change while providing multiple 
benefits, from recreation to jobs for future generations of Americans. 
We share Secretary Vilsack's view that forest restoration represents 
the Forest Service's future. We agree that the Montana Forest 
Restoration Committee and the Southwestern Crown of the Continent FLRA 
effort are viable models that deserve further study and support. We 
believe it is appropriate to continue managing the forests for 
recreation, timber, livestock forage, and other commodities, but only 
when doing so is consistent with ecosystem integrity, is economically 
sound, and benefits from citizen participation. Our experience with 
forest restoration in Montana has proven that conservationists, 
hunters, anglers and the timber industry can find common ground 
regarding national forest management. Participants in the MFRC define 
this common ground as a ``zone of agreement'' and The Wilderness 
Society believes that operating within this zone of agreement is the 
most likely path to success.
    In conclusion, TWS supports S. 1470 and is committed to working 
with Senator Tester, the committee and the Obama administration to 
address concerns, seek creative, workable solutions and to ensure the 
final version of this bill is the best possible legislation for Montana 
and the nation.

                                    

      

</pre></body></html>
